<html>
<title> - THE IMPLEMENTATION OF GEOSS: A REVIEW OF THE ALL-HAZARDS WARNING SYSTEM AND ITS BENEFITS TO PUBLIC HEALTH, ENERGY, AND THE ENVIRONMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
THE IMPLEMENTATION OF GEOSS: A REVIEW OF THE ALL-HAZARDS WARNING SYSTEM 
     AND ITS BENEFITS TO PUBLIC HEALTH, ENERGY, AND THE ENVIRONMENT
=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2005

                               __________

                            Serial No. 109-2

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                              __________


                 U.S. GOVERNMENT PRINTING OFFICE

99-903                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001










                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director
      James D. Barnette, Deputy Staff Director and General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                    ED WHITFIELD, Kentucky, Chairman

CLIFF STEARNS, Florida               BART STUPAK, Michigan
CHARLES W. ``CHIP'' PICKERING,         Ranking Member
Mississippi                          DIANA DeGETTE, Colorado
CHARLES F. BASS, New Hampshire       JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  JAY INSLEE, Washington
MIKE FERGUSON, New Jersey            TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas            HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                 (ii)









                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Colleton, Nancy, Co-Founder, Alliance for Earth Observations.    35
    Dearry, Allen, Associate Director, Division of Research 
      Coordination, Planning, and Translation, National Institute 
      of Environmental Health Sciences, National Institutes of 
      Health.....................................................    61
    Foley, Gary, Director, National Exposure Research Laboratory, 
      U.S. Environmental Protection Agency.......................    65
    Glass, Gregory E., Professor, Molecular Microbiology and 
      Immunology, Bloomberg School of Public Health, Johns 
      Hopkins University.........................................    41
    Hood, Carroll A., Geoss Chief Architect, Raytheon............    44
    Hooke, William H., Director, Policy Program, American 
      Meteorological Society.....................................    50
    Lautenbacher, Vice Adm. Conrad C., Jr., Undersecretary of 
      Commerce for Oceans and Atmosphere and NOAA Administrator, 
      U.S. Department of Commerce................................    10
    Patrinos, Aristides, Associate Director for Biological and 
      Environmental Research, U.S. Department of Energy..........    68
Additional material submitted for the record:
    Colleton, Nancy, Co-Founder, Alliance for Earth Observations, 
      response for the record....................................    85
    Hood, Carroll A., Geoss Chief Architect, Raytheon, response 
      for the record.............................................    94
    Hooke, William H., Director, Policy Program, American 
      Meteorological Society, letter dated April 13, 2005, 
      enclosing response for the record..........................    98
    Lautenbacher, Vice Adm. Conrad C., Jr., Undersecretary of 
      Commerce for Oceans and Atmosphere and NOAA Administrator, 
      U.S. Department of Commerce, response for the record.......    76

                                 (iii)

  


THE IMPLEMENTATION OF GEOSS: A REVIEW OF THE ALL-HAZARDS WARNING SYSTEM 
     AND ITS BENEFITS TO PUBLIC HEALTH, ENERGY, AND THE ENVIRONMENT

                              ----------                              


                        WEDNESDAY, MARCH 9, 2005

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:54 p.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman) presiding.
    Members present: Representatives Whitfield, Bass, Burgess, 
Blackburn, Barton (ex officio), DeGette, Schakowsky, and 
Inslee.
    Staff present: Mark Paoletta, chief counsel; Casey Hemard, 
majority counsel; Peter Spencer, professional staff; Michael J. 
Abraham, legislative clerk; Edith Holleman, minority counsel; 
Voncille Hines, research analyst; and Turney Hall, clerk.
    Mr. Whitfield. At this time, I will call the hearing to 
order, and I would apologize to those of you who have been 
waiting, but we had a vote on the floor, so it looks like we 
are about 15 or 20 minutes late, but I can assure you that we 
will hopefully not be delayed much longer. And I certainly want 
to thank the witnesses this morning.
    And at this time, I will take 5 minutes for my opening 
statement to get the hearing started.
    First of all, good afternoon.
    On December 26, 2004, the world witnessed a disaster in 
South Asia that, in minutes--in a matter of minutes, destroyed 
villages and close--and left close to 300,000 people dead or 
missing. The Indian Ocean tsunami was staggering in its 
devastation.
    While there is no way to stop a tsunami, warning areas in 
the path of a tsunami are possible and provide the best 
opportunity to save lives. Tsunami warning systems assemble and 
integrate data from satellites, buoys, and gauges to determine 
where a tsunami could hit.
    The United States, in fact, uses such a system. It is part 
of the Pacific Tsunami Warning System that provides warnings on 
tsunamis to most countries in the Pacific Ocean. South Asia, 
sadly, did not have the benefit of such a warning system.
    Given the technological capabilities of the 21st century, 
we should be able to harness our data-gathering abilities and 
do more to warn people the world over about impending dangers, 
both for tsunamis and other destructive events.
    I have called this hearing today, because the United States 
has just entered into an agreement with 59 countries and other 
international organizations to develop over the next decade 
just such a system. The system, or rather system of systems, 
will allow for an unprecedented amount of data sharing that 
could bring real benefits to our lives.
    The Global Earth Observation System of Systems, or GEOSS as 
it is commonly called, is an effort by participating countries, 
including countries from South Asia, to create an all-hazards 
warning system. Just as we have tools to determine where 
tsunamis could hit, we have tools to forecast weather and 
monitor air pollution, wind currents, air temperature, and 
ocean currents. These tools include satellites, seismographs, 
gauges, and buoys. GEOSS would link our U.S. technology to that 
of the other participating nations, creating an integrated 
system that would give us access to data from around the earth.
    Out of this effort, proponents tell us we not only will 
enhance and expand our ability to predict and warn of tsunamis, 
but also be able to make informed decisions in anticipation of 
a variety of other threats to life, health, property, and the 
economy around the world and here at home.
    Today, we will hear from witnesses about GEOSS and what it 
does, what is involved and necessary to make it work, the U.S. 
role, and the range of benefits that we may see when it is 
operational. Witnesses will also speak to three specific areas 
that may benefit from the system: public health, energy, and 
the environment.
    First this afternoon, we will hear from Admiral Conrad 
Lautenbacher. Admiral Lautenbacher currently serves as 1 of 4 
co-chairs of the Group on Earth Observations, and plays a 
critical role in seeing that the 10-year plan for GEOSS is 
implemented. He has been involved with organizing this 
integrated system from the outset.
    Since the United States must integrate its own assets and 
make them interoperable to successfully link up with the other 
regions of the world, I will look forward to hearing from 
Admiral Lautenbacher about the standards we need to develop to 
make our information sharing more effective and more efficient. 
Of course, as the Administrator of the National Oceanic and 
Atmospheric Administration, he can also explain how the United 
States is prepared to address the risk of tsunamis along all of 
our coasts.
    We will hear, also, from Dr. Allen Dearry from the National 
Institute of Environmental Health. He will discuss how GEOSS 
will advance the cause of public health. Scientists, for 
example, hope 1 day to use satellite data to trace an illness-
causing bacteria, fabrio cholera, in plankton before it hits 
coastlines so that regions can get medicine and rehydration 
materials to affected populations. The World Health 
Organization receives reports of approximately 185,000 cases of 
cholera in 2001, so this would aid a great deal of people.
    We will also hear from Dr. Greg Glass who can offer insight 
on the potential of forecasting diseases like malaria and West 
Nile Virus. Malaria causes more than 300 million episodes of 
acute illness and 1 million deaths annually, according to the 
World Health Organization.
    Dr. Ari Patrinos from the Department of Energy will explain 
how GEOSS will enable us to better manage and monitor our 
energy resources. One study has shown that if we could more 
accurately predict the temperature by 1 degree Fahrenheit, we 
would save more than $1 billion annually. Armed with better 
information, utility companies could anticipate their needs and 
purchase electricity in more financially advantageous ways. 
These savings could, in turn, be handed down to the customer.
    Dr. Gary Foley of the Environmental Protection Agency will 
talk about the potential benefits to our air and water quality. 
EPA is already engaging a data-sharing partnership within the 
United States. They are adding to the quality of life. Dr. 
Foley will describe how partnering with other agencies has 
enabled EPA to get better air quality data to the State of New 
York so that the State can inform its citizens when the air 
quality may be harmful to their health.
    We will also hear from several witnesses who will provide 
outside perspectives on this system. Nancy Colleton heads the 
Alliance for Earth Observation, a group bringing industry and 
academia together to provide their input to the process. 
Carroll Hood is formerly of NASA and now works on Raytheon 
Corporation's efforts in the development of GEOSS. Mr. Hood 
will testimony about some of the architectural aspects of this 
system. The American Meteorological Society recently issued a 
report that outlined challenges facing implementation of the 
U.S. portion. Dr. William Hooke of the Society will be able to 
discuss what needs to be done for this important endeavor to 
reach its full potential.
    GEOSS is far reaching in its scope and has the promise to 
improve our lives. EPA's website outlines some of the potential 
benefits to each State. Using my Home State of Kentucky as an 
example, earth observations can help Kentucky track plant 
diseases and invasive species, such as blue mold, by satellite 
and predict where it will go based on our knowledge of the 
climate, soil, and the mold itself. This will certainly be 
helpful to farmers and those involved in agricultural.
    From benefiting loss of life to improving our quality of 
life on a daily basis, the information derived from this new 
system can benefit us all.
    I look forward to hearing from our witnesses about these 
opportunities and all that they will yield.
    Let me welcome our witnesses.
    And I now recognize the ranking member for the purpose of 
making an opening statement.
    [The prepared statement of Hon. Ed Whitfield follows:]
  Prepared Statement of Hon. Ed Whitfield, Chairman, Subcommittee on 
                      Oversight and Investigations
    Good afternoon. On December 26, 2004, the world witnessed a 
disaster in South Asia that left close to 300,000 people dead or 
missing. Parents lost children, other children were made orphans, and 
villages were destroyed in a matter of minutes. The Indian Ocean 
tsunami was staggering in its devastation.
    While there is no way to stop a tsunami, warning areas in the path 
of a tsunami is possible, and provides the best opportunity to save 
lives. Tsunami warning systems assemble and integrate data from 
satellites, buoys and gauges to determine where a tsunami could hit. 
The United States, in fact, uses such a system. It is part of the 
Pacific Tsunami Warning System that provides warnings on tsunamis to 
most countries in the Pacific Ocean. South Asia, sadly, did not have 
the benefit of such a warning system.
    Given the technological capabilities of the 21st Century, we should 
be able to harness our data-gathering abilities and do more to warn 
people the world over about impending dangers, both for tsunamis and 
other destructive events. I have called this hearing today because the 
United States has just entered into an agreement with 59 countries and 
other international organizations to develop over the next decade just 
such a system. The system--or, rather, system of systems--will allow 
for an unprecedented amount of data sharing that can bring real 
benefits to our lives.
    The Global Earth Observation System of Systems, or GEOSS as it is 
commonly called, is an effort by participating countries--including 
countries from South Asia--to create an all-hazards warning system. 
Just as we have tools to determine where tsunamis could hit, we have 
tools to forecast weather and monitor air pollution, wind currents, air 
temperature, and ocean currents. These tools include satellites, 
seismographs, gauges, and buoys. GEOSS would link our U.S. technology 
to that of the other participating nations, creating an integrated 
system that would give us access to data from around the earth.
    Out of this effort, proponents tells us, we not only will enhance 
and expand our ability to predict and warn of tsunamis, but also be 
able to make informed decisions in anticipation of a variety of other 
threats to life, health, property, and the economy around the world and 
here at home.
    Today we will hear from witnesses about GEOSS, what it does, what 
is involved and necessary to make it work, the U.S. role, and the range 
of benefits that we may see when it is operational. Witnesses will also 
speak to three specific areas that may benefit from the system: public 
health, energy and the environment.
    First, this afternoon, we will hear from Admiral Conrad 
Lautenbacher. Admiral Lautenbacher currently serves as one of four co-
chairs of the Group on Earth Observations and plays a critical role in 
seeing that the 10-year plan for GEOSS is implemented. He has been 
involved with organizing this integrated system from the outset. Given 
that the United States must integrate its own assets and make them 
interoperable to successfully link up with other regions of the world, 
I look forward to hearing from Admiral Lautenbacher about the standards 
we need to develop to make our information sharing more effective and 
more efficient. Of course, as the Administrator of the National Oceanic 
and Atmospheric Administration, he can also explain how the United 
States is prepared to address the risk of tsunamis along all our 
coasts.
    We will hear from Dr. Allen Dearry, from the National Institute of 
Environmental Health. He will discuss how GEOSS will advance the cause 
of public health. Scientists, for example, hope one day to use 
satellite data to trace an illness-causing bacteria vibrio cholerae in 
plankton before it hits coastlines, so that regions can get medicine 
and rehydration materials to affected populations. The World Health 
Organization received reports of approximately 185,000 cases of cholera 
in 2001, so this could aid a lot of people. We will also hear from Dr. 
Greg Glass who can offer insight on the potential of forecasting 
diseases like malaria and West Nile Virus. Malaria causes more than 300 
million episodes of acute illness and one million deaths annually, 
according to the WHO.
    Dr. Ari Petrinos from the Department of Energy will explain how 
GEOSS will enable us to better manage and monitor our energy resources. 
One study has shown that if we could more accurately predict the 
temperature by one degree Fahrenheit, we could save more than $1 
billion annually. Armed with better information, utility companies 
could anticipate their needs and purchase electricity in a more 
financially advantageous way. These savings could in turn be handed 
down to the customer.
    Dr. Gary Foley of the Environmental Protection Agency will talk 
about the potential benefits to our air and water quality. EPA is 
already engaging in data-sharing partnerships within the United States 
that are adding to quality of life. Dr. Foley can describe how 
partnering with other agencies has enabled EPA to get better air 
quality data to the State of New York so that the state can inform its 
citizens when air quality may be harmful to their health.
    We will also hear from several witnesses who will provide outside 
perspectives on GEOSS. Nancy Colleton heads the Alliance for Earth 
Observation, a group bringing industry and academia together to provide 
their input to the GEOSS process. Carroll Hood is formerly of NASA and 
now works on Raytheon Corporation's efforts in the development of 
GEOSS. Mr. Hood will testify about some of the architectural aspects of 
this system.
    The American Meteorological Society recently issued a report that 
outlined challenges facing implementation of the U.S. portion of GEOSS. 
Dr. William Hooke of the Society will be able to discuss what needs to 
be done for this important endeavor to reach its full potential.
    GEOSS is far-reaching in its scope and has the promise to improve 
our lives. EPA's Website outlines some of the potential benefits of 
GEOSS to each state. Using my home state of Kentucky as an example, 
earth observations can help Kentucky track plant disease and invasive 
species, such as tobacco blue mold by satellite and predict where it 
will go, based on our knowledge of the climate, soil, and the mold 
itself. This information would be of great benefit to farmers. From 
preventing loss of life to improving our quality of life on a daily 
basis, the information derived from GEOSS can benefit us all. I look 
forward to hearing from our witnesses about these opportunities and all 
that they will yield.
    Let me welcome our witnesses. And I now recognize the Ranking 
Member for the purposes of making an opening statement.

    Ms. DeGette. Thank you so much, Mr. Chairman.
    And on my behalf and on behalf of Mr. Stupak, let me 
welcome you as chairman. We look forward to working with you on 
this subcommittee in the 109th Congress.
    The concept of an integrated global system of the earth 
observations collected by a large number of countries that 
would be free and available for use by government, scientists, 
universities, industry, environmentalists, and individuals to 
better predict and understand the workings of our world is 
truly an exciting one.
    In the area of climate change, being able to follow changes 
in air emissions, deforestation, temperature and water level 
changes on a global basis would be invaluable as we confront 
global warming.
    More complete and long-term weather observations would help 
electric utilities more economically purchase power, allow 
farmers to more effectively plan the use of irrigation and 
fertilizer for better crop yields, and assist countries in 
planning for droughts and floods. Being able to track the 
moisture and temperature factors the affect the life cycle of 
mosquitoes would be invaluable in preventing a number of 
diseases, including malaria and the West Nile virus.
    But, as our witnesses will tell us today, this integrated 
system is not something that will be realized immediately. It 
will take commitment and money, particularly from developed 
countries, like the United States, to create a coordinating 
structure and a technical architecture that can integrate the 
many pieces of data that now exist. We will need to identify 
the gaps in data and set priorities. As one of our witnesses 
will testify later today, ``The level and nature of investments 
made in this area in the coming few years will either sustain 
or limit our ability to meet national and international needs 
for effective earth observations.'' More immediate for this 
country, however, is the need to integrate our own earth 
observation system. An undertaking like GEOSS absolutely 
requires the commitment, both financial and political of the 
United States.
    The American Meteorological Society reports that GEOSS will 
fail unless the U.S. effectively integrates its own earth 
observation systems. This has not yet been done, and the first 
step toward implementation, which is to set up a permanent 
interagency subcommittee, has not yet been accomplished.
    I look forward to hearing from the various agency officials 
on their progress toward this end.
    Additionally, I am sorry to say, there does not yet appear 
to be the political commitment necessary to fund these efforts. 
In fact, in the 2005 omnibus spending bill, $10.6 million out 
of NOAA's $24 million budget for climate observations and 
services was eliminated. The cuts included funding for a new 
network of 110 observation stations intended to provide a 
definitive long-term climate record for the United States. 
Atmospheric monitoring of carbon dioxide, which first alerted 
the world to a steady rise in CO2 levels, was also cut.
    Both networks were described in a recent issue of Science 
Magazine as key pillars in a much touted international system 
of systems for earth observation that the Bush Administration 
has called essential for resolving uncertainties in the 
connection between greenhouse gas emissions and climate change. 
If we can not protect this relatively small expenditure to 
benefit our own country from the budget cutters, how are we 
going to integrate our own earth observation system much less 
the world's?
    Admiral Lautenbacher is to be commended for his commitment 
to making these systems a reality, and we hope that he is 
successful. GEOSS has enormous potential. My Home State of 
Colorado is the national and international center for earth 
observing data collection. NIST and NOAA operate national 
laboratories there. Our research universities work hand-in-hand 
with NASA and other Federal agencies, and a vibrant private 
sector is expanding knowledge and creating jobs every day.
    By integrating our own Nation's data gathering, providing 
information to countries that need it most, and benefiting from 
the help of the international community's efforts, we can 
ensure a safer world and a more complete understanding of it. 
But there are many questions surrounding the implementation of 
GEOSS.
    I look forward from--to hearing from all of the panelists 
who represent a wide array of stakeholders from the public and 
private sector.
    And Mr. Chairman, once again, I would like to applaud you 
for holding the first of what I hope will be many hearings in 
Congress so that we robustly exercise our constitutional 
oversight role.
    And I yield back. Thank you.
    Mr. Whitfield. Thank you, Ms. DeGette.
    And now it is my pleasure to introduce the chairman of the 
Energy and Commerce Committee for his opening statement.
    Chairman Barton. Thank you, Mr. Chairman.
    And I want to commend you, as Congresswoman DeGette did, on 
your virgin hearing as chairman of the Oversight and 
Investigations Subcommittee. This is the first of many, and I 
am sure you will do an excellent job. You are a long-time 
member of Oversight and Investigations Subcommittee. And my 
first subcommittee chairmanship was this--where you are right 
now. It is, in many ways, I think the premier subcommittee 
chairmanship of this committee, and this committee has a proud 
tradition of doing bipartisan oversight and investigations 
going back for the last 30 to 40 years. So I will support you 
in every way possible to carry on that tradition.
    I want to welcome our witnesses today. This is a very 
important issue to have our first oversight hearing on. The 
tsunami in late December that claimed the lives of 
approximately 300,000 was obviously a huge tragedy in the 
world. The United States has met with other countries in the 
last month or so to try to come up with a protocol on how to 
integrate all of these systems. And our hearing today is to see 
how we can do it here in the United States and then expand that 
to the GEOSS system around the world.
    I thank the Admiral for being here and the other panelists. 
I won't be able to stay for the entire hearing, but I will try 
to pop in and out.
    And with that, Mr. Chairman, again, congratulations on your 
chairmanship and good luck, and thank you for hosting this 
important hearing to start the process.
    [The prepared statement of Hon. Joe Barton follows:]
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce
    Thank you, Chairman Whitfield for holding what promises to be a 
very interesting and important hearing and is your kickoff hearing as 
Chairman of this Subcommittee.
    Late last year America watched as images came back from South Asia 
of the deadliest tsunami the modern world has known. The toll, as awful 
as it was in the beginning, grew each day until we realized that nearly 
300,000 people were lost. The worst part is that thousands of lives 
could have been saved if South Asia had the weather detection equipment 
already in place in other parts of the world.
    We can't stop a tidal wave, but it is a miracle of science that we 
can see one in the making and warn people in time to flee and live. 
Today, the Subcommittee will examine the Global Earth Observation 
System of Systems, or GEOSS, a network that promises to transform 
disaster warning systems and other types of surveillance that can 
further save and improve our lives.
    We now have technology that can gather and link information from 
around the world in an unprecedented way. Thousands of instruments--
from satellites, to buoys, to tidal gauges--providing important data 
offer tremendous resources of opportunity, yet many of them operate in 
isolation. GEOSS offers the means to bring all this vital information 
together. The information is out there, and GEOSS promises to give us 
the capability to have useful access to it.
    This observational data could produce breakthroughs that would 
significantly enhance mankind's quality of life. From improving 
agriculture to thwarting outbreaks of malaria and other diseases to 
saving lives from natural disasters, the applications are countless.
    If we could forecast drought more effectively based on the 
information we receive from data sharing, we could arm farmers in the 
affected regions with this information so they could make better 
decisions to maximize efficiency and minimize losses.
    If we could utilize this information to determine where and when 
disease epidemics are likely to hit, we could get medical supplies to 
the appropriate regions to combat outbreaks.
    At the outset of my remarks I referenced the 2004 tsunami, but this 
system could also save lives from a whole host of other disasters 
including avalanches, wildfires, floods and droughts.
    For all the promise, there is much work to be done. Today's hearing 
will examine what remains to be implemented, what steps we are making 
in the right direction, and what steps we should question. We should 
know clearly the challenges before us.
    Nevertheless, GEOSS offers genuine and beneficial opportunities. 
And these opportunities would never have reached this point without the 
commitment of the Administration, which we should applaud.
    This Administration had the foresight to bring high-level ministry 
officials from countries all over the world together to collaborate on 
this.
    On that note, I'd like to welcome Admiral Conrad Lautenbacher, who 
has been a driving force in this effort. He joins us this afternoon to 
discuss the benefits of GEOSS and challenges we face as the 10-year 
implementation plan endorsed in Brussels last month gets underway.
    In the United States, there is an interagency working group on 
earth observations that is implementing our own 10-year all-hazards 
plan. I look forward to hearing today from agencies in this Committee's 
jurisdiction that sit on the interagency group. I want to learn what 
this Committee can do to ensure that information gathering and sharing 
is as robust, valuable, and timely as can be to their missions.
    Within the United States, the integration of our own system will 
involve partnerships among our federal agencies, academia, industry, 
and other non-governmental organizations. To gain a better handle on 
this aspect of the project, we will hear from representatives of these 
groups today. I look forward to their perspectives on this ``System of 
Systems.''
    Mr. Chairman, only through clear-eyed assessment will we be able to 
make thoughtful decisions to ensure the promises of this system can be 
achieved.
    Let me again thank all the witnesses. I look forward to your 
testimony. And I yield back the remainder of my time.

    Mr. Whitfield. Thank you, Mr. Chairman.
    And at this time, I will recognize Ms. Schakowsky for an 
opening statement.
    Ms. Schakowsky. I thank you, Chairman Whitfield, for 
holding today's hearing on GEOSS, the Global Earth Observation 
System of Systems.
    GEOSS would help connect the dots between thousands of 
environmental sensors currently monitoring the earth. This is 
an intriguing concept, which, if implemented, could provide the 
United States and the international community with a valuable 
resource to better understand our planet. And I want to join in 
congratulating Admiral Lautenbacher for his forward-looking 
thinking on this topic.
    There are a number of questions, I am sure he would agree, 
that need to be explored and answered if this is to become a 
reality, and I hope that our witnesses today will address some 
of these concerns and provide Congress with a better 
understanding of this proposal.
    The potential of this program is enormous. GEOSS would 
provide timely data for local, regional, national, and 
international policymakers. On the global level, we will be 
able to more effectively sustain agricultural development, 
determine weather patterns, monitor our fragile environment, 
reduce damage from natural resources, improve public health, 
and much more. I hope that the United States' major 
contribution to GEOSS, the integrated earth observation system 
will begin the process of protecting U.S. coastlines from the 
devastation of tsunamis such as the one we recently witnessed 
in the Indian Ocean amongst the nearly 300,000 dead. In that 
tragedy was a constituent and family friend of mine, Ben Ables.
    Enhanced environmental tracking in my Home State of 
Illinois where agriculture is of vast importance, would provide 
several benefits. GEOSS would create a better understanding of 
soil moisture available to crops and understanding of weather-
related crop damage. GEOSS may help to protect our watersheds 
with water quality monitoring and mapping of land cover 
changes, which will help protect sources of water for both 
agriculture and human use.
    I am concerned that it will be difficult to guarantee the 
consistent level of international diplomatic and financial 
cooperation needed to ensure the success of this program. I 
would like to know how we can guarantee full international 
cooperation to make GEOSS effective. I also have not seen how a 
technology platform could be developed that can be successfully 
utilized by all the nations committed to this program. 
Additionally, I am interested in learning more about the 
potential role of the private sector in this program.
    I would like to believe that the vision of GEOSS is 
realizable, given its potential. We need to seriously consider 
what steps must be taken to further progress toward its 
realization. I am glad that all of our panelists were able to 
join us today to help us determine the best role for the 
Federal Government to make GEOSS a success. And I look forward 
to your testimony in particular, Admiral, and I thank you, 
Chairman Whitfield.
    Mr. Whitfield. At this time, I will recognize Mr. Burgess 
for an opening statement.
    Mr. Burgess. Thank you, Mr. Chairman.
    I will submit a statement for the record and--so we can go 
on to the witnesses.
    Mr. Whitfield. Forgive me. I should say Dr. Burgess.
    Mr. Burgess. Right.
    Mr. Whitfield. I recognize the gentleman from New 
Hampshire, Mr. Bass.
    Mr. Bass. Thank you very much, Mr. Chairman, and I would 
like to join my colleague from Texas, Mr. Barton, the chairman 
of the committee, in congratulating you and commemorating this, 
the first hearing that you are holding as the chairman of this 
committee. I wouldn't characterize your attendance here as 
``virgin'', however. I would call it ``veteran''. Not only are 
you a veteran of this committee, but you are definitely 
becoming a veteran on the use of the time clock. I noted that 
it stopped at 32 seconds, and you were able to deliver a good 
10-minute opening statement, and I commend you for that 
creativity in your first day.
    I also want to thank you for holding this hearing. This is 
certainly an issue that is critical for the safety of our 
citizens in--during a natural disaster, but has, as others have 
mentioned, many far-reaching implications: public health, 
agriculture, energy, and environmental sectors. It is also my 
hope that witnesses--perhaps our first witness, will address 
the possible national security applications of an all-hazards 
system and the implications that it could have in dealing with 
movement of poisonous gases, chemical spills, dirty bombs, and 
other issues and threats to the homeland.
    I do have a more detailed statement, which I would like, 
with your permission, to submit for the record. And I look 
forward to hearing from our witnesses.
    I yield back.
    Mr. Whitfield. Without objection.
    Mr. Bass, thank you very much for those kind remarks.
    And is there anyone else? Okay.
    Well, at this time, I would like to formally welcome Vice 
Admiral Conrad Lautenbacher who is the Undersecretary of 
Commerce for Oceans and Atmosphere and the NOAA Administrator 
and tell you how pleased we are that you are here this 
afternoon.
    Now, Admiral, you are aware that the committee is holding 
an investigative hearing and when doing so, has had the 
practice of taking all testimony under oath. Do you have any 
objection to testifying under oath?
    Vice Admiral Lautenbacher. I do not.
    Mr. Whitfield. Then if you would please rise at this time. 
And the Chair will advise you that under the rules of the House 
and the rules of the committee, you are entitled to be advised 
by counsel. Do you desire to be advised by counsel during your 
testimony today?
    Vice Adm. Lautenbacher. No, sir.
    Mr. Whitfield. Then in that case, I would like to, at this 
time, swear you in. Thank you. You know, when you are in your 
first hearing, it is always good to have people helping you 
out, and I want to thank Ms. DeGette.
    [Witness sworn.]
    Mr. Whitfield. Thank you. You are now under oath, and you 
may proceed with your 5-minute summary of your written 
statement, Admiral.

      TESTIMONY OF VICE ADM. CONRAD C. LAUTENBACHER, JR., 
 UNDERSECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE AND NOAA 
           ADMINISTRATOR, U.S. DEPARTMENT OF COMMERCE

    Vice Adm. Lautenbacher. Thank you very much, Chairman 
Whitfield, Ms. DeGette, distinguished members of the 
subcommittee, and staff. Thank you very much for this 
opportunity to address you this afternoon on GEOSS, the Global 
Earth Observation System of Systems. I ask that my written 
testimony be submitted for the record, and I will make a brief 
statement.
    I was most delighted with the opening statements, because 
you took away everything that I would have to say about the 
system, and I am extremely pleased that there is this much 
interest and understanding of what we are about, so I am 
grateful for that.
    If I could just make a couple of comments that I think set 
in context that you have also mentioned, this is an effort that 
exists on a technical level, and it exists on a political 
international level. And so we are working on both parts of 
that, and it is very challenging. The technical part probably 
is the most--is the easiest part of this, this state-of-the-art 
that we have today for satellites, for information technology, 
for computers, for data transmission, for building standards. 
All of that is well known. You all use the Internet. You can 
see today that we have an information system that works around 
the world.
    Our issue is to get the right kinds of earth observing 
information available in such a context and such a format that 
it can become even more useful to the entire world. So 
technically I think we can do this.
    The hard part is the international organization issue. 
Earth problems know no political boundaries. We deal with air 
that comes from China. It comes over California and Colorado 
and comes to the East Coast. The water that goes from the Gulf 
Stream ends up in Iceland, and vice versa. You know, you can 
see that the systems are connected around the world, and it 
requires an international collaboration.
    Today, we have these elements of many--in many developed 
nations that are doing a great job for each country, but we 
believe if they are connected together, you can build an even 
more powerful system. So this is a--today, a coalition of 
volunteers, and it has grown from basically about 30 countries 
who agreed to come at the United States' invitation to the 
first Earth Observing Summit a year and a half ago, roughly, 
and 26 or 24 international organizations because it is a win-
win situation. It is an issue where you give and you get. And 
so the building--the buildup of this organization has been 
phenomenal. It has almost doubled the size in the year and a 
half with what I would call very little advertising. We have 
gone from a summit in the United States to a summit in Japan to 
now a summit in Europe hosted by the European Union and have 
agreement to build a 10-year plan, as you mentioned. And that 
is about--that is what we--that is the task upon which we are 
embarking. It has great support from all of the developing 
nations that--or developed nations today that have systems in 
play. They are all in this consortium, because they see huge 
benefits, and we are now getting developing nations to come 
into it. So the newer members that have joined this willingly 
are developing nations who see the value of it. And that 
capacity building is a very important part of this effort.
    You will hear more about the benefits, but there are two 
key pieces to making this successful. This is the first time we 
have had political interest in such an issue. It has been a 
Holy Grail of scientists for many years to look at these kinds 
of things and be able to wire the world and figure out what is 
going on with our systems. But today, it is such an important 
issue that elected leaders and policymakers from around the 
world see the benefit of it. So the earth observing summits 
were the first time that we had cabinet and ministerial level 
people from all of the nations come together and agree, and 
that is a very important milestone in this development.
    The other issue is that we have turned it around from about 
it as a science project to a benefit area. It is to the benefit 
areas. It benefits energy. It benefits water, all of the things 
that you talked about in your opening statements, agriculture. 
So those are two developments that have caused this to give it 
a platform to be successful. I do believe that it offers 
enormous benefit for the areas that we have cited and you will 
hear today in testimony. I think this is a turning point for 
our ability to start to work together on global economic 
development and environmental--sustainable development areas 
for our--efforts for our environment.
    Again, I want to acknowledge this--the work of this 
committee and allowing me to speak. I also want to mention my 
boss, Commerce Secretary Gutierrez, who went to Brussels and 
gave the United States' speech and endorsement of this system 
and took the President's blessing with him at that point.
    And so with that, I want to finish my statement. Again, 
thank you for allowing me this opportunity. I look forward to 
answering your questions, sir.
    [The prepared statement of Vice Adm. Conrad C. 
Lautenbacher, Jr. follows:]
  Prepared Statement of Vice Admiral Conrad Lautenbacher, Jr., (U.S. 
 Navy, Ret.), Undersecretary of Commerce for Oceans and Atmosphere and 
 NOAA Administrator, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce
    Chairman Whitfield, Mr. Stupak, and Members of the Subcommittee, I 
am very happy to be here today to speak to you about the Global Earth 
Observation System of Systems (GEOSS). I have personally championed 
this program both at the National Oceanic and Atmospheric 
Administration (NOAA) and within our interagency community because I 
strongly believe it has tremendous potential benefits for the United 
States and the world.
    GEOSS is an excellent example of science serving society. Over 
time, GEOSS will provide an important scientific basis for sound policy 
and decision making in every sector of our society including energy, 
public health, agriculture, transportation and numerous other areas 
that shape the quality of everyday life. In addition, it will enhance 
our capability to address natural disasters in the United States and 
throughout the world.
    As you know, I have recently returned from the Third Earth 
Observation Summit in Brussels, Belgium, where nearly 60 countries and 
the European Commission adopted a plan that, over the next 10 years, 
will revolutionize our understanding of the Earth and how it works.
    Support is growing around the world for this project. In just 18 
months, since the Bush Administration hosted the first-ever Earth 
Observation Summit in July 2003, the number of participating countries 
has nearly doubled, and interest has grown since the recent tsunami 
tragedy. Nearly 40 international organizations also support the 
emerging global network. In the coming months, more countries and 
global organizations are expected to join the historic initiative.
    I would like to acknowledge the active involvement of Commerce 
Secretary Carlos M. Gutierrez, who led the U.S. Delegation to Earth 
Observation Summit III in his first international travel as Secretary.
 development of the global earth observation system of systems (geoss)
    Nearly three years ago, I had the pleasure of addressing the World 
Summit on Sustainable Development (WSSD) event on the Global 
Information for Sustainable Development (GISD) project. After my 
presentation, I heard about the different applications for the data and 
information provided by the GISD, and the international collaboration 
taking place to make scientifically sound public policy decisions.
    As you may know, at this event the participating countries decided 
to foster strengthened cooperation and coordination among global 
observing systems and research programs for integrated global 
observations. In the following year, the G8 ministers at Evian also 
issued a Science and Technology Action Plan calling on the nations of 
the G8 to strengthen cooperation on global observations.
Earth Observation Summit I
    Heeding that call, in July 2003, the United States hosted 34 
countries and 20 international organizations at the first-ever Earth 
Observation Summit in Washington, D.C. This meeting marked an important 
first step in bringing the nations of the world together for the 
purpose of establishing a comprehensive Earth observation system. The 
heads of national delegations participating in the summit adopted a 
declaration that announced their commitment to developing a 
comprehensive, coordinated Earth observation system built on existing 
systems.
    This declaration reaffirmed the need for Earth systems data and 
information for sound decision-making, set forth principles for long-
term cooperation, and committed participants to improving Earth 
observation systems and scientific support in developing countries. It 
also established the ad hoc Group on Earth Observations (GEO), which 
was tasked with preparing a ten-year implementation plan for a 
comprehensive, coordinated Earth observation system. I have been 
privileged to co-chair GEO, along with representatives from the 
European Commission, South Africa and Japan.
    One of the defining characteristics of GEO is that membership is 
open to any country that expresses an interest and designates a point 
of contact. Participating countries are not bound by geographic 
characteristics, population, or wealth--only by a desire to be a part 
of the future. This philosophy has led to the growth and expansion of 
GEO. A growing number of international organizations with observations 
and/or an Earth science focus are also participating in GEO.
    At this first summit, there was a sense of cooperation and 
goodwill, which is critical when working with such a large and diverse 
group of international partners. As an excellent example of the 
goodwill present in the room, Canada's Environment Minister, David 
Anderson, announced the commitment of his nation to make its climate 
data-- dating back to 1840--freely available to all nations.
Earth Observation Summit II
    Earth Observation Summit II in Tokyo in April 2004 welcomed 44 
ministers and heads of national delegations, along with 26 
international organizations. The convening of the Tokyo summit 
delivered on the charge from the initial Washington meeting to have a 
Framework for the 10-Year Plan agreed to by the spring of 2004.
    In preparation for this summit the GEO held a series of four 
meetings and worked diligently to develop this Framework. Specifically, 
at GEO 1, in Washington, we approved the Terms of Reference and 
established five working subgroups to address the Architecture, Data 
Utilization, User Requirements & Outreach, Capacity Building and
    International Cooperation components of the Plan. At GEO 2, in 
Baveno, we received initial reports from those subgroups, and reached 
consensus on a societal benefit/user focus for the Plan. We also began 
discussing an international cooperation mechanism for post-GEO 
implementation of the Plan. At GEO 3, in Cape Town, the Framework 
document and accompanying Communique were fully negotiated and prepared 
for distribution to countries for comments and clearance. And finally 
at GEO 4, in Tokyo, we held final discussions on the negotiated text of 
the Framework and Communique to be presented to ministers at the second 
summit, and received the first reports of the Implementation Plan Task 
Team. The group discussed a governance structure for a successor 
mechanism to GEO, and decided to hold a special session last summer to 
come to agreement on that issue.
    The Framework for the GEOSS, which emerged from this summit, 
focuses on the benefits of a global system, noting current key areas of 
observations and pointing out the shortcomings of our existing systems. 
The Framework also offers a picture of what GEOSS will look like.
    GEOSS will be:

 Comprehensive, by including observations and products gathered from 
        all components required to serve the needs of participating 
        members;
 Coordinated, in terms of leveraging resources of individual 
        contributing members to accomplish this system, whose total 
        capacity is greater than the sum of its parts; and
 Sustained, by the collective and individual will and capacity of 
        participating members.
    The Framework declares that the GEOSS will be a distributed system 
of systems, addressing data utilization challenges, as well as 
facilitating current and new capacity building efforts. Specific 
outcomes of an operational GEOSS are identified in the Framework 
including enabling global, multi-system information capabilities for:

 Weather Forecasting
 Disaster Reduction
 Oceans
 Climate
 Human Health and Well-being
 Ecosystems/Biodiversity
 Agriculture
 Water
 Energy
Earth Observation Summit III
    In preparation for the final summit, GEO convened two critical 
meetings. At GEO 5, in Ottawa, we continued the forward progress, with 
delegates negotiating the 10-Year Implementation Plan. Although 
governance issues proved to be challenging, once again the strong will 
to see this initiative through prevailed. At GEO 6, in Brussels, final 
negotiations were held, and transition issues were discussed in 
anticipation of the third summit, and the establishment of the new GEO.
    At the third Earth Observation Summit, recently hosted by the 
European Commission in Brussels, participants endorsed the 10-Year 
Implementation Plan as the basis for further development of the GEOSS. 
By adopting this implementation plan for the GEOSS, we have 
accomplished the first phase of realizing our goal of developing a 
comprehensive, integrated and sustained Earth observation system. In 
addition, the summit participants agreed to establish an 
intergovernmental Group on Earth Observations (GEO), and to take steps 
necessary to implement GEOSS in accordance with the 10-Year 
Implementation Plan. This new Group on Earth Observations replaces the 
ad hoc GEO, which officially ended with the completion of its task to 
develop the 10-Year Plan.
    The governments of all UN member states are encouraged to 
participate in GEO. In addition, the governing bodies of the UN 
Specialized Agencies and Programs, as well as other relevant 
international and regional organizations, are invited to endorse the 
implementation of GEOSS and assist GEO in its work.
    Summit participants also directed GEO to consult with the sponsors 
of the component systems of GEOSS to request progress reports on 
implementation as well as affirmation of their intention to provide the 
support necessary to execute the GEOSS 10-Year Implementation Plan.
    The participants resolved to meet before the end of 2007 to 
evaluate our progress and provide further guidance towards the 
successful implementation of GEOSS. They also resolved to conduct a 
mid-term assessment of GEO by 2010.
environmental, societal and economic benefits of a comprehensive earth 
                           observation system
    We have generated a great deal of political will in support of 
GEOSS and it is imperative to this process that we maintain it. 
Highlighting the human dimension and the benefits to society from a 
comprehensive system has been and will continue to be the key. Here are 
a few examples:
Agriculture
    A comprehensive system of Earth observations will supply critical 
information, allowing us to predict and plan for droughts and other 
phenomena affecting our agricultural outputs. Estimates of costs 
associated with drought in the United States range from $6 to $8 
billion annually. However, if we knew years in advance that these 
patterns would be occurring, we could take the necessary precautions to 
mitigate the impacts.
    Understanding the El Nino/La Nina patterns have allowed us to save 
millions of dollars in the United States alone. Crop planting 
decisions, seed selection, and fertilizer application can be adjusted 
to reduce vulnerability to abnormal weather conditions. It also may be 
possible to adjust storage of crop inventories in anticipation of 
changed yields due to El Nino. Worldwide benefits to agriculture due to 
El Nino forecasts are at least $450 to $550 million per year.
Health
    The health of our citizens will also benefit from an integrated 
system of observations that will be used for novel applications such as 
disease tracking and prediction. While still in their infancy, these 
projects have already begun.
    Malaria killed more than one million people last year, primarily in 
the developing world. Weather patterns--temperature, soil moisture and 
rainfall patterns--often set the stage for optimal conditions for the 
spread of diseases like malaria. Earlier this year, the National 
Aeronautics and Space Administration (NASA) and the University of 
Alabama-Huntsville announced a program for using satellite-based 
monitoring to alert at-risk communities when the conditions are right 
for malaria outbreaks. By utilizing information such as soil-type and 
recurring standing puddles, as well as satellite-based information, 
such as temperature and rainfall, a computer simulation may be used to 
estimate the risk of disease outbreak. The combination of satellite and 
land observations gives us a glimpse of the power of a truly integrated 
and comprehensive observation system. While malaria no longer plagues 
our citizens in this country, understanding the environmental factors 
that contribute to similarly spread diseases could help us predict, and 
possibly control or prevent their occurrence.
    Another exciting new health-based initiative was announced last 
year in the U.S. Northeast. NOAA and our colleagues from other 
government agencies, academia, and the international science community 
announced plans to conduct the largest ever air quality study in New 
England this summer. Data is collected by a variety of methods such as 
ground-based sensors measuring ozone, ships and aircraft monitoring the 
flow and transformation of air pollution, and satellites collecting 
data on climate and atmospheric changes. These data are very important 
for making policy and business decisions at the local level, but what 
if we could make global air quality forecasts in the same way we 
currently make weather forecasts? The real benefit comes by integrating 
this data with similar information collected all over the globe. Air 
quality monitoring systems will provide real-time information, as well 
as accurate forecasts days in advance.
Energy--Resource Management
    Utility companies typically use weather forecasts to determine the 
mix of coal, hydroelectric, nuclear, wind, natural gas and oil plants 
that will be used to meet consumer needs. In June 2001, USA Today 
reported that annual costs of electricity could decrease by an 
estimated $1 billion if we could improve the accuracy of weather 
forecasts by one degree Fahrenheit. This difference in just one degree 
of accuracy could impact the decision a utility company will make in 
determining whether to buy electricity from the wholesale market or 
fire-up an expensive natural gas facility to meet increased demand.
    Likewise, more accurate 5-day forecasts for hurricanes can save the 
offshore oil and gas industry significant amounts of money by notifying 
them when and if a facility must go offline for a storm. Not only is 
this a direct benefit to the company operating the platform, it's an 
indirect benefit that extends to the entire globe, preventing a ripple 
in the world energy market that can take weeks or months to recover 
from.
    A February 15, 2005 report issued by the U.S. Minerals Management 
Service (MMS) on oil and gas production in the Gulf of Mexico clearly 
demonstrates the disruptive effect of extreme weather. MMS states that 
the cumulative shut-in oil production for the period between September 
11, 2004 and February 14, 2005 (which includes the height of the 2004 
hurricane season) was 43.8 million barrels, which is equivalent to 7.2% 
of the average yearly production of oil in the Gulf of Mexico, which is 
approximately 605 million barrels. Cumulative shut-in gas production 
during the same period was 172.3 billion cubic feet, which is 
equivalent to 3.9% of the average yearly production of gas in the Gulf 
of Mexico, which is approximately 4.45 trillion cubic feet.
    From an energy exploration perspective, Earth observations are also 
playing innovative roles. New techniques allow us to get a better 
picture of what is beneath the sea floor. By the introduction of three-
dimensional seismic data, we can better understand whether an area has 
potential for energy resources. Using this ``seismic cube'' to 
interpret geophysical, geological, petrophysical and paleontological 
data, geoscientists can collaborate more efficiently and develop more 
accurate analyses. Better pictures and evaluations result in cost-
savings and the prevention of wasteful drilling and mining. Directed 
drilling and mining efforts would reduce strain on the oceanic 
environment and ecosystems.
      geoss and the united states plan: principles and governance
    At Earth Observation Summit III, Secretary Gutierrez presented the 
Strategic Plan for the U.S. Integrated Earth Observation System as the 
U.S. contribution to GEOSS. This strategic plan was prepared by the 
U.S. Interagency Working Group on Earth Observations, which is made up 
of 15 federal agencies and 3 White House offices, and reports to the 
National Science and Technology Council's Committee on Environment and 
Natural Resources. The U.S. effort involves a wide variety of federal 
agencies that are both providers and users of Earth observations and 
information.
    The U.S. Strategic Plan identifies the same nine societal benefit 
areas outlined in the implementation plan for GEOSS, and outlines a 
core set of principles for the U.S. system:

 The U.S. effort will be multi-disciplinary. It will take into 
        consideration the interaction among multiple science 
        disciplines, including physical, life and social sciences.
 The U.S. effort will be interagency. It will build upon existing 
        systems and strategies to develop a framework for identifying 
        gaps and priorities.
 The U.S. effort will link across all levels of government. The 
        stakeholder capacity to use assessment and decision support 
        tools for decision-making will be supported through education, 
        training, research, and outreach. Building domestic user 
        capacity is a key consideration.
 The U.S. effort will be international. Environmental observations and 
        science are international in scope and international 
        cooperation is imperative both to the U.S. and global plans.
 The U.S. effort will encourage broad participation. Many entities 
        (public, private, and international) acquire and use Earth 
        observations. The scope of the integrated Earth observation 
        system will encompass the needs of these entities including the 
        commercial Earth observation data providers, value-added 
        intermediaries, and commercial users.
    The U.S. Strategic Plan also recommends a governance structure. A 
standing Earth Observation Subcommittee will be established within the 
National Science and Technology Council's Committee on Environment and 
Natural Resources. This Subcommittee will have responsibility for 
periodic assessment of the multi-year U.S. plan, as well as annual 
reports to the Committee on Environment and Natural Resources on 
progress.
    Consistent with the President's Management Agenda, federal research 
and development investments for an integrated and sustained system of 
Earth observations will be managed as a portfolio of interconnected 
interagency activities, taking into account the quality, relevance and 
performance of each project. Working with the external stakeholder 
community (consistent with the Federal Advisory Committee Act), this 
strategy will not only address planning, management and prospective 
assessment, but will also seek retrospective assessment of whether 
investments have been well directed, efficient and productive.
    The agencies, through the Earth Observation Subcommittee, will 
recommend priorities for investment for near-term, mid-term and long-
term activities. In addition, the Subcommittee will, over time, 
assemble its own benchmarks and metrics as tools to assess the U.S. 
Strategic Plan's relevance, quality and performance across societal 
benefits areas. The Subcommittee will continue to formulate U.S. 
positions and inputs into the Global Earth Observation System of 
Systems, taking into account the full range of U.S. policies and 
interests.
                            challenges ahead
    The Third Earth Observation Summit was a milestone in our effort to 
establish a comprehensive global system of systems, and could not have 
occurred without the high-level political commitment of all of the 
participating nations. For years, our science and technical communities 
have discussed and understood that we must link our individual 
observation systems in order to understand Earth's complex processes. 
As we move forward with implementing the strategic plan, we have many 
important tasks in front of us. The technology available is not our 
challenge because we can and already have made our machines and 
computers talk to each other. The real challenge has been overcoming 
the political boundaries that our Earth systems do not recognize. That 
is what is unique about this initiative.
    While progress in Earth observations will come in part from new 
capabilities and information, it is imperative that existing 
capabilities be maintained and improved. Without the simple maintenance 
or enhancement of existing systems--for example, stream flow gauges for 
water monitoring and continuity of weather and climate data sets --
progress will be spotty at best.
    Another critical issue is the maintenance of observational records 
at all levels to allow scientists to evaluate the effects of change in, 
for example, air quality and/or drinking water quality.
    In addition, the U.S. Strategic Plan stresses that in order to 
assess the efficacy of existing systems and identify gaps and future 
needs, we first must understand who the critical users are--in the 
context of society as a whole--and identify their needs. In the context 
of the nine societal benefits areas, these groups are:

 End users, which includes the general public, the commercial sector 
        and authorities with responsibility, for example, for managing 
        the distribution and quality assurance of resources.
 Scientists, managers, and policy makers in advisory, service and 
        regulatory agencies who need to make informed decisions on 
        predictions of future conditions, respond to environmental 
        changes and disasters in real time, develop accurate 
        assessments and simulation tools to support decision-making, 
        and run operational forecast and modeling centers.
 Research scientists whose research is directed toward improving our 
        understanding of the physical, chemical, biological, and 
        ecological relationships that define our Earth system.
    The most immediate challenge ahead, however, will be in the 
development of a plan to manage and communicate Earth observation data. 
New observation systems will lead to a 100-fold increase in Earth 
observation data. Our individual agencies' current data management 
systems are already challenged to process current data streams.
    Domestically, our interagency effort is currently examining 
technological solutions that will maximize our ability to manage data, 
including methods for standardizing vocabularies across agencies and 
developing browsing and visualization systems. By agreeing to standards 
and protocols among our agencies, we will achieve interoperability of 
our individual systems, enabling users to effectively locate data and 
information relevant to their needs.
    The GEO members also recognize data management as a necessary 
component in the international context. The 10-Year Implementation Plan 
adopted in Brussels noted that GEOSS ``will facilitate, within 2 years, 
the development and availability of shared data, metadata, and products 
commonly required across diverse societal benefit areas.''
    As was tragically evident in the Indian Ocean region in December, 
having the information is simply not enough. We need systems in place 
to manage this information and deliver it to our citizens in an 
accessible and useable format.
                               conclusion
    Over the next decade, I believe we will look back at this period 
and recognize what an enormous turning point it represents in the 
scientific understanding of our planet. The goal of the United States, 
and every country participating in GEOSS, is to ensure that this 
understanding leads to improved operational capabilities that will be 
put to work for the benefit of people throughout the world and the 
economies they depend on.
    Thank you very much. I look forward to your questions.

    Mr. Whitfield. Well, Admiral Lautenbacher, thank you very 
much for those comments. And for this round of questions, I 
think, one person on this panel, we will allow everyone 10 
minutes on their questions. And I would make this comment, that 
obviously this system has been in the planning stages for some 
time, and there has been a lot of discussion about it. But with 
the tsunami that recently hit Southeast Asia, there has been a 
lot of focus on the tsunamis. And before I formally ask some 
questions, I would like to show a TV clip from--many of you may 
have seen the program on the Discovery Channel, and we have 
about a 2-minute clip here that I would like to show.
    [Video.]
    Well, that gives us a little feeling of what it could be 
like. We wanted to get you all in the right mood before we 
started talking about this. But as you could see, this mega-
tsunami in the Atlantic could be triggered by a volcanic 
eruption in the Canary Islands resulting in massive destruction 
on the East Coast of the United States under that theory. So 
Admiral, what steps are being taken today to protect the 
Atlantic region?
    Vice Adm. Lautenbacher. We have worked--immediately after 
this tragedy occurred, we have put together a plan, which is 
now being funded in the supplemental as well as the fiscal year 
2006 budget of about $37 million, $24 million of which go to 
NOAA and the other $13 million to the USGS to put together a 
comprehensive warning--tsunami warning system for not only the 
Pacific, where we have the system, as you have mentioned, but 
the Atlantic as well. If we gain success in our budget 
deliberations, we would be able to get that system in place 
within the next 2 years.
    In the meantime, we are taking steps to hook up to our 
current system, the tide gauges and seismometers that already 
exist in the area that protects the southern part of the United 
States and the Caribbean, so we are not waiting to put into 
place the full system. We are bringing online assets that are 
there today in terms of tide gauges and seismometers to give us 
a preliminary warning capability for the East Coast.
    Mr. Whitfield. And would you explain in a little bit more 
detail how information from GEOSS would warn us of such an 
event? What--how would that actually occur?
    Vice Adm. Lautenbacher. Let me--this is an interesting 
comment, the fact that this enormous tragedy occurred, and I 
am--my heart is going out to all of the people that were 
involved in this, so I am not trying to make any hay out of 
this, so to speak. But it has brought home the value of a GEOSS 
or a global earth observing system, because what we are talking 
about here is one piece of one of the nine benefit areas that a 
GEOSS can provide for us. So we are talking about, actually, a 
very little piece of it, and this is something that could save 
90,000 lives just like that with a relatively small investment. 
So the way it would work is to have--it is--it has to be an 
end-to-end system, so you have to, first of all, go and look 
and see where hazard areas are, which is what we do in the 
United States. And we do mapping of hazards. We run models. We 
try to find out where the vulnerable parts of the country are. 
Obviously the Pacific is where we have concentrated, because 
that is the Ring of Fire, as they say. Then you have to have 
the proper kinds of technology for warning. We have put--the 
newest technology is called DART or dart buoys. They are open-
ocean monitoring buoys that monitor the formation of the 
tsunami hopefully right after the fact has occurred, right 
after the potential earthquake has occurred. We have tide 
gauges along the coasts. Seismometers give us the original 
warning, so we could even tell whether there has been something 
in the ocean area. So you look at the seismic traces. You look 
at the reactions of the buoys and tide gauges along the ocean 
at a central warning center, and then put out broadcast 
information to all the nations and to us, to our States and our 
weather forecast offices. Now that information has to be--get--
has to go to the emergency managers in the cities and coastal 
areas that are affected, and they then have to take the actions 
to mitigate and to prevent further disaster.
    We have a program called a tsunami ready program that we 
support, and it allows certification of coastal areas. We also 
have a storm ready program for inland tornadoes, but in other 
words, it is a program that teaches the emergency managers in 
this--the towns and regional areas how to deal with the 
situation. We just had our first--we had 15 that were--15 
communities in the United States declare tsunami ready. We need 
to have a lot more, but we just got a new one this week, 
Lincoln City, Oregon, Mr. Gehman requested we certified and did 
all of the work. So it is an end-to-end process that requires 
dissemination of the warning and an understanding by people in 
coastal areas on how to deal with it.
    Mr. Whitfield. I hear the term, when we talk about this 
global warning system, interoperable, and I know that our 
system has to work with the systems of other countries, but 
interoperable, would you expand on exactly what that means to 
you?
    Vice Adm. Lautenbacher. Well, it has to be interoperable in 
a sense that we have to have interfaces that allow the data to 
be exchanged, so as--there--for instance, we have different 
satellites in orbit today, but--and they are run by different 
countries, but we have standards that bring the data down to a 
central place and allow it to be distributed through a global 
telecommunications system that the WMO, the World 
Meteorological Organization, sponsors. So the ablate to be able 
to get the data in a standard format is the critical piece, and 
the building of the instruments and the operation of the 
instruments is a national or an international organization 
prerogative, but in the end, it has to come to a standard 
interface.
    Mr. Whitfield. But what--from your perspective, we do have 
adequate science and technology. And I think somewhere where 
the major problem may be the public policy part of this or the 
political part, would you agree with that?
    Vice Adm. Lautenbacher. Yes, sir. There are two major 
issues. One is what I would call the business models that every 
nation has for data. Some countries sell data. In other words, 
they don't--the United States has more of a split between 
public good and private industry. So we have a certain set of 
data that we provide for public good, because we believe that 
is the right way to go. We need open information, and the 
decisions on which you base economic--the future of our economy 
should be open to the public for scrutiny, so there are a 
certain set of data that is free.
    In other countries, that is not true. They have less data 
available for free so that you must pay for it, or at least 
internally pay for it within the government.
    The other issue is that there are national security 
concerns from nations that are worried about trading data that 
might--they think might be sensitive to their own internal 
needs, and we have to work through that and assure them that we 
are looking for the kind of data that helps everyone. We are 
not trying to pry into their military secrets.
    Mr. Whitfield. Now I understand that Europe is one of the 
areas that charges for information. Will GEOSS have--will we 
have to pay for information from the Europeans or----
    Vice Adm. Lautenbacher. We would hope that we do not have 
to pay for information from the Europeans. Now what we have 
today, in effect, in fact, a hazard system is the way in. When 
we work in the weather area, we are able to exchange data on--
for weather systems on a large level, because it is information 
that helps us prevent disasters or to mitigate against 
disasters and warn people. And at the political level, just 
about every nation in the world today agrees that that is the 
kind of data that they ought to provide free for the world. So 
we need to expand those types of relationships.
    Mr. Whitfield. Okay. Admiral, my time is expired, so at 
this time, I will turn the questioning over to Mrs. DeGette.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    And before I start, Admiral, I would like to say that Mr. 
Stupak is very sorry he couldn't be here today. He just had 
back surgery so----
    Vice Adm. Lautenbacher. I am sorry.
    Ms. DeGette. [continuing] he is resting this week, but he 
will be back in the saddle, we hope, next week.
    I wanted to talk to you a little bit about an issue I 
raised in my opening statement, and first of all, to thank you 
for your personal dedication in establishing the system. I 
think it is really going to be important, not just for 
tsunamis, but for predicting climate change and weather all 
around the world, wouldn't you agree?
    Vice Adm. Lautenbacher. I agree, absolutely.
    Ms. DeGette. Now I have been told recently that it would 
cost, worldwide, about $5 billion to $6 billion a year just for 
meteorological observations. And my question is what would you 
anticipate the cost of supporting--of both establishing and 
then supporting a global system that will bring all of the data 
together, the kind of system we are talking about with GEOSS?
    Vice Adm. Lautenbacher. I think that the speculation on 
what a full system would be is--we are not at a stage where I 
can say it is $5 billion, $10 billion, $20 billion. But what I 
want everyone to recognize is that we already, today, invest 
billions of dollars in the developing nations for the systems 
that are in place. And so the first thing to do is to harvest 
the synergy that we can gain from connecting our satellites to 
Russia's, to India's, to--and we are doing that.
    Ms. DeGette. Right.
    Vice Adm. Lautenbacher. In satellites we are much further 
along than we are on ground data. But--and then to take an 
inventory of where the gaps are and to look at how we are going 
to approach the funding of them, but as you have----
    Ms. DeGette. But let--I mean, you are exactly right. Most 
of those systems are in place and we shouldn't replicate them. 
We need to coordinate. How much is that going to cost? Do you 
have some sense?
    Vice Adm. Lautenbacher. I don't have a sense for--let me--I 
don't have a number that I can give you, but let me--I am going 
to--if you would want to press on this, first of all, the 
satellite--we have today satellite--complete satellite coverage 
at the equator. So we have geostationary satellites all around 
the world, and we have an organization that coordinates that.
    Ms. DeGette. Right.
    Vice Adm. Lautenbacher. So that is pretty good.
    Ms. DeGette. Yes.
    Vice Adm. Lautenbacher. Okay. So what we--all we need to do 
there is to continue to invest in those satellites, as we do 
today.
    Ms. DeGette. Okay.
    Vice Adm. Lautenbacher. So I ask for your support of my 
question.
    Ms. DeGette. You just basically don't know how much this is 
going to cost.
    Vice Adm. Lautenbacher. We don't. This could go--this is a 
system which will be--will go on for years and be developed 
over years.
    Ms. DeGette. Sure. So--but----
    Vice Adm. Lautenbacher. There are very minor enhancements. 
Like the tsunami system. We are asking Congress to fund a 
tsunami system, which will be our part of a worldwide warning 
system.
    Ms. DeGette. Right. But----
    Vice Adm. Lautenbacher. We are asking for the next 
generation of instruments to put on, which will help us turn a 
geostationary satellite into a true environmental satellite. So 
there are incremental pieces there.
    Ms. DeGette. Exactly. Exactly. And I guess the reason I am 
concerned is because in the President's recent budget 
submission for 2006, there are deep and many cuts to NOAA. And 
a lot of the data-gathering programs that you are talking about 
within NOAA that are gathering data right now see heavily 
reduced funding, and that is like the oceanic and atmospheric 
research, the national environmental satellite data and 
information service, the national weather service. And so my 
question is, if we are already having cuts in our existing 
information gathering systems, and you are not really, really 
sure how much it is going to cost, at least at each stage, do 
we really have the national ability to commit to such a grand 
scheme like GEOSS financially?
    Vice Adm. Lautenbacher. Well, first of all, I don't think--
and I would be happy to go through the budget, you won't see 
cuts in the President's budget to observing issues. You will 
see elimination of some of the member interests that were added 
at the end of the last year. And there have been cuts in 
observing from the Hill, I am sorry to say, but we continue to 
ask for those, like the climate reference network that you have 
mentioned.
    Ms. DeGette. Right. But----
    Vice Adm. Lautenbacher. We--that is a top priority. I come 
back again for the fourth year asking for help with the climate 
reference network, so I agree with what you have said. It is an 
important piece.
    Ms. DeGette. But see, like, in 2005, your agency's budget 
request was $24 million and $10 million of it was removed in--
or for climate reference. That is right. For climate reference.
    Vice Adm. Lautenbacher. Right.
    Ms. DeGette. And almost half of it was removed in the 
omnibus bill. So I mean, I assume you felt like you needed the 
$24 million.
    Vice Adm. Lautenbacher. Yes, ma'am. I came over and 
supported that, and I continue to support it. I asked members. 
I was told that there was no prejudice on the cut, and so we 
rearranged money to cover the continuation of the climate 
reference network, because it is an important priority for the 
President. So we----
    Ms. DeGette. But you, in fact----
    Vice Adm. Lautenbacher. [continuing] want to do this. So 
I--there is no----
    Ms. DeGette. Well, I know, and I really commend you for 
wanting to do it. I want to do it, too. The question is can you 
really do it, and can you expand it the way you need to, given 
the cuts that you are seeing year in and year out from 
Congress? And I mean, you are under oath, so you have to answer 
truthfully and straightforward.
    Vice Adm. Lautenbacher. I am answering--as I always do, I 
have always been straightforward.
    Ms. DeGette. I know.
    Vice Adm. Lautenbacher. The--obviously I don't like cuts in 
the program. I am passionate about this program. I am 
passionate about what NOAA does. And I come over here, and 
every year I support it, and I support it within the 
administration. So no, I don't like to see reductions to my 
budget. I am--but I am very grateful to the additions that 
Congress has made. Congress has added to many of these 
programs, so I am appreciative to many of the members that 
support what is going on. I do think we are on a--the right 
trajectory to be able to do this. I really believe that there 
are enough resources and the ramp and the understanding. You 
don't want to put too many resources into it. You want to fund 
when things are ready to go and provide the proper match of 
funding with technological capability, but I think we are on a 
ramp that can support this.
    Ms. DeGette. What is your proposed 2006 budget for the 
climate observation program?
    Vice Adm. Lautenbacher. We--in this area, we have requested 
all of the money that was cut last year, and we have added 
another $19 million or so for climate.
    Ms. DeGette. So what is the total, Admiral?
    Vice Adm. Lautenbacher. I don't know what the total is for 
the--for that----
    Ms. DeGette. All right. Mr. Chairman, if we could have 
him----
    Vice Adm. Lautenbacher. It is at least the $10 million and 
then the $19 million----
    Ms. DeGette. 43 million?
    Vice Adm. Lautenbacher. It is--the $10 million you have 
talked about, we have asked for that back. That is in our 
budget. And I have added to our roughly $200 million climate 
observing budget another $19 million that the President is 
supporting. So we have added money to that area.
    Ms. DeGette. Okay. And you really feel like it is essential 
that you had that to both do what you need to do collecting 
data----
    Vice Adm. Lautenbacher. Yes, I do.
    Ms. DeGette. [continuing] and also expand to GEOSS?
    Vice Adm. Lautenbacher. Yes, I do.
    Ms. DeGette. Another concern I have is, and we were just 
sitting here talking about it, when we have these grand schemes 
or when we have an emergency like the recent tsunami, Congress 
is really quick to appropriate money for these exciting new 
programs. And the concern I have got is down the line, if we 
have a new NOAA administrator, maybe their commitment to GEOSS 
wouldn't be as much as yours, maybe a new administration or a 
different Congress. I am wondering what will make the U.S. keep 
its commitment to GEOSS, and one thing I was thinking about, 
you were talking about, in response to the chairman's question, 
the tsunami monitoring system that we have in the Pacific. As I 
understand, three of the buoys aren't working because we don't 
have the money to maintain them right now. So the question is 
what will we do in the future to be able to maintain this 
exciting system and expand it?
    Vice Adm. Lautenbacher. The--on the buoys, we have been--we 
have repaired one buoy, so two of them are not working, but 
they are not being--they can't be repaired because of the 
weather. They are--they sit off the Allusion Islands. We need 
calm weather, and as soon as it gets there, we think probably 
the 1st of April or so we will be able to go out.
    So that isn't a money issue.
    Ms. DeGette. Oh, okay.
    Vice Adm. Lautenbacher. Our issue was expanding it. We 
would not be able to expand it without the help--we were 
trying--we were going to go along at two buoys a year for the 
next 10 years to try to get a full system in place. We have 
asked in our supplemental to be able to do that at an 
accelerated pace and get them in within 2 years.
    Ms. DeGette. So how are we going to be able to have some 
kind of a firm commitment to the GEOSS system in the future?
    Vice Adm. Lautenbacher. Well, first of all, I think it will 
outlast me. I am not the only person that is talking about 
this. If you were--if you had--you would have been very pleased 
to listen to the statements in Brussels, the Iranians, the--
every European nation got up and gave a speech at the 
ministerial level of how valuable and important this was. So 
there are many, many nations that are signed up to this. There 
are four co-chairs of this group, the South Africans 
Representing Developing Nations. They are all very passionate. 
You could have--bring any of them in and sit them in this 
chair, and just the fact that you all think this is such a good 
idea, I think it will long outlast me in terms of a commitment 
to do this.
    Ms. DeGette. Well--and I hope you are right. According to a 
lot of recommendations, there were recommendations for two 
areas of action. One was to establish an organization 
structure, and the second one was to establish a permanent 
earth observation subcommittee charter for the temporary 
interagency working group. I am wondering what the status of 
that--the second part of that is, because it would seem to me 
that would institutionalize GEOSS if we had that permanent 
subcommittee.
    Vice Adm. Lautenbacher. We will have that within a few 
weeks. I mean, we are working on that right now. This is--we 
have a strategic plan for our GEOSS produced by the 15 
agencies, and I have agreement from the White House to set up a 
permanent committee, and so we are working out the details of 
how to do that. So I am optimistic that we will be able to 
institutionalize this very quickly.
    Ms. DeGette. All right. Thank you very much.
    Vice Adm. Lautenbacher. All right. Thank you.
    Mr. Whitfield. This--at this time, we will recognize the 
chairman for his questions.
    Chairman Barton. And I won't take 10 minutes, but I am 
watching in my office. I have it on TV, and I saw that Mr. Bass 
stole my line about creative use of the clock. I thought that 
was pretty cute. The first hearing, you just stopped the clock 
so you don't go over.
    Admiral, I am--my question is more of a practical nature. 
We are all for what you are trying to do, but this--I assume 
you were a part of the group that went to Brussels, is that 
correct?
    Vice Adm. Lautenbacher. Yes, I was.
    Chairman Barton. Okay. These 59 other nations that were so 
passionate about this, are they willing to put money to finance 
the construction and operation of the system, and if so, how 
much?
    Vice Adm. Lautenbacher. Well, they do already. These are 
the nations, at least the 30 or so that are invested heavily. 
And they are there with the assumption that we are that they 
are going to continue their investments and work together to 
improve the structure of the system. So I believe they are 
there. They have agreed to fund the organization.
    Chairman Barton. But what are we talking about? How much is 
the U.S. contribution and in the perfect world, if we 
contributed what they wanted us to, and they contributed what 
we thought they should, in order of magnitude, what are we 
talking about?
    Vice Adm. Lautenbacher. Well, I have to go back to what 
current budgets are to tell you that, because that is--I mean, 
nobody has put a figure down on the--nobody has signed up and 
said, ``We, the United States, are committing another $2 
billion or $1 million,'' whatever it is. No one has done that. 
This is an organization that is bringing their assets to the 
table to try to work together----
    Chairman Barton. Well, just--you know, this is just kind of 
a general oversight hearing. I am not asking you to sign a 
blood oath that this is what it is going to cost, but 
generally, how much would it cost to do everything you guys 
wanted to do that met in Brussels? And what share of that would 
the U.S. pay and what share would the rest of the world pay?
    Vice Adm. Lautenbacher. We are not far--that far enough 
along to answer that question. I can tell you what was----
    Chairman Barton. You don't even have a general ballpark?
    Vice Adm. Lautenbacher. I can tell you what we spend today, 
and I can tell you what incremental systems will cost. The 
tsunami warning system for the United States share is the $37 
million that we are asking for in the supplemental in the 
fiscal year 2006 budget. The increases to our satellite 
capability, which will allow us to do full environmental 
observing, is an increase to our budget of about $50 million. 
But that is a normal procurement ramp that we would have asked 
for anyway, because it benefits the United States. It doesn't--
it is a section that provides direct value to us. Obviously, it 
will provide value to the world if we can connect it with other 
systems.
    Chairman Barton. Well, that is $87 million incrementally, 
if I--$37 and $50. What are they--what does the rest of the 
world put up?
    Vice Adm. Lautenbacher. Actually, GMES is--that is the 
European contribution. It is about $700 million, and they are 
in the process of--they put money into that several hundred 
million already. So they are actually ahead of us in adding 
increments to their----
    Chairman Barton. And so they have a system that is--a 
satellite system that is operating?
    Vice Adm. Lautenbacher. They have a satellite--they do have 
a satellite system that is operating. They are going to invest 
in future fully environmental satellite monitoring. They call 
it GMES, Global Monitory for Environment and Security. And it 
is one of their--Galileo is their other top program. Those are 
the--they have two space programs that they are funding, and 
GMES is more than space. It is the kind of--it is the European 
contribution, as I have mentioned, the U.S. contributions--the 
European is more than just space. And that is a $700 million or 
$800 million effort that they are embarking on and support.
    Chairman Barton. But to do this right, we are going to have 
to have these stations in the Indian Ocean and different parts 
of the Pacific, so is India and Thailand and, I guess, Kuwait 
and Saudi Arabia, are they all part of this group, and if so, 
how much are they putting in?
    Vice Adm. Lautenbacher. India and Thailand are part of--are 
one--are some of the 60 nations that were at the--and they are 
interested in dealing with it. The Indians have agreed to $26 
million for tsunamis and they, you know--millions of dollars, 
tens of millions of dollars have been offered to support it. I 
have people that are just leaving Paris now after a meeting of 
the IOC, which is where this work will be done, the 
Intergovernmental Oceanographic Council, working on a design 
for a system and the kinds--to answer the kind of question you 
are asking me, how much will this nation put in and how much 
will this nation, how much--for specifics. And that is kind of 
a first deliverable of what we are talking about.
    Chairman Barton. Well, I don't want to--I am--I have got to 
run to a radio interview. I am all for this. I think you are to 
be commended and the administration is to be commended for 
pushing it. What I don't want to see is us putting this system 
in place and the U.S. taxpayer end up paying a huge 
disproportionate share, like we normally do when we get 
involved in these international projects, so that--my role is 
going to be to serve as a watchdog for the U.S. taxpayer. We 
want to do good deeds, and we want to do them sooner than 
later, but we want--to the extent that the rest of the world 
can pay, we want those that can to participate and help to pay 
for it.
    And with that, Mr. Chairman, I yield back.
    Mr. Whitfield. Thank you.
    Ms. Schakowsky is recognized for 10 minutes.
    Ms. Schakowsky. Thank you. Thank you, Mr. Chairman.
    I would like to take some exception, first of all, to this 
notion that when it comes to international things that the 
United States usually pays a disproportionate share. I mean, if 
we look in terms of international aid and compare that to other 
countries as a proportion of our budget, it is not really true.
    But specifically on this, I wanted to ask you whether or 
not this strategic plan for the U.S., so this is our piece of 
it. And would that have to, in your view, precede moving ahead 
with the global efforts? I mean, is this what we need to do 
before we can get started and fully participate in GEOSS?
    Vice Adm. Lautenbacher. I would say no. We need to do this. 
There is no question about doing this, but we are already 
engaged in the world today, and have been for many, many 
years----
    Ms. Schakowsky. Right.
    Vice Adm. Lautenbacher. [continuing] without ever having 
done this. So we are better off to do this now for sure, 
because it will help us internally do a better job and be more 
efficient in providing for economic and environmental 
sustainability. So I would say we definitely need to do this. 
We can do it in concert with the world.
    Ms. Schakowsky. Well, let--here is my concern. It--there 
are certain things in there that we need to do just for us.
    Vice Adm. Lautenbacher. Yes.
    Ms. Schakowsky. And then in addition, in order to implement 
an international system, there would be additional costs. So I 
wanted to ask you about, in the appendix to the strategy plan, 
there is a discussion of near-term opportunities. And the first 
is for ``comprehensive and integrated data management and 
communications to integrate the wide range of earth 
observations across agencies and disciplines.'' And it states 
that the data management is ``a necessary first step to achieve 
the synergistic benefits'' from the U.S. system and the data 
and products must be made readily available and accessible 
through data management systems. So I am asking in terms of 
that first near-term opportunity, where we are in beginning 
this effort.
    Vice Adm. Lautenbacher. We have in place a number of data-
sharing arrangements already within the United States that we 
use. We need more, and it needs to be more comprehensive. And 
we have data-sharing agreements with world organizations that 
do global observing. So there are pieces in place. But we are 
missing significant sections, such as our oceans and coasts. We 
don't have the complete integration of data that we need from 
the various observing stations that States have and 
universities have and some of our own agencies. We are looking 
forward to putting a budget initiative in this next budget that 
will help work on that particular part of the problem. So this 
is a--and this is a major concern, and when I say that it is 
near-term issues, that is one of the first issues that the 
permanent committee that we talked about is going to take on.
    Ms. Schakowsky. When you say ``in the next budget'', are 
you saying in the one we are considering now that there will be 
funding for that?
    Vice Adm. Lautenbacher. I am doing fiscal year 2007 as we 
speak here.
    Ms. Schakowsky. Oh, so we are talking about fiscal year 
2007?
    Vice Adm. Lautenbacher. Yes, ma'am.
    Ms. Schakowsky. Okay. The second near-term opportunity in 
this report is to improve observations for disaster warnings 
for events such as earthquakes and tsunamis, landslides and 
volcanoes. The plan states that ``systematic widespread 
coverage'' of observations is needed but is unmet. And it 
points out that existing systems are not being maintained or 
modernized, which is apparently what is happening with NOAA's 
climate observation systems. And we also don't have an 
operational radar satellite system, as Japan and Canada are 
getting ready to launch. The strategy plan states that such a 
system could ``truly help in a real time manner, reduce 
hazards, help mitigate disasters, and realize goals of saving 
lives and reducing damage, all laudable and important goals. 
What is the outlook for getting this kind of investment from 
this Congress?
    Vice Adm. Lautenbacher. Well, it has been good. In the last 
2 years, one of the major problems we have had are our water 
level measuring systems that we have around the country. They 
were at--somewhere around 60 percent effectiveness. We obtained 
funding from the President and from Congress to get that up 
toward about--up to 85 percent, and I just--we got money from 
last Congress that will get it up to full--that system up to 
its full level. So they are--we have been able, with this 
effort going and the interest of many members and staff members 
to be able to start to back-fill what I would call our 
inadequate funding of sustaining systems that we need to make 
the proper kinds of warnings for disasters.
    Ms. Schakowsky. Yes. The operational radar satellite 
systems, such as Japan and Canada, where are we on that?
    Vice Adm. Lautenbacher. Yes, I--that is an interesting 
issue. I believe that that is something that can--that we ought 
to look at internationally to deal with. For instance, we, for 
many years, were able to use the Canadian data 
straightforwardly, and there was no need for the United States 
and Canada to have a different satellite. The one satellite had 
the kind of coverage and provided the kind of parameters we 
needed. There now is a different business model that is out 
there, so we are going to have to deal with the fact that we 
don't have a piece or an interest in the follow on to the 
Canadian satellite. So I look to GEO to be able to deal with 
making--negotiating so that we can work on these very issues 
and be more efficient, not have everybody put up a radar 
satellite. I don't think everybody--my personal opinion is not 
everybody should put up a radar satellite. You need a couple of 
them, and we should have an international agreement in some way 
to be able to use this data as people need it for economic 
benefit.
    Ms. Schakowsky. So you are saying part of the value of this 
international system is that we could end duplicative efforts 
and share----
    Vice Adm. Lautenbacher. Absolutely.
    Ms. Schakowsky. [continuing] information.
    Vice Adm. Lautenbacher. Absolutely.
    Ms. Schakowsky. You had mentioned in your opening statement 
that you thought the technology was actually the easy part and 
that the political or other kinds of problems--what are the 
obstacles, the more difficult obstacles that you see in 
specific?
    Vice Adm. Lautenbacher. I will go back to the two that I 
mentioned. I think the fact is that each country does have a 
different business model, which means that it has to be--the 
scientists can't take it on. It has to be taken on at a 
political level, a high enough level to be able to say we are 
going to change the way we operate and we are going to fund it 
from the central government or we are going to do something 
else to get funding to be able to enter the systems----
    Ms. Schakowsky. But when you talk about business model, are 
you talking about funding source or----
    Vice Adm. Lautenbacher. Yes, I am sorry. I used a civilian 
term, but I am talking about how they--many--for instance, many 
weather services in other countries charge other parts of the 
government----
    Ms. Schakowsky. Selling the data.
    Vice Adm. Lautenbacher. [continuing] for the data so that 
it looks, on the books, as they are free. Of course they are 
not. We know that it is not free. They are being subsidized by 
the rest of their government. So that is why I call it a 
business model kind of a thing----
    Ms. Schakowsky. I see.
    Vice Adm. Lautenbacher. [continuing] because a lot of 
weather data, while it is useful in private sector quite 
heavily, it is a very important piece of government, and you 
need it to run--in almost any kind of government, you need 
weather data. So in my view, we are all paying for weather 
data, but other nations have a different way of putting it on 
the books. And that has to be worked out.
    And the other issue is the issue of real time availability 
of the data. Many nations are very sensitive to getting the 
information directly, and if we are going to have a tsunami 
warning system that works, we have to do it the way we do it in 
the United States. We have to have instantaneous, real time 
data from--reporting through satellites and hard wires and 
Internet directly to regional centers, because that is how you 
get--gain time in being able to find out what is happening 
physically on the earth. Where is this wave going? And where is 
it hitting now? You have got to have that real time 
information, and many nations are hesitant to sign up to real 
time data gathering, because they think it would--may be, you 
know, disadvantageous to their national security.
    Ms. Schakowsky. Thank you. I appreciate it, Admiral.
    Vice Adm. Lautenbacher. Yes, ma'am.
    Mr. Whitfield. Mr. Bass is recognized for 10 minutes.
    Mr. Bass. Thank you, Mr. Chairman.
    Admiral Lautenbacher, if there were a huge sloughing off of 
mud on the continental shelf on the East Coast, which could 
create an enormous tidal wave, how long would it take to reach 
the East Coast?
    Vice Adm. Lautenbacher. You are talking about the----
    Mr. Bass. Not that one. That is a volcanic----
    Vice Adm. Lautenbacher. [continuing] example in the----
    Mr. Bass. [continuing] issue. But one of the threats to the 
eastern United States is the possibility that a--there would be 
a landslide, if you will, on the continental shelf and that 
would create a reduction in the height of the water and then it 
would come back up again.
    Vice Adm. Lautenbacher. Right.
    Mr. Bass. It is about--I don't know. I am--I have never 
been there before, but it is just a few--maybe 50 or 30 miles 
off shore.
    Vice Adm. Lautenbacher. Yes. In a case where you have that 
kind of short warning time, the first place it hits would have 
very little warning, because a landslide normally would not----
    Mr. Bass. A few seconds?
    Vice Adm. Lautenbacher. No, minutes. We are talking 5 or 10 
minuets.
    Mr. Bass. Do we have any kind of warning system in place 
today that would give the people of, let us say, New York or 
Boston or Cape Cod or Long Island, a 5 or 10-minute warning if 
this were to happen?
    Vice Adm. Lautenbacher. At the exact place where it 
happened, no, but up and down the coast a little bit, yes, 
because we have tide gauges in place that are being monitored 
real time and you can provide warnings.
    Mr. Bass. So let us say the--this event occurs and it takes 
30 seconds for it to happen, let us say, I don't know how long 
a mud slide lasts underwater, and it happens at high noon, when 
would we find out in Boston about it?
    Vice Adm. Lautenbacher. That--I am not sure. I could--
would--you know, I am not sure.
    Mr. Bass. All right.
    Vice Adm. Lautenbacher. Speaking off the top of my head 
doesn't have any value.
    Mr. Bass. Is there a system in place right now to identify 
the problem and communicate? What I am getting at is when you--
who certified these tsunami safe cities and why are they 
tsunami safe?
    Vice Adm. Lautenbacher. They are tsunami safe because they 
go through a checklist that has been worked up over years of 
experience by the National Weather Service in terms of getting 
information out. Now we have--when you start with the 
information NOAA weather radio, that is one direct way to get 
it to citizens that alarms you in your home et cetera----
    Mr. Bass. Sure.
    Vice Adm. Lautenbacher. [continuing] that can go out in 
about 7 minutes from the time you certify you have some 
information. Okay. And that comes out from our weather forecast 
offices. So you have got to get the information to the weather 
forecast office. And we have money to take it down to 2 
minutes. So we are looking in the next 2 years to get it 
automated so that information will get out after 2 minutes from 
the weather service to the public. Then you have the--then 
there needs to be the emergency managers take over and do 
something. So normally 10 to 15 minutes is considered the 
minimum time to do anything, given----
    Mr. Bass. Well, how long do you think it would take a tidal 
wave to reach the shore if it originated 30 miles off shore?
    Vice Adm. Lautenbacher. I would say 10 minutes or so.
    Mr. Bass. It takes that long?
    Vice Adm. Lautenbacher. It takes--yes, it does. It takes 
time for it to--it is going to slow down. If it is on the 
shelf, it is going to go slowly. It is not the 500 miles an 
hour. The speed depends on the depth of the water. As the depth 
gets smaller, the speed gets slower.
    Mr. Bass. So under the present situation, if we had such an 
event, there--are there--how soon after its occurrence would 
you know that it had happened?
    Vice Adm. Lautenbacher. As soon as it reached the first 
nearest tide gauge. And we have a fairly robust system of tide 
gauges along the East Coast.
    Mr. Bass. The tide gauges would show an immediate drop or 
rise in----
    Vice Adm. Lautenbacher. Drop.
    Mr. Bass. [continuing] the height of the water and that 
buoy is programmed to relay that information immediately?
    Vice Adm. Lautenbacher. Not today. Not today. We--as I have 
mentioned earlier, we are trying to start to hook up tide 
gauges on the East Coast. We wouldn't be doing Boston first. I 
understand it is important where you are, but we would be doing 
the ones in the--towards the Caribbean where we have the active 
seismic plates and work our way up the coast. They are on real 
time. The question is you have to have some kind of a command 
center that is watching it----
    Mr. Bass. So the tide buoys today are----
    Vice Adm. Lautenbacher. There are no alarms on them today. 
There are no alarms on them.
    Mr. Bass. So the tide buoys that are out there today are 
not designed to be any type of warning at all?
    Vice Adm. Lautenbacher. They are not designed for tsunami 
warning, that is correct.
    Mr. Bass. Or any type of warning?
    Vice Adm. Lautenbacher. That is not true, because they are 
warning--they do warn of issues for entering port. We have port 
systems that are tied to the tide gauges that go into computers 
that let pilots bring ships in and out. So they are--that is a 
real time system that they go to a computer, can call up, stand 
there on the bridge of their ship and say, ``Uh, oh. There is a 
big wind. There is a big current. There is an extra high tide. 
There is something going on. I am not going into port.'' So we 
do have warning systems for that kind of idea----
    Mr. Bass. When these buoys are all hooked up----
    Vice Adm. Lautenbacher. And those are gauges that are 
sitting----
    Mr. Bass. Gauges rather in a----
    Vice Adm. Lautenbacher. Yes, they are gauges.
    Mr. Bass. Oh, they are gauges?
    Vice Adm. Lautenbacher. These are tide gauges, not buoys 
necessarily. They are tide gauges that are in the water, 
sometimes very close to land, sometimes a little further out in 
the----
    Mr. Bass. How much further out? They are--if they are a 
gauge, they are not a buoy. They are attached to the bottom, so 
it must be pretty shallow where they are.
    Vice Adm. Lautenbacher. They are. They are----
    Mr. Bass. Are they really right on the shore?
    Vice Adm. Lautenbacher. They are usually in places where 
you can get accurate readings: sheltered or in shallow water. 
So I mean, no more than a mile off the coast, but normally 
close to the coast.
    Mr. Bass. So the first warning you would get would be when 
it was within a mile of the coast?
    Vice Adm. Lautenbacher. At that very spot, but the point 
is, that wave also travels up and down the coast, and it takes 
a while for it to get there. If you got that warning, you would 
be able to clear beaches up and down the coast for miles and 
save lots of people who might normally be drowned by a wave.
    Mr. Bass. I would suspect that you would get a warning 
pretty fast when it hit the beach without, you know, 10 seconds 
after it happened. That is the way the message would get 
communicated up and down the coast. I guess my question is--
further question, after the--you have started linking all of 
these things together, what will you have that you don't have 
today?
    Vice Adm. Lautenbacher. Well, on the tsunami warning 
system, you don't have anything on the East Coast or the 
Caribbean at all. You have no centralized monitoring station or 
an infrastructure for communication broadcasts or panelists to 
figure out what is going on and a network of prepared emergency 
managers to deal with the situation. After it is all hooked up, 
we hope that that is what we have, an end-to-end system that 
allows there to be a maximum saving of lives and protection of 
property up and down the coast.
    Mr. Bass. Is the more long-term forecasting mechanism, 
drought and so forth, is that a buoy system or a satellite 
system or what?
    Vice Adm. Lautenbacher. Long-term forecasting of drought is 
going to depend heavily on instrumentation of the ocean. We 
have to measure the cycles in the ocean. The most familiar one 
that people know is El Nino.
    Mr. Bass. Sure.
    Vice Adm. Lautenbacher. You hear of El Nino. That is only 
one cycle. We don't have enough systems in place to be able to 
talk about and measure the other cycles and how they are all 
connected. If we could do that, we would be able to predict 
drought conditions much further in advance and, as far as I am 
concerned, for maybe a decade or so.
    Mr. Bass. All right. I am interested in briefly your 
discussing how kinds of restructuring would be required in 
order to get all of these Federal agencies to work with one 
another under IEOS.
    Vice Adm. Lautenbacher. I--it is premature to talk about 
restructuring, but we would--this is my view anyway. We would 
put together some kind of a centralized office in which we can, 
first of all, take an inventory of everything that is going on 
so Congress can look at it and we can look at it to make sure 
there are no duplications, make sure we have got holes that we 
can work on. So there, first of all, is this setting up of some 
kind of a management structure to allow that integration or 
coordination to happen. And that is what we are working on 
right now.
    Mr. Bass. Admiral, I would--let me return to the last--to 
my earlier line of questioning just for one final one. We are 
going to spend some money and we are going to create a new 
system. It is going to be very high tech. It is going to deal 
with long-term as well as short-term dangers, both in national 
security, natural phenomenon, and also some very short-term 
dangers. Is it possible that Americans would be lulled into 
thinking that they are a lot safer than they really might be 
from catastrophic natural disasters like tidal waves, tsunamis, 
or earthquakes, or even terrorist attacks because this money 
has been spent and the system is in place when, in reality, the 
only time you are going to be--have is to get from the first 
floor to the second floor, which might be helpful. But in a 
situation like Cape Cod, for example, or any of the--or the 
Hatteras or the--there is no where to go. Really, the warning 
times are going to be very, very short. Do you agree?
    Vice Adm. Lautenbacher. I agree. That is a danger, and part 
of what we continually talk about is education. And public 
education needs to be part of this. We--that is, you know, part 
of our ethic inside of NOAA and part of what we are asking for 
with our funding.
    Mr. Bass. Thank you, Admiral. I appreciate your answers.
    Vice Adm. Lautenbacher. Thank you.
    Mr. Whitfield. Mr. Inslee, you are recognized for 10 
minutes.
    Mr. Inslee. Thank you. I appreciate it.
    Admiral, first I want to thank you for your personal 
commitment to this project.
    Vice Adm. Lautenbacher. Thank you.
    Mr. Inslee. I very much appreciate that. I also want to 
give a tip of the hat to Dr. Eddie Bernard and others out in 
Seattle. They have done a fantastic job educating the community 
and the tsunami. And of course, I will brag about Peril Systems 
that developed the tsunami detection system that can monitor a 
one-inch change of water depth in file miles of water. It is 
pretty incredible technology.
    But how do you see this system working in a real world 
warning system context for tsunamis? Is that really part of 
this plan or not, or do we need to think of that as a 
secondary, associated but not integrated, system?
    Vice Adm. Lautenbacher. This--the issue is, again, a two 
level kind of a thing. This is a--the tsunami piece is a 
technical piece of a system, and it would warn for tsunamis and 
do that. But it also could be--and we are designing our parts 
of it to be multi-purpose. So there will be more sensors on 
these buoys. The next generation of buoys will have more 
sensors on them and allow us to monitor for different things. 
There is no reason that a tsunami warning system can't also 
warn against storm surge associated with high winds and low 
pressure centers that are--that cause issues off--and also 
significant damage along the coast. So there is a multi-purpose 
nature to these systems.
    In terms of the GEO effort, that is a large-scale effort to 
create agreements to be able to do this. The work will be done 
by nations that put things in place and by the U.N. 
organizations that already do this, like the WMO, the World 
Meteorological Organization, the IOC. And where we see that 
there is a hole missing, well, then we will look for an 
opportunity to provide some way to do that. But GEO is an 
empowering organization, something that will create oversight 
over everything that goes on today in sort of an independent 
way without a lot of thinking or planning.
    Mr. Inslee. So I--is it fair to say that, you know, GEOSS 
is going to help implement, ultimately, a worldwide tsunami 
warning system, ultimately?
    Vice Adm. Lautenbacher. Yes, it is.
    Mr. Inslee. Is that a fair statement?
    Vice Adm. Lautenbacher. That is a fair statement. It was an 
agreed resolution at the Third Earth Observing Summit to 
support and to empower the building and placement of a 
worldwide tsunami warning system. We have got agreement on that 
in a day from the 60 nations that were there at the table.
    Mr. Inslee. Great.
    Vice Adm. Lautenbacher. So that is an element that will be 
part of the GEOSS.
    Mr. Inslee. Well, as a State with a fault line right off 
our--close to a subduction zone similar to Indonesia that had 
30 to 50-foot waves on our Pacific beaches 300 years ago, we 
are appreciative of that. So keep up the good work.
    I want to ask you now kind of tough questions and I will 
see how far you can go with it. There is sort of a--kind of an 
irony here. I know in my briefing material that on that same 
day that climate change treaty went into effect, so did the 
beginning of the GEOSS system with the U.S. and 59 other 
countries, which is wonderful. I think this is absolutely an 
incredible start. Unfortunately, the juxtaposition of those two 
things is kind of disheartening in that we are working with the 
rest of the world on research on this, but we are not working 
on the rest--with the rest of the world in actually 
implementing some even modest degree of changes to reduce 
global warming gas emissions. And I respect the need and desire 
at least for additional climate information that GEOSS will be 
wonderful in providing us, but we have an incredible wealth of 
information, indicating that we are now in a period of climate 
change, that humans are a significant contributor to that. It 
goes from the melting tundra in Alaska where, you know, 
buildings are sagging and permafrost is melting, to rising tree 
lines in Mt. Rainier and Denali National Forests, to the 
disappearing glaciers, we will have no glaciers in Glacier 
National Park in 75 years, to changes in the forest canopy in 
the Brazilian Rainforest, to changes in glacier activities all 
over the world, to incredible changes in the actions of various 
animal species. We are seeing fish off our coasts that haven't 
been seen in 250 years in the State of Washington. We are 
seeing the absolute disappearance of Gilamots off the Orkney 
Islands that are now gone because the species they have been 
fishing on for millenniums are gone. They have moved north 
because of this. We have seen, just this week, tremendous 
evidence of warming in the oceans of significant amounts, which 
I have surprised a lot of people. We wondered where all of that 
energy went. Now we are kind of getting a pretty good idea. It 
is in the ocean.
    So we have this mountain of information that has led the 
rest of the world to take some actions, and we have basically 
stuck our finger in the eye of the rest of the world and said 
we are not going to work on this. We are just going to go off 
on our way and continue to write research papers. And I have to 
say, it is--and I am not holding you accountable for this. I am 
expressing a frustration that, you know, here we are going to 
spend some great taxpayer dollars generating great information, 
but if we continue to have policies that refuse to act on such 
a wide range of knowledge, you know, to what use is the 
information? I mean, we have this giant elephant staring us in 
the face, and yet we refuse to take any action. And I just 
don't want to see GEOSS be an excuse for inaction, No. 1, so I 
guess I would like you to assure that won't be the case, from 
at least your perspective, personally an agency-wide. And two, 
is there any suggestion that you could help us encourage this 
administration to become a leader worldwide in actually taking 
action to reduce the emissions of global climate gases? What 
can your agency do to move the administration in that direction 
or the U.S. Congress?
    Vice Adm. Lautenbacher. And it is a good question, and I 
am--you make a great case for why we need the Global Earth 
Observing System of Systems. I do take exception with some of 
the characterizations of the administration's policy, but--and 
I was questioned in Europe on the same line of questioning.
    Mr. Inslee. I was much more polite, so----
    Vice Adm. Lautenbacher. Yes, sir. The--and we didn't plan 
it that way. The--this summit would happen on the same day the 
treaty went into effect, so just to let that be known. The 
administration is doing a lot. The administration recognizes--
the President has recognized that global warming is an issue 
and that there are, you know, anthropogenic effects that are 
going on today, and we have a program. Now the program 
apparently is not acceptable to everybody, because it doesn't 
have hard caps on CO<INF>2</INF>. I mean, that is kind of what 
it comes down to. But I think to be fair, you have to look at 
the whole program. And the program has international leadership 
in at least six major consortiums that are working to solve the 
problem. First of all, if you believe the problem is the 
greenhouse gases, and there are some people I can bring in here 
that will say it is not, but let us--we won't get into the 
science arguments. It is not going to resolve by Kyoto. Kyoto 
is a treaty which is just going to allow the United States. We 
will be the only nation that does any cutting and everybody 
else will continue to grow, including everybody in the--I guess 
that is it? Am I out of time?
    Mr. Inslee. You still have 2 minutes.
    Vice Adm. Lautenbacher. Okay. I still have 2 minutes.
    It is going to allow nations like China and India and 
developing nations, as we cut, just to increase their 
emissions, which they are doing now as we go along, unchecked 
under Kyoto. So it is an unfair treaty to the United States. 
The Senate voted against it even before anybody acted on it. 
The President got up and called it what it was. So the issue is 
what should we be doing. We are looking at a program that will 
reduce the greenhouse gas emissions while not killing 
development. We would like to see people work on this intensity 
idea. And I think it is catching on more around the world than 
it has been, this idea of as you build economically, you must 
slow down and eventually stop and cap your greenhouse gases.
    Mr. Inslee. Right.
    Vice Adm. Lautenbacher. And that is the 18-percent goal 
that we have set that takes, you know, 70 million--the 
equivalent of taking 70 million cars off the road. The issue is 
that mandatory or voluntary? We are tracking it, and I assure 
you if it doesn't work in the right direction, somebody will 
stand up and look at different ways to do it. And then the 
technology is the real issue. I mean, we are investing $5 
billion in science and technology, $3 billion in technology to 
create non-carbon-producing, you know, types of energy systems, 
and that is being accepted very well by the very nations who 
have signed up to Kyoto.
    Mr. Inslee. Right. And I just want to make sure that you 
understand. I am not saying Kyoto is the end-all of treaties. 
It is just that we sense any lack of leadership to the next 
step. And I actually talked to the President about this, and he 
expressed discontent with Kyoto, and I said, ``Well, you know, 
put what you have on the table.'' And we simply have not put 
anything on the table except these voluntary things. Well, 
voluntary things are a great way to run a bake sale, but it is 
going to fall flat in the ability to deal with this global 
challenge. And so that is our frustration, and I hope at some 
point you can help us out.
    And again, thanks for your efforts on this. Thank you.
    Vice Adm. Lautenbacher. Thank you very much, sir.
    Mr. Whitfield. Admiral Lautenbacher, we want to thank you 
very much for your time today and your testimony. And we had 
intended to do another round of questions, but because we have 
a series of votes coming up, we have two other panels, we are 
going to be submitting some additional questions for you to 
answer. And once again, thank you for your leadership on this 
issue and the great job you did in Brussels, and we look 
forward to visiting with you again soon. So you are dismissed 
at this time.
    Vice Adm. Lautenbacher. Chairman Whitfield, thank you very 
much and the rest--and the members of the committee. I 
appreciate the opportunity.
    Mr. Whitfield. Thank you.
    If the second panel would please come to the table. I would 
like to go on and introduce you all, and then when we come 
back, we can get started immediately with your testimony.
    We have, in the second panel, Nancy Colleton, who is the 
co-founder of the Alliance for Earth Observations. We really 
appreciate your being with us today. We have Dr. Gregory Glass 
who is a professor of molecular microbiology and immunology at 
the Bloomberg School of Public Health at Johns Hopkins 
University. Dr. Glass, thank you for being with us. We have Mr. 
Carroll Hood, the GEOSS chief architect for Raytheon 
Corporation. Thank you. And we have Dr. William Hooke, who is 
the Director of Policy Program at the American Meteorological 
Society. And we welcome all of you. Thank you very much for 
joining us this afternoon. We look forward to your testimony.
    As you have heard when I was talking to Admiral 
Lautenbacher, we said that we have a policy of the Oversight 
and Investigations Subcommittee of swearing witnesses in, have 
you testify under oath. Do any of you have any objections to 
testifying under oath? Do any of you desire to have a counsel 
be with you today as you testify? Okay. Then if you would 
stand, I would like to swear you in now. I wanted to notify Ms. 
DeGette that I am standing.
    [Witnesses sworn.]
    Mr. Whitfield. Thank you.
    Well, you are now under oath. And what we are going to do, 
we are going to recess. We are going to have a series of three 
votes, and as soon as that is over, we will be right back, and 
we will start with your 5-minute testimony. So thank you very 
much. We will be right back. Sorry for the inconvenience.
    [Brief recess.]
    Mr. Whitfield. We will reconvene the hearing at this time. 
And once again, I will thank you for your patience. And we will 
call on Ms. Colleton for her 5-minute statement.

  TESTIMONY OF NANCY COLLETON, CO-FOUNDER, ALLIANCE FOR EARTH 
     OBSERVATIONS; GREGORY E. GLASS, PROFESSOR, MOLECULAR 
MICROBIOLOGY AND IMMUNOLOGY, BLOOMBERG SCHOOL OF PUBLIC HEALTH, 
    JOHNS HOPKINS UNIVERSITY; CARROLL A. HOOD, GEOSS CHIEF 
  ARCHITECT, RAYTHEON; AND WILLIAM H. HOOKE, DIRECTOR, POLICY 
            PROGRAM, AMERICAN METEOROLOGICAL SOCIETY

    Ms. Colleton. Mr. Chairman, members of the committee, my 
name is Nancy Colleton. I am the President of the Institute for 
Global Environmental Strategies and also the co-founder and 
Executive Director of the Alliance for Earth Observations 
headquartered in Arlington, Virginia.
    Ms. DeGette. Ms. Colleton, is your microphone on?
    Ms. Colleton. It appears to be. Is it working now? Maybe we 
could switch seats.
    Mr. Whitfield. Yes, maybe you could just move over and use 
this other microphone. They assured us the technology would 
never fail.
    Ms. Colleton. Okay. Thank you. All right. There we go.
    As I said, my name is Nancy Colleton. I am the President of 
the Institute for Global Environmental Strategies and also the 
co-founder and Executive Director of the Alliance for Earth 
Observations, which is located in Arlington, Virginia. I would 
like to thank the subcommittee for inviting me to testify this 
afternoon and ask that my testimony be submitted for the 
record.
    The institute is a non-profit 501(c)3 organization of which 
the Alliance for Earth Observations is a vital initiative. The 
Institute's mission is to advance knowledge of the earth system 
and promote use of technology tools that help us better 
understand our changing planet. We do this through education, 
public outreach, research, and international cooperative 
activities.
    In December 2003, we, along with five proactive aerospace 
companies, established the alliance, an informal confederation 
of organizations. We have worked together over the last year to 
facilitate broad private sector awareness and participation in 
the planning for GEOSS. Our goal is to bring together the 
diverse members of the earth observations community, which are 
industry, academia, and non-governmental organizations, to work 
in partnership with government to maximize the value of earth 
observations.
    I am pleased that representatives from our members are here 
this afternoon. And my prepared statement includes a full list 
of our membership.
    The message I deliver to you today is simple. If the 
American people are going to fully realize the benefits, the 
social and economic benefits from a global earth observing 
system in the areas of public health, energy, and environment, 
then the private sector must be actively engaged in its 
planning and implementation.
    There are several reasons why the role of the private 
sector is so critical.
    First and foremost, the private sector represents an 
unparalleled technical resource. I am sure that you would agree 
that whether inside or outside the Federal Government, we 
should enlist our best and our brightest to meet the challenges 
posed by our changing planet and the global economy.
    The private sector will also be a major user of GEOSS. In 
the area of public health, for example, we will be able to 
explore the links between environment and disease, such as 
malaria and West Nile virus. In the area of environment, for 
example, western Governors, like Montana's Governor Brian 
Schweitzer, as well as farmers, will be able to use improved 
integrated data systems to respond to the challenges related to 
the 7-year drought they are currently experiencing in that 
State. This quiet but volatile natural hazard threatens this 
State with wildfires this spring and summer.
    The energy sector, as we well know, already uses earth 
observations in a variety of areas. Improved global information 
products as a result of GEOSS will only increase efficiency and 
provide greater savings to U.S. consumers. In addition, the 
private sector will also need to ensure that their systems are 
consistent with GEOSS and that their personnel are prepared to 
capitalize on the opportunity that these global observation 
systems will present. The private sector will also work in 
partnership with the government to contribute data to GEOSS.
    We believe that GEOSS must address a robust, all-media, 
all-hazard warning system, and that its architecture must 
encourage system interfaces using international standards, such 
as the common alerting protocol.
    As I said earlier, the Alliance has been working in close 
cooperation with the government to provide input to the 
national planning process. We applaud the effort of the 
Interagency Working Group on Earth Observations and the 
exceptional leadership of Vice Adm. Lautenbacher. We recommend 
that the effectiveness of this working group be enhanced by the 
establishment of a federally sponsored private sector earth 
observation advisory council. Such a council should include 
industry, academic, and non-governmental leaders representing 
the many business sectors that will contribute as well as 
benefit from GEOSS.
    Were it not for the hard work of government worldwide, we 
would not be where we are today. On the cusp of the new era in 
earth observations, the Alliance is pleased to be part of this 
new era and believes that the time has come for the United 
States to forge new partnerships with the private sector to 
create GEOSS and deliver a greater benefit from earth 
observations to the American people.
    Again, I thank you for this opportunity to testify before 
your subcommittee today, and I am pleased to answer any 
questions that you may have.
    [The prepared statement of Nancy Colleton follows:]
 Prepared Statement of Nancy Colleton, President, Institute for Global 
  Environmental Strategies and Executive Director of the Alliance for 
                           Earth Observations
    Mr. Chairman and members of the Committee, my name is Nancy 
Colleton. I am the President of the Institute for Global Environmental 
Strategies and Executive Director of the Alliance for Earth 
Observations headquartered in Arlington, Virginia. I would like to 
thank the House Committee on Energy and Commerce for the opportunity to 
testify at this hearing.
    The Institute is a non-profit, 501(c)3 organization of which the 
Alliance for Earth Observations is an initiative. Our efforts are 
devoted to furthering knowledge of the Earth system and promoting the 
value and use of the technology tools that help us better understand 
our changing planet. The Institute's efforts include everything from 
developing resources for K-12 science education and teacher 
professional development, to facilitating international cooperative 
activities in Earth science and applications. However, I am here today 
to discuss the Alliance for Earth Observations--an informal 
confederation of organizations--and the importance of engaging the 
private sector (industry, academia, and non-governmental organizations) 
in the planning for and implementation of the Global Earth Observing 
System of Systems (GEOSS). As requested, I will address ``The 
Implementation of GEOSS: A Review of the All-Hazards Warning System and 
its Benefits to Public Health, Energy, and the Environment.''
The Alliance for Earth Observations--The Public Sector Stakeholders
    If GEOSS is going to truly realize social and economic benefit in 
the public health, energy, and the environmental sectors, then the 
private sector must be actively engaged in its planning. Several 
reasons exists for this engagement:

 the private sector provides unparalleled technical expertise to help 
        guide the design and development of GEOSS (e.g., data creation, 
        exploitation);
 the private sector will be a major user of the GEOSS capabilities and 
        therefore, must have the opportunity to determine sector-
        specific requirements (e.g., agriculture, transportation);
 the private sector must begin its planning and preparation to ensure 
        that their systems are consistent and personnel prepared to 
        capitalize on the opportunities that GEOSS will provide; and
 the private sector could work in partnership with government to 
        contribute data to GEOSS.
    The Alliance for Earth Observations was established to advance the 
private sector's involvement in the development, use, and integration 
of Earth observations and information for social and economic benefit. 
Just as the ad hoc Group on Earth Observations (GEO) and US Interagency 
Working Group on Earth Observations (IWGEO) were established to 
coordinate intergovernmental activities, the Alliance for Earth 
Observations was established to facilitate US private sector awareness 
and interest in GEOSS.
    Like the Earth observation community itself, the Alliance 
membership is diverse and includes stakeholders such as system 
developers, data providers, geospatial technology firms, university-
based research institutes, and a non-governmental organization that 
focuses on science applications for the conservation community. In 
addition to membership, the Alliance aggressively works to establish 
strategic partnerships with numerous organizations that will enable us 
to reach the potential GEOSS beneficiaries. Since our effort began in 
December 2003, we have engaged a wide range of groups including public 
health professionals to reinsurance, energy, transportation, and 
agricultural industry representatives. A listing of Alliance Members in 
included in Attachment B.
    As a result of our efforts to reach out to the broad private sector 
community, the Alliance has been able to contribute to the national 
planning for GEOSS. For example, 40 representatives from 23 
organizations participated in the Industry Workshop on GEOSS 
Architecture, held May 20, 2004. The workshop was conducted in 
cooperation with the Industry Advisory Council. The results, lessons 
learned and recommendations of this independent analysis were presented 
to the IWGEO.
    Another major Alliance contribution was bringing together 
government and private sector leaders at the Forum on Earth 
Observations. Held in September 2004, the Alliance--in partnership with 
the National Oceanic and Atmospheric Administration--hosted the Forum 
and brought together 200 business, academic, and non-government 
organization executives with senior government executives to 
communicate plans for GEOSS. In addition, participants explored how 
Earth observations are currently being used in the energy, agriculture, 
public health and transportation sectors. The importance of US 
leadership in global Earth observations initiatives, the need to 
examine new, public-private partnerships, and the importance of the 
human architecture to support GEOSS were identified and discussed at 
the Forum.
    Important parts of the business case supporting the needs for 
observations have already emerged. In the paper ``Critical Use of 
Environmental Information in Industry Operational Decisions Aids and 
Scenario Building,'' Mary G. Altalo, Corporate Vice President, Science 
Applications International Corporation (SAIC), an Alliance member, 
states:
          For the U.S. economy, of the estimated $2.2 trillion revenue 
        impacted annually as a result of adverse or severe weather 
        events, the hotel and recreation sector's share was estimated 
        at $147B, another $125B for agriculture, forestry, fishing; 
        $89B in energy resource extraction; $2.7B in public utilities; 
        $260B in finance and insurance; $373B in construction; $728B 
        retail trade; and $218B in transportation (Dutton 2001). Thus, 
        any advanced information that would mitigate the impact of 
        these disasters is of highest priority for the industries.
    Therefore, it is easy to understand why weather information, which 
is just one part of GEOSS, should be of such interest to the private 
sector. GEOSS could provide better information from a variety of 
sources to affect decision making in all sectors, including 
preparedness and response to natural disasters, which must include 
robust, all-hazard warning systems.
Implementation of GEOSS and the All-Hazards Warning System
    You are well aware that in addition to integrating the world's 
surface, airborne and space-based Earth-observing instruments, the 
GEOSS effort will attempt to fill in large gaps between data points 
(blind spots). GEOSS will also facilitate development of new data 
processing and visualization tools, establish protocols for the sharing 
of data among countries, and improve the way environmental information 
is communicated in times of crisis. Potential benefits include improved 
forecasts of tsunamis, hurricanes and other natural disasters, and 
better management of agriculture, forests, energy and water resources, 
and public health.
    In addressing GEOSS implementation and the All-Hazards Warning 
System, one of the key questions that needs to be asked is: Why should 
an organization such as the US Government invest its time, effort, or 
funds to collaborate with external organizations?
    From an efficiency viewpoint the answer is ``leverage''; from an 
effectiveness viewpoint, the answer is ``synergy.''
    For example, to update its land use plans, a city needs current 
demographic data, transportation data, land ownership data, and many 
other kinds of data. Yet, much of this data is also needed by agencies 
at the County, State, and Federal levels. When these kinds of data are 
shared using common standards, each sharing agency leverages the 
investment made by any of the others. And, they typically have synergy 
as well, because the ability to correlate different sets of data 
increases the value of each set.
    Earth observation data is needed not only for government agencies, 
but for companies evaluating prospective sites, farmers monitoring 
their crops, emergency managers dealing with threat situations, citizen 
groups engaged in public policy discussions, or parents checking the 
daily weather. Already, these users can take advantage of relevant data 
from satellite remote sensing, aerial surveys, ground-based monitoring 
systems, and a wealth of socio-economic data. But, the--Earth 
observation data being exploited today is a fraction of what could be 
available from existing systems, from observing systems soon to be 
operational, and from observing systems now in the early planning 
stages.
    U.S. Federal agencies involved in Earth observations have a long 
tradition of sharing scientific data. Most are already deeply involved 
in building the U.S. National Spatial Data Infrastructure, which goes a 
long way toward realizing the vision of shared data based on agreed 
standards. The--agencies are building on this base but need to go even 
further in leveraging investments and realizing synergy across systems 
and governments. They need to exploit collaborative opportunities early 
in the design of new systems. They need to get deeper agreements on 
data standards, so that different sets of data can be more easily 
integrated to yield synergistic products that support a broader class 
of decision-makers.
    Across national boundaries, the sharing of Earth observations data 
has a long record of success in the case of weather data. GEOSS 
broadens this tradition of sharing. In doing so, it leverages 
investments in many other multi-national observing systems and gains 
synergy across other societal benefit areas such as disaster reduction. 
A case in point concerns the disaster that occurred in December 2004.
    On December 26, an undersea earthquake was reported by the Global 
Seismographic Network, one of the systems participating in GEOSS. When 
such an event occurs, warning centers should be ready to send an early 
warning to pre-designated authorities in nations that might be 
affected. As called for in the GEOSS plan, those nations would have 
prepared hazard maps showing vulnerable areas and evacuation routes, 
based on high-resolution maps.
    Emergency management authorities interpret incoming alerts in their 
local context. They might decide to trigger an integrated public 
warning system to activate various communications media. The system 
converts an alert message automatically into forms suitable for 
available communication technologies. These might include voice on 
radio and telephones, text captions on television, messages on highway 
signs, or signals for sirens. This all-media, all-hazard public warning 
technology is consistent with the GEOSS architecture that encourages 
system interfaces using international standards such as the Common 
Alerting Protocol (CAP).
    I want to mention that the Alliance for Earth Observations endorses 
the ``Challenge of Public Warning,'' as expressed by the Internet 
Society. This call for collaborative action seeks to assure that 
societies worldwide can implement standards-based, allmedia, all-
hazards public warning. We are joined in this by leading government 
agencies such as the National Weather Service, the U.S. Geological 
Survey, and the National Association of State Chief Information 
Officers. The challenge is endorsed as well by advocacy groups such as 
the Partnership for Public Warning, and key international organizations 
such as the UN International Strategy for Disaster Reduction, and the 
International Telecommunications Union. We are also joined in this call 
to action by other visionary groups representing the private sector, 
including the Emergency Interoperability Consortium, the AMBER Alert 
Consortium, and the ComCARE Alliance.
    GEOSS should address all-hazards warning systems as a priority as 
ultimately--whether a tsunami, hurricane, or wildfire--the decision-
making information resulting from GEOSS must also be broadcast as 
urgently and broadly as possible through various communication media, 
all of which must be compatible with GEOSS. The private sector must be 
engaged in this endeavor.
    Involvement of the private sector is crucial to meeting the 
challenge of public warning. Involvement of the private sector is also 
crucial to the success of GEOSS. As stated earlier, last year, the 
Alliance for Earth Observations joined with the Industry Advisory 
Council to evaluate the proposed architecture of GEOSS. We concluded 
that the proposed GEOSS architecture is well aligned with current 
industry practice, and with trends in systems architecture. However, we 
need to assure that interaction with the private sector occurs on a 
regular basis. The Alliance--for Earth Observations is eager to help 
formalize such interaction.
Benefits to Public Health, Energy, and Environment
    The Vision Statement presented in the Strategic Plan for the U.S. 
Integrated Earth Observation System states ``Enable a healthy public, 
economy, and planet through an integrated, comprehensive, and sustained 
Earth observation system.'' The topics of public health, energy, and 
environment are recognized as priority areas with in the plan. And the 
IWGEO should be applauded for the extensive work that it has conducted 
over the last 18 months. However, as we begin in examine the GEOSS 
benefits to public health, energy, and environment, it must be 
recognized that our existing systems were originally conceived and 
developed by and for the science community are the same systems that 
are intended to support operational efforts for economic benefit. This 
is not to say that GEOSS should not be based on sound scientific data 
and information, because it should. It is to say that providing 
operational information products to benefit the public health, energy, 
and environmental communities are different than providing raw data to 
a research scientists and emphasize the critical link in creating 
information products for these different sectors. It also reinforces 
the importance of conducting sector-specific user requirement studies 
as a broad consensus of the data products required by these sectors 
does not exist.
    We can, however, examine current efforts that provide the rationale 
for new information systems to support these sectors. The article, 
``The Business Case for the Global Observing System'' published in 
April 2003 in Oceanography, discusses the relationship between climate 
and weather and the energy industry. According to the article, climate 
and weather have a direct and extensive impact on:

 Oil and gas exploration, development and production operations 
        (accurate surveying and precise drilling)
 Refining and Transport Operations (planning natural gas supply and 
        delivery strategies)
 Renewable Energy Operations (forecasting environmental impacts on 
        hydropower)
 Electricity Generation, Transmission, and Distribution (Energy 
        pricing/financing markets)
 Global Management (Destabilization of economies by weather, climate, 
        and ocean hazards)
    In regard to environmental benefits, at last week's Western 
Governor's Association meeting, Montana Governor Brian Schweitzer 
remarked that he and is fellow governors need better environmental 
information. In this particular case, he referred to the seven-year 
drought that Montana is experiencing and the critical need for an 
integrated drought information system. This drought system would be 
part of GEOSS and support the challenging decisions these governors 
face in dealing with drought--a quiet, but highly volatile natural 
hazard. As Governor Schweitzer described it, ``Our forests could 
explode.'' Therefore, any decision support system that would contribute 
to the planning for and responding to wildfires, deploying an already 
over-subscribed National Guard, or coordinating tanker resources would 
be highly beneficial for Governor Schweitzer and others.
    One of the most promising and exciting areas that could benefit 
from improved observations and data analysis is the area of public 
health. Observation information is already being applied to determine 
the connection between our environment and skin cancer, asthma, West 
Nile Virus, and malaria to name a few. In Environmental Health 
Indicators: Bridging the Chasm of Public Health and the Environment 
(National Academies Press, 2004), it states that environmental health 
professionals recommend more research of the environment to many other 
disease incidences. ``This is a growing concern because, in the United 
States alone, chronic disease contributes to more than half of all 
deaths and illnesses at an annual cost of $325 billion. The role of the 
environment in disease is further questioned because of increase in the 
number of reported clusters for cancer, Parkinson's disease, multiple 
sclerosis, and Alzheimer's disease.'' We all know someone who has 
suffered and died from one of these debilitating diseases. And, there 
may not be a connection between the environment and these diseases. 
However, studies such as this one provide a unique insight on the great 
potential for making new discoveries or ruling out theories by 
providing a technological solution to integrate different types of data 
to determine if a link in fact exists. The potential value that could 
be derived from further application and integration of environmental 
and health data alone should urge us to embark on establishing GEOSS as 
soon as possible.
    To capitalize on potential benefits, The Alliance for Earth 
Observations urges that a Federally-sponsored private sector Advisory 
Council be established to capitalize on this opportunity. Membership in 
the Council should include industry, academic, and non-governmental 
experts representing the many business sectors that will benefit from 
GEOSS. These sectors could include public health, energy, environment, 
agriculture, finance and reinsurance, transportation, and technology 
sectors. The Alliance would be pleased to assist in the development of 
this Council.
Summary
    Although international political backing, especially that of the 
White House, has been critical to getting this project off the ground, 
the time has come to make the private sector--industry, academia and 
non-governmental organizations--an active partner in the design, 
development and implementation of GEOSS. To realize the full potential 
of Earth observations for social and economic benefit, the private 
sector must be an active partner in developing future observation and 
warning systems. There are certain and important technological 
solutions for which businesses, colleges and universities, and non-
governmental organizations are best suited to provide.
    Indeed, history has shown that government, in partnership with the 
private sector, can achieve so much more than it can on its own. It was 
the government that launched the first communications and weather 
satellites. But it has been the private sector that, since then, has 
played a critical role in developing the technology and value-added 
services that have sparked today's multibillion-dollar 
telecommunications and geospatial industries. A similar model based on 
public and private cooperation should be followed as the world's first 
global observation system takes shape.
    Aerospace, telecommunications and information technology are just a 
few of the industries that should play an integral role in the early 
stages of this effort. The nation should harness the private sector's 
best and brightest--the same people who have built the tools and 
technologies that now enable us to receive weather reports and monitor 
the stock market via mobile phones--and engage them in new solutions to 
collect, compile, integrate and distribute key Earth-related 
information.
    Were it not for the hard work of governments worldwide, we would 
not be where we are today--on the cusp of a new era in Earth 
observations. The time has come, however, for the United States to 
forge new partnerships with the private sector and reach new heights in 
the monitoring and management of our planet. We believe the GEOSS can 
demonstrate its early value by creating a robust all-hazards warning 
system. However, a greater value of GEOSS, which has potential to 
impact trillions of dollars in products and services, will only be 
realized if the private sector works in close partnership with 
government.
                              Attachment A
                         summary of key points
    The Alliance for Earth Observations--an informal confederation of 
private sector organizations--has as its mission to advance the private 
sector's involvement in the development, use and integration of Earth 
observations and information for social and economic benefit.
    The Alliance recommends that the private sector (industry, 
academia, and non-governmental organizations) be actively engaged in 
the development of the Global Earth Observing System of Systems 
(GEOSS).
    GEOSS should address All-Hazards Warning Systems as a near-term 
priority and enlist the participation of the private sector to identify 
innovative solutions that might include voice on radio and telephones, 
text captions on television, messages on highway signs, or signals and 
sirens. This all-media, all-hazard public warning technology is 
consistent with GEOSS architecture and encourages system interfaces 
using international standards such as the Common Alerting Protocol 
(CAP).
    GEOSS benefits to the public health, energy, and environmental 
sectors will only be realized if these sectors are engaged in GEOSS 
planning and implementation.
    Although studies have been conducted to show the rationale and 
impact of observations on various business sectors such as public 
health, energy, and the environment, user requirements studies should 
be conducted to determine specific needs of the various sectors that 
will benefit from GEOSS.
    The United States should establish a private sector advisory 
council to ensure that the interests and requirements of non-Federal 
entities are considered in GEOSS planning and implementation.
                              Attachment B
               alliance for earth observations membership
    Ball Aerospace & Technologies Corporation; Boeing; Center for 
International Earth Science Information Network (CIESIN) at Columbia 
University; ESRI; ITT Space Systems Division; Lockheed Martin; 
NatureServe; Northrop Grumman; Raytheon; Science Applications 
International Corporation (SAIC); and Scripps Institution of 
Oceanography.

    Mr. Whitfield. Thank you, Ms. Colleton.
    And Dr. Glass, you are recognized for 5 minutes.

                  TESTIMONY OF GREGORY E. GLASS

    Mr. Glass. I would like to thank Chairman Whitfield and the 
subcommittee for the opportunity to meet today to talk about 
the implementation of GEOSS as part of a public health warning 
system.
    As you know, my name is Gregory Glass, and I work at the 
Johns Hopkins Bloomberg School of Public Health where I work on 
infectious diseases, though I am here today as a public health 
practitioner and a methods researcher.
    The stated goal of public health is to prevent the 
occurrence of emergence of diseases in human populations by 
identifying the factors that are responsible for causing 
diseases and developing strategies to mitigate their facts.
    Public health, therefore, is distinct from modern medicine 
in that its goal is prevention rather than treatment. And the 
field has had a long history of successfully identifying 
environmental conditions that are linked with health outcomes, 
whether these are exposures to chemicals in the workplace or as 
part of daily life or individual behaviors. And in some cases, 
we have been quite successful in actually being able to free 
populations from the risk of disease entirely.
    What I believe has limited our ability to use public health 
approach to deal with many of the current problems and diseases 
that face us today has been our inability to extend health 
information that we gather at a local scale to regional, 
national, and international levels. To do this, we need to have 
leading environmental indicators or conditions over a scale 
that matters to citizens of this country. During the past 15 to 
20 years, we have gained experience in linking diseases with 
these leading environmental indicators and--that could provide 
important clues to conditions that indicate impending 
outbreaks. A major goal of GEOSS is to integrate and 
incorporate many earth observing systems that currently exist 
that would increase our knowledge, but more importantly, our 
efficiency in recognizing these risks.
    GEOSS provides an important component of the system that 
can move public health from a descriptive and reactive practice 
to a predictive and forecasting one that could truly mitigate 
against disease risk for the public in much the same way that 
we expect weather forecasters to provide sufficient warning of 
oncoming storm events, or as we have discussed today, 
development of tsunami warning systems to protect populations 
along the coasts.
    I would note that GEOSS alone will not generate the warning 
system in public health that we really desire. A second key 
component that must be incorporated is the involvement and 
commitment of those members of the health community who hold 
access to health data at very high spatial resolution. The 
commitment of the public health community is critical, and one 
of their key issues that must be resolved is that the data that 
they hold is rightfully very sensitive. It will remain an 
important challenge, as we move forward with GEOSS, to identify 
strategies that will allow this information to be accessed and 
used for the good of the community while safeguarding the 
privacy of the individuals.
    I do not doubt that there are many challenges that face us 
in developing an environmental monitoring system to improve 
public health, but I also believe the challenge is worth the 
effort. We do require a vision that will merge these fields 
together, and GEOSS appears to represent an approach that could 
create the system that would meet these goals.
    I thank the committee for its time, and I would be happy to 
answer any questions.
    [The prepared statement of Gregory E. Glass follows:]
Prepared Statement of Gregory E. Glass, Professor, Bloomberg School of 
                Public Health, Johns Hopkins University
                                summary
    The goal of public health is to prevent rather than treat diseases 
in populations of people. This requires identifying risk factors, many 
of which are related to environmental exposures. There has been a long 
history of successfully identifying risk factors for both environmental 
and infectious diseases that are influenced by the environment. These 
studies have been used to design interventions that reduce the burden 
of disease. This approach has been especially successful where 
individual behaviors or occupational exposures are responsible for 
disease.
    However, many of our current public health problems are influenced 
by conditions that are more ubiquitous and frequently more subtle in 
their effects. To achieve the stated goal of health through prevention, 
public health practitioners therefore need to know what, where and when 
leading environmental conditions indicate that there are increased 
risks for these diseases and the environmental indicators must be 
monitored sufficiently frequently and over broad enough regions that 
they produce meaningful results for our citizens. GEOSS represents an 
important component of a public health program that is needed to make 
prevention a reality. The system captures many of the key environmental 
variables at appropriate spatial and temporal resolutions to implement 
environmental surveillance for many of the important infectious and 
environmental diseases affecting the country today. However, the data 
generated from GEOSS must be appropriately integrated with health 
outcome measures to create a fully functional public health warning 
system.
    I would like to thank the committee and the chair for this 
opportunity to meet with you today concerning the implementation of 
GEOSS as part of a public health warning system. My name is Gregory 
Glass and I am a professor in the department of Molecular Microbiology 
and Immunology at the Johns Hopkins Bloomberg School of Public Health 
where I work on infectious diseases, though I am here today 
representing myself.
    The stated goal of public health is to prevent the occurrence and 
emergence of diseases in human populations by identifying the factors 
responsible for causing diseases and designing strategies to mitigate 
their effects through education of the public and developing 
interventions to reduce people's exposures to these risk factors. 
Public health, therefore, is distinct from modern medicine in that its 
goal is prevention rather than treatment of diseased individuals, 
though there are many areas such as the creation of vaccines and more 
recent advances in bioinformatics, genomics and proteomics, where the 
two fields benefit greatly from one another.
    Public health has had a long history of successfully identifying 
environmental conditions that are linked with health outcomes. The 
association between human exposures to chemicals either in the 
workplace or as part of daily life and health effects provide many 
clear examples of this approach that are amenable to behavioral or 
regulatory intervention. Similarly with infectious agents, such as Lyme 
disease bacteria or West Nile virus, understanding the environmental 
factors that favor the animal vectors of these pathogens allow us to 
create rational, targeted, interventions that can improve the health of 
the public.
    The approach of linking of environmental conditions to human health 
and then acting can be so successful that we free the population from 
risk. For example, early in the last century citizens with sufficient 
resources would leave Washington DC, Baltimore and Philadelphia (as 
well as other Eastern cities) during the summer to escape both the heat 
and the mosquito-borne plagues of the summer. Studies followed by 
interventions such as environmental modification led to the control 
Yellow Fever, and malaria in this country and were so successful that 
we no longer think of these diseases as having occurred here.
    What I believe has limited our ability to use the public health 
approach to deal with many of the current diseases that are influenced 
by the environment has been our inability to extend the health 
information we gather at a local scale (as part of our traditional 
public health data) to regional, national or international levels. To 
do this we need to monitor environmental conditions repeatedly over a 
geographic region that matters to the citizens of this country and 
provide that information before conditions become so severe that we are 
dealing with a health crisis.
    During the past 15-20 years we have gained experience in linking 
diseases with leading environmental indicators that can provide 
important clues to conditions that indicate impending outbreaks. What 
we have discovered is that in many situations it is how the environment 
changes over days and weeks that provide important clues to disease 
risk. A major goal of GEOSS is to integrate and incorporate many Earth 
observing systems that repeatedly monitor conditions around the globe. 
This is a critical aspect to any strategy that will attempt to monitor 
changes in the environment. The likelihood that we can capture just the 
right time and place leading up to a disease emergence with a single 
environmental monitoring is slim and none. By contrast, we have found 
that data acquisition strategies exemplified by Landsat allowed us to 
retrospectively identify the environmental conditions that led to the 
outbreak of hantavirus pulmonary syndrome in the U.S. Southwest in the 
early 1990's and allows us to now anticipate when conditions favor new 
outbreaks.
    By intending to integrate and coordinate sustained Earth 
observations, GEOSS provides an important component of the system that 
can move public health from a descriptive and reactive practice to a 
predictive and forecasting one that could truly mitigate against 
disease risks for the public in much the same we that we now expect 
weather forecasters will provide us with sufficient warning from 
oncoming storm events.
    I would note that GEOSS, alone, will not generate a product that 
will give us ``the West Nile virus forecast for the coming week''. To 
function in the role of forecasting times and places of increased 
disease risk it will be necessary to establish the linkage between 
leading environmental conditions that predict health events and the 
health events themselves. This means that the second, key component of 
the system is the involvement and commitment from those members of the 
health community who hold access to the health data at a very high 
resolution so we can use historical information to establish the 
environment-health relationships. This is a challenge for two reasons. 
First, it requires the commitment from the public health community that 
this is a strategy that should be pursued. Second, the personal health 
information that they hold is rightly a very sensitive issue affecting 
many individuals. Particularly with the tremendous power of distributed 
data networks to disseminate information many health professionals 
remain challenged to identify strategies that will use this information 
to help the community while safeguarding the privacy of individuals. 
Finally, there is a critical need to incorporate these two sets of 
information in appropriate ways so that we can have the highest levels 
of confidence in the interpretation of the results. Again, these 
approaches are relatively straightforward but are only rarely applied 
at the scale we are discussing today.
    I do not doubt there are many challenges that face us in developing 
an environmental monitoring system that can improve human health but I 
also believe the challenge is worth the effort. We require little if 
any major advances in technology or methods to make progress that will 
reward our citizens. We do require a vision that will merge these 
important fields together. GEOSS appears to represent an approach that 
will create a system to achieve these goals.

    Mr. Whitfield. Dr. Glass, thank you very much.
    And Mr. Hood, you are recognized for 5 minutes.

                  TESTIMONY OF CARROLL A. HOOD

    Mr. Hood. Mr. Chairman, Ms. DeGette, my name is Carroll 
Hood. I am the GEOSS Chief Architect for the Raytheon Company 
out of Aurora, Colorado, but today I speak to you as the Lead 
of the Information Creation Committee for the Alliance for 
Earth Observations. And on behalf of all members of the 
Alliance, I am grateful to have this opportunity to share my 
thoughts with you. I kindly request that my full written 
testimony be submitted with the record.
    I am confident that your thoughtful investigation of the 
potential benefits of the Global Earth Observation System of 
Systems will reinforce our belief of the tremendous value that 
such a system could provide to both decisionmakers and the U.S. 
economy.
    Today, we are talking about an all-hazard warning system, 
but there is a more fundamental question that needs to be 
addressed. All hazard warning is just one of a number of 
applications that a global system of systems would enable. When 
one observes the current hazard warning processes, as you heard 
from the Admiral earlier, there is obvious room for 
improvement. We can do better. But the fundamental question is 
should we address this issue as a separate initiative or should 
we address it within the context of a worldwide environmental 
system of systems.
    The answer to this question lies at the nexus of the 
fundamental reason why a global environmental system of systems 
is both desirable and economically beneficial. Currently, the 
U.S. spends billions of dollars supporting the creation, 
operation, and maintenance of environmental observing systems. 
Once the data from these systems have fulfilled their primary 
objective, can they be used to generate additional value for 
the U.S., for our people, and our economy?
    In this case, value can be defined in a number of ways. The 
intelligent integration of environmental observations with data 
from other sectors will enable smarter, more informed decisions 
to be made that oftentimes have profound economic and societal 
impacts.
    In addition to this, value can also be measured as the 
economic impact of spawning new and innovative value-added 
products and services. In some sense, that is what GEOSS 
represents. It is a development of the infrastructure required 
to maximize the value of earth observations. It represents that 
marginal investment would be required to enable better 
decisions on key issues and to facilitate and encourage private 
sector investment in related products and services.
    Building a viable GEOSS will require us to recognize and 
overcome some fairly difficult challenges. And these challenges 
are business related, technical, and cultural. One of our key 
business challenges will be creating a business model that will 
accurately assess the value proposition for GEOSS and overlay 
that onto the reference technical architecture.
    From a technical perspective, there are a couple of key 
enablers that will give GEOSS the opportunity to succeed. The 
first has to do with syntactic and semantic interoperability 
across discipline, domain, and GEO-political boundaries.
    The second relates to developing service component 
architecture that will, among other things, support and 
catalyze capacity building. Fortunately, both of these areas 
are addressed to some degree within the reference technical 
architecture.
    The last of the challenges, and perhaps the most important, 
are the social and cultural issues. These are the most 
important, because they represent the biggest obstacle for us 
to overcome. We can technically architect a wonderfully capable 
system, but if the human and social aspects are not properly 
addressed, then GEOSS will fail.
    So based upon this backdrop, the Alliance for Earth 
Observations would like to make the following recommendations 
with regard to an all-hazards warning system.
    No. 1, design and build an all-hazards warning system 
within the context of a larger system of systems architecture. 
Develop the syntax, semantics, and services in such a way as to 
fulfill the operational objective but also to enable, 
facilitate, and encourage other value-added applications and 
services to be developed downstream.
    Two, proactively work the communication pathways to ensure 
all stakeholders have the opportunity to contribute throughout 
the development and operational life cycle.
    And three, increment--utilize an incremental approach that 
provides early opportunities to prototype key functional 
requirements and demonstrate success.
    In terms of the development of the U.S. IEOS, the Alliance 
would like to make the following additional recommendations.
    No. 1, the government should establish an IEOS program 
office to serve as the formal government focused with this 
activity.
    No. 2, the program office should take immediate steps to 
instantiate a more formal government, industrial, and academic 
partnership.
    No. 3, the program office should use these partnerships to 
conduct near-term activities that will help clarify the 
reference architecture and the overall value proposition.
    And No. 4, begin to immediately determine budget 
requirements for GEOSS. In the near-term, determine 
opportunities to fund demonstration projects that will 
illustrate and define value in the system. For the long-term 
requirements, ensure the effort is right-sized based upon the 
cost-benefit analysis established in the business case.
    I thank you for giving me this opportunity, and I would be 
happy to answer any questions you might have for me.
    [The prepared statement of Carroll A. Hood follows:]
   Prepared Statement of Carroll A. Hood, GEOSS Chief Architect for 
    Raytheon Company and Information Creation Committee Lead of The 
                    Alliance For Earth Observations
    Mr. Chairman, Mr. Ranking Member, members of the Committee, my name 
is Carroll Hood. I am the GEOSS Chief Architect for Raytheon Company. 
Today, I speak to you as the Lead of the Information Creation Committee 
of The Alliance for Earth Observations. I have been an active 
participant in the arena of environmental data management for over 
twenty years, both as a public servant and as a member of the private 
sector. On behalf of all of the members of the Alliance, I am grateful 
to have been given the opportunity to share my thoughts with you on 
this topic. I am confident that your thoughtful investigation of the 
potential benefits of a Global Earth Observations Systems of Systems 
(GEOSS) will reinforce our belief of the tremendous value that such a 
system could provide to both decision makers and the US economy.
    I would like to begin by providing some context for my remarks; I 
will then discus some of the challenges and possible solutions within 
that context, and will conclude with some specific recommendations. I 
would then be happy to answer any questions that you might have.
                                context
    This is truly a unique time. Over fifty-five nations recently 
agreed to coordinate activities to develop and operate a Global Earth 
Observations System of Systems (GEOSS), collecting and sharing Earth 
observations data and information to help decision makers address 
important societal issues. The concept of sharing environmental 
observations is not novel; this goal has been pursued, albeit within 
discipline or domain stovepipes, for many years. What is unique about 
this initiative is the level of political will and support that has 
been vividly demonstrated over the past 18 months. Instead of a 
bureaucrat several layers down in a government agency/ministry 
representing his/her country, we now have ministerial level/cabinet-
level visibility and participation, decision makers at the highest 
levels of government, to help bring this vision into reality. This is a 
tremendous opportunity.
    Today we are talking about an all-hazard warning system, but there 
may be a more generic question that needs to be addressed. All-hazard 
warning is just one of a plethora of applications that a global system 
of systems would enable. The hurricane season of 2004 and the recent 
events in the Indian Ocean have underscored the gravity of this 
important issue. Human lives are at stake. When one observes the 
current as-is hazard warning processes, obviously there is room for 
improvement. We can do better. The fundamental question is, then, 
should we address this issue as a separate initiative or should we 
address it within the context of a worldwide environmental system of 
systems?
    The answer to this question lies at the nexus of the fundamental 
reason why a global environmental system of systems is both desirable 
and economically beneficial. Currently, the US spends billions of 
dollars annually supporting the creation, operation, and maintenance of 
environment observing systems. These systems support the operational 
missions of various federal agencies, NOAA/NWS, DOT/FAA, EPA to name a 
few. Once these data have fulfilled their operational objective, can 
they be used to generate additional value for the US, our people, and 
our economy? In this case, value can be defined in a number of ways. 
The intelligent integration of environmental data with socioeconomic 
data, energy data, and health data, etc. will enable smarter, more 
informed decisions to be made that oftentimes can have profound 
economic and/or societal impacts. The impact of long-range forecasts of 
temperature and precipitation, for example, has been demonstrated and 
documented in a number of application areas such as drought mitigation, 
forest fire logistics planning, agricultural irrigation, transmission 
of vector-borne diseases, tourism, and even disaster mitigation. 
Witness the increase in the amount of warning time that the National 
Weather Service provides for severe weather events. I don't think that 
anyone would dispute that this improvement has saved lives. In addition 
to this, value can also be the measured as the impact of spawning new 
and innovative value-added products and services. Ten years ago, who 
would have predicted that the ubiquitous presence of the Internet would 
have spawned so many web-based applications? I live in Colorado, but 
can listen to the Tar Heels play basketball on the web within a few 
seconds of being live. That six-second lag is a far cry from the pre-
ESPN days of waiting for the morning paper to check the score. In much 
the same way as the internet spawned the development of on-line 
applications, GEOSS (i.e., coordination of the collection of 
environmental observations plus improvements in our ability to easily 
discover, access, and exploit environmental data and information 
products) has the same potential to spawn a new wave of 
environmentally-related products and services. The spectrum of 
potential applications range from economic (when and where Colorado 
should invest in new reservoirs) to close to home (letting soccer moms 
plan their week based on more reliable five-day forecasts.) to retail 
(when do I introduce the fall product line in our New England stores?) 
to recreational (where can I catch the biggest fish today?) These 
represent a few examples; many of the applications that could be 
engendered have not even been defined yet (much the same as streaming 
audio of Tar Heel radio broadcasts was not a driving requirement for 
the advent of the WWW.)
    In some sense, that's what the US Integrated Earth Observation 
System (IEOS) (the primary US contribution to GEOSS) represents. It is 
the development of the infrastructure required to maximize the value of 
Earth observations data and information resources. In most cases, these 
observations are already being collected! As we review our observing 
architecture and match that up against our national priorities, we may 
uncover observation gaps that may need to be filled. The cost of 
building any new observational infrastructure would need to be weighed 
against the value that such observations would generate. Thus, in 
general, the IEOS represents the marginal investment that would be 
required to enable better decisions on key issues and facilitate/
encourage private investment in related products and services. 
``Marginal investment'' is a dangerous phrase. In a budget-constraint 
environment, marginal investment may mean robbing Peter to pay Paul. 
This may be fiscal reality; we understand that difficult decisions 
based on national priorities must be made; however, we can only hope 
that both Peter and Paul have the opportunity to articulate their 
respective business cases, on a level playing field, and let the chips 
fall where they may. Thus, it is incumbent upon the proponents of a US 
IEOS to clearly define and articulate a viable business case for this 
marginal investment. We have the responsibility to quantify, to the 
best of our ability, value, in terms of both smarter decisions and 
economic stimulation. To date, we have done a poor job of doing this.
                        challenges and solutions
    Building a viable US IEOS will require us to overcome many 
constraints and solve some fairly difficult challenges. These obstacles 
come in many flavors: business-related, technical, and cultural. In the 
previous section, I discussed one of the key business challenges. 
Creating a business model for the US IEOS and overlaying it onto the 
reference technical architecture will be a non-trivial task. 
Fortunately, US Industry has extensive experience in this area and can 
provide significant insight into the problem. Current methods of 
valuation (i.e., Contingent Value Method (CVM)) need to be examined 
within the context of a GEOSS-like endeavor. In a potential growth 
industry, such as the one that GEOSS/US IEOS hopes to engender, CVM may 
undervalue the potential benefits since many of the useful products and 
services have yet to be defined or developed.
    From a technical perspective, there are a couple of key enablers 
that will give GEOSS the opportunity to succeed. The first has to do 
with the issue of interoperability across disciplines and domains; the 
second has to do with capacity building (i.e., enabling the developing 
world to share in the benefits of a GEOSS.) Fortunately, both of these 
areas are addressed to some degree within the reference technical 
architecture.
    In the world of interoperability, there are three primary 
components: Syntactic interoperability, which refers to the structure 
of data and information products and services; semantic 
interoperability, which refers to the meaning of measurements and 
observations; and transport interoperability, which has to do with 
networks and data transmission. The GEOSS reference architecture 
addresses the issue of syntactic interoperability though avocation of 
relevant international syntax standards. The use of eXtensible Markup 
Language (XML) is a case in point. XML is a meta-language for creating 
tags to describe the structure of data. The inclusion of a meta-
language within a system of systems architecture is a critically 
important point. This means that not every supplier of a certain type 
of data (e.g. sea surface temperature products) has to have the same 
physical format for their data and information products. (In the past, 
product format standardization was one method of improving 
interoperability.) A machine-readable XML representation of the 
internal structure would allow any user to understand and intelligently 
parse the dataset. In order for this to work properly, however, the 
issue of semantics must be addressed in parallel. Not only must a user 
understand the structure of the data, he/she must also understand what 
each data element actually means. Activities in semantic 
interoperability will enable producers to define the meaning of their 
products and services and for users to define their application space. 
Semantics, for example would enable a producer (and a user) to 
differentiate between bulk sea surface temperature vs. skin 
temperature, daily measurements vs. monthly averages, etc. all of 
which, to the uniformed user, fall into a single bucket called ``sea 
surface temperature.'' Although not referenced explicitly in the GEOSS 
reference architecture, international standards for semantics also 
exist. XML-based Resource Description Framework (RDF) and Web Ontology 
Language (OWL) enable the development of a machine-readable 
representation of any knowledge domain. This machine-readable entity is 
called an ontology. The ability to create, evolve, and map ontologies 
will enable intelligent and optimized data discovery across disperate 
domains. Thus, the capability to leverage syntactic and semantic 
interoperability will be absolutely essential if we are to use GEOSS to 
discover, access, and integrate data from a variety of sources in order 
to make more informed decisions from a cross-domain perspective. This 
capability is also the key enabler for the market viability of products 
or services that cross or span discipline or domain boundaries.
    The second big technical challenge relates to capacity building. 
Many issues are global in nature and will require both global data and 
a global response. Many developing nations have raised the concern that 
they may not be able to take advantage of the GEOSS due to their 
inability to support data collection or data exploitation activities. 
Once again, the GEOSS reference architecture provides a means to 
respond to this concern. The plan calls for the implementation of GEOSS 
services within a web-enabled, component-based architecture. Using 
international standards such as the XML-based Web Services Definition 
Language (WSDL) and Simple Object Access Protocol (SOAP) and registry 
protocols such as Universal Description, Discovery and Integration 
(UDDI), GEOSS information creation entities (the supply side) and GEOSS 
information exploitation entities (the demand side) can build a library 
of useful services that span the entire GEOSS life cycle. (data 
collection; product processing; metadata management; data discovery; 
data browse and visualization; and data integration and synthesis.) 
These services can be combined and/or connected to create specific 
value chains that will be able to meet the requirements of a variety of 
end-users.. As a result, no one organization or country will need a 
huge computational infrastructure to exploit GEOSS products and 
services. Although not explicitly referenced within the GEOSS 
Implementation Plan, it is expected that many of the basic services 
(e.g., data discovery; data access; routine processing; browse; simple, 
common integration tasks; ontology mapping; and perhaps more complex 
services that relate to fulfilling the ``public good'') will be in the 
public domain. More specific value-added services will likely be 
subject to normal market stimuli. This means that any country will be 
able to take advantage of the GEOSS infrastructure at very low marginal 
cost even if they have no data/observations to contribute to the 
collective.
    The last set of challenges, and perhaps the most important, are the 
social and cultural issues. These may be the most important because 
they represent the biggest obstacle for us to overcome. We can 
technically architect a wonderfully capable system, but if the human or 
social aspects are not addressed properly, then GEOSS will fail. This 
includes the way that people, nations, and governments communicate and 
negotiate with each other; it has to do with our collective ability to 
establish, articulate, and focus on clear priorities; it has to do with 
our perception of the value of environmental information in our 
everyday lives; and it has to do with our willingness to embrace a new 
paradigm in which every person, every nation has the opportunity to 
become empowered, through equal access to relevant products and 
services, to make decisions that can lead to improvements in the 
quality of life.
    Addressing these issues will be difficult. They cannot be solved by 
adopting an ISO standard or by developing the next ``killer app''. 
That's the bad news. The good news is that unlike technological issues, 
there is no bandwidth threshold to overcome. Driven by inspired 
leadership and an unwavering commitment to do the right thing, these 
issues can be addressed incrementally over time. Success breeds 
success. As we begin to make progress and demonstrate the value of 
environmental observations as both a means for improved decision making 
and a stimulus for economic growth, the required cultural shift will 
begin to move in the desired direction.
                            recommendations
    I have attempted to provide some context for the discussion of 
GEOSS along a brief characterization of a few near-term challenges. 
These items are relevant to any GEOSS application especially an 
activity like an all-hazards warning system. Thus, if we return to the 
fundamental question that I posed earlier, the Alliance for Earth 
Observations makes the following recommendations:

 Design and build an all-hazards warning system within the context of 
        a larger system of system architecture. Develop the syntax, 
        semantics, and services in such a way as to fulfill the 
        operational objectives and to enable, facilitate, and encourage 
        other value-added applications and services to be developed 
        downstream.
 Proactively work the communication pathways to ensure that all 
        stakeholders (primary, secondary, tertiary, etc) have the 
        opportunity to contribute throughout the development and 
        operational lifecycle.
 Utilize an incremental approach that provides early opportunities to 
        prototype key functional requirements and demonstrate success. 
        One area of focus will be services related to the Common Alert 
        Protocol (CAP).
    In terms of the development of the US IEOS, the Alliance would like 
to take this opportunity to make some further recommendations:

 The Government should establish an IEOS Program Office to serve as 
        the formal Government focus for this activity. The Program 
        Office should be a collaborative interagency initiative modeled 
        after the US Climate Change Science Program (CCSP). We should 
        continue to exploit DOC/NOAA's inspired leadership, but find a 
        way to leverage other initiatives at other US Agencies as we 
        begin to entrain existing assets into the US IEOS framework.
 The IEOS Program Office should take immediate steps to instantiate a 
        more formal Government/Industrial/Academic partnership through 
        the Alliance for Earth Observations.
 The IEOS Program Office should use these partnerships to conduct some 
        near-term activities
     Development of a viable business plan for the US IEOS that 
            includes accurate valuations of the impacts of improved 
            decision-making and the stimulation of value-added economic 
            activity.
     Initiation of a system-engineering based analysis of the proposed 
            reference architecture consistent with Federal Enterprise 
            Architecture (FEA) constructs.
     Development of focused test beds and prototypes that address key 
            technological impact areas related to:
                 Syntactic interoperability issues;
                 Semantic interoperability issues;
                 Identification and isolation of existing functional 
                capabilities into a FEA-compliant, service component 
                architecture;
                 Development of robust, multi-sensor in-situ 
                platforms;
                 Georeferencing non-georeferenced data that are likely 
                to be integrated with environmental data;
                 Creation of decision support services;
                 Identification and mitigation of security and 
                information assurance issues.
 Several of these issues cannot wait until FY07 to be addressed. 
        Therefore we suggest the Government evaluate the following 
        approach for supporting these activities in the near-term:
     Opportunities to leverage FY05 discretionary funds (small);
     Opportunities for FY06 supplemental funding (medium);
     Strategies for an FY07 integrated approach (right-sized based on 
            the cost/benefit established in the business case).
    Thank you for giving me the opportunity to address this 
Subcommittee, I would be happy to answer any questions that you may 
have.

    Mr. Whitfield. Thank you, Mr. Hood.
    And Dr. Hooke, you are recognized for 5 minutes.

                  TESTIMONY OF WILLIAM H. HOOKE

    Mr. Hooke. Chairman Whitfield, Ms. DeGette, I am very happy 
and thankful to have this opportunity to be with you and the 
other ladies and gentlemen in this room. My name is Bill Hooke. 
I direct the policy program of the American Meteorological 
Society.
    I thought I would take a second to tell you about that 
society. We have 12,000 members. I did a calculation while you 
all were over voting, and I figure if we all moved to one of 
your two Districts, we would represent 2 percent of your 
electorate, so I have a feeling that we don't exactly represent 
a powerful group in terms of numbers.
    However, all of our members are professionals in 
meteorology and oceanography, hydrology. They are engineers who 
build satellites and radars, the buoy systems that do the kind 
of earth sensing we have talked about. They are broadcast 
meteorologists. They are representatives of private sector 
weather firms, like Accuweather and Weather Channel, and so on. 
And we think we are real stakeholders in this. In fact, we have 
done a short policy study, which we have passed along to you 
all, and we are hoping both that and our more complete written 
statement will be entered into the record.
    In the couple of minutes here, I would like to talk about 
six aspects of this discussion that I think are particularly 
important.
    One is I want to reinforce what you have heard from every 
other speaker. These observing systems and their integration 
are one of the most important tasks facing our Nation. We heard 
a lot about tsunamis earlier, but we are trying to conduct our 
affairs in the U.S. in what is arguably the most hazardous 
weather in the world. And I could go into that a little bit. 
Some 20 to 30 percent of our economy, depending on how you do 
the numbers, is directly weather-inclement-sensitive. If we are 
looking to economic growth, at the same time those weather-
sensitive and climate-sensitive sectors are becoming zero-
margin sectors, for example the electrical utilities. We will 
find throughout our future that we need these observations for 
economic reasons. We have just heard that from the other 
panelist. And finally, we have interests in protecting the 
environment and ecosystems, not just within the U.S., but 
worldwide because of our position in world affairs.
    The second point I wanted to make was that the government 
can't do this job alone. I think Nancy and Admiral Lautenbacher 
and the other panelists have reinforced that notion. 
Fortunately, having government and corporations and academia 
and NGO's work together is something that the U.S. is pretty 
good at, and so I think we have reasons for optimism on this 
score.
    Third, the problems that we are talking about, and again 
every panelist has stressed this, are long-term. And the key to 
this, as Carroll Hood just indicated, is keeping track at every 
step of what the benefits are from continuing this work and 
taking a long-range view to it. We see the continuing 
evaluation of what is going on here as important to this 
process.
    The--next, this is inherently an international activity. We 
can engage in other high-tech activities in the United States, 
and if we--if other countries of the world don't come into 
these activities with us, we can go it alone. That is true of 
mapping the human genome. It is true of nanotechnology. It is 
true of high-performance computing. But when it comes to 
understanding how the earth works as a whole, when it comes to 
doing something as simple as providing a multi-day forecast, we 
can not do that without international data-sharing and 
cooperation. The air that is going to be over Washington, DC on 
Monday is currently in the western Pacific, Siberia, Asia. If 
we don't know whether that air is moist or dry, if we don't 
know whether that air is hot or cold, we can not make a 
reasonable forecast about weather conditions here.
    The next point I want to make is, as Admiral Lautenbacher 
stated, the major problems here are not scientific and 
technical. You can see from the words of Dr. Glass and Mr. 
Hood, that we are actually in pretty good hands. We have got a 
huge community working on this. We have policy issues that will 
determine how effective this investment is over the long term.
    Finally, there are several things that the Congress can do 
to reinforce and foster these activities. Very quickly, they 
include: No. 1, providing some statutory language, some 
support, some sense of the Congress that says we really think 
that this is an important long-range investment for the 
country. Another thing that we can do, I have to look at my 
notes for that, my memory still provides all of the faculties 
it used to just no longer same-day service. Okay.
    The second point is that we have got to resist the 
temptation that is going to be very natural in times of funding 
deficits to, you know, have the funding for this be 
intermittent and not steady. We have got to work--yes, ma'am. 
You raised that point in your opening remarks, and I think 
every representative made that kind of reference in one way or 
another. We have got to have steady funding for this. We have 
got to support research, because not all of the answers are in 
hand. And that will be true not only for the agencies you will 
hear from in the next panel, but also NASA where a focus on 
Mission to Mars threatens to take research dollars away from 
very important and very urgent earth-focused research. You can 
do a lot to foster dialog on these policy issues.
    And finally, through oversight like this, and through 
requesting annual reports from the agencies and so on, you can 
do a lot to move this forward.
    Thank you very much.
    [The prepared statement of William H. Hooke follows:]
      Prepared Statement of William H. Hooke, Director, American 
                 Meteorological Society Policy Program
    Mr. Chairman, Committee members, ladies and gentlemen, my name is 
William Hooke, and I very much appreciate this opportunity to appear 
before you on behalf of the American Meteorological Society (AMS), 
where I direct our Policy Program. The AMS strongly supports the Global 
Earth Observation System of Systems (GEOSS) under discussion today, as 
well as the Integrated Earth Observing System (IEOS), which embodies 
the U.S. contribution to GEOSS. In fact, our members--some 12,000 earth 
system scientists and engineers from government, from private industry, 
and from the university sector--are helping to plan and implement these 
systems, and are putting them to work for the benefit of the Nation and 
mankind.
    The AMS has just completed a policy study on GEOSS/IEOS 
implementation. We have supplied the Committee with this material and 
ask that it be included as part of the record of this hearing.
    First, some background.
    Better observations of the Earth system--its atmosphere, oceans, 
land masses, biosphere and natural and human resources and hazards--are 
vital to comprehensive understanding of its behavior and our hopes for 
a safer, more efficient society. An extraordinary international effort 
is now underway to promote and plan ``the development of a 
comprehensive, coordinated, and sustained Earth observation system of 
systems among governments and the international community to understand 
and address global environmental and economic challenges.'' Recognizing 
the crucial role data from those systems could play in protecting human 
health and safety, alleviating human suffering and poverty, and 
achieving sustainable development, more than 50 nations have agreed to 
cooperatively implement a Global Earth Observation System of Systems 
(GEOSS) to collect those data for the purpose of providing information 
for decision makers. GEOSS has the potential to provide substantial 
benefits to all nations. An ad hoc interagency Group on Earth 
Observations (GEO) is developing a 10-year implementation plan for 
GEOSS.
    In parallel with this coordinated international planning, the U.S. 
has established the Interagency Working Group on Earth Observations 
(IWGEO) to prepare a strategic plan for the development and 
implementation of the U.S. Integrated Earth Observation System (IEOS). 
The strategy will reinforce U.S. leadership in GEOSS. Currently, the 
international GEO and the U.S. IWGEO are developing the case for an 
integrated system of Earth observations; characterizing some of the 
societal benefits and requirements; and addressing a range of issues, 
such as the need for convergence of observations, the opportunities for 
synergy, requirements for interoperability and architecture, data 
access and use, capacity building, outreach, governance and funding, 
performance indicators, and schedule.
    The level and nature of investments made in this area in the coming 
few years will either sustain or limit--perhaps for decades--our 
ability to meet growing national and international needs for effective 
earth observations, science and services. The ultimate international 
response to the proposed effort to implement and, in the future, 
strengthen GEOSS will depend on how effectively global thinking, 
dialogue, and planning address a range of challenges.
    While much of the planning effort is directed at the scientific and 
technical aspects of the task, there are a host of policy issues that 
must be resolved if the implementation of an integrated Earth observing 
system is to be successful. The IEOS and GEOSS planners must come to 
grips with these issues that are largely if not wholly external in 
character. They reflect far broader national and international 
political and economic realities, and must be addressed by a range of 
individuals, institutions, and nations. Of course, the effort to fully 
realize IEOS/GEOSS will extend over a decade, at least, and will 
require a commensurate evolutionary approach to resolving the 
associated policy issues.
    With that preamble, here is our message, which has six points.
    1. IEOS and GEOSS are vital to the future of our Nation and the 
world's peoples. As members of Congress you deal every day with major 
challenges facing our nation: public health and safety, economic 
growth, major federal budget deficits and international trade 
imbalances, national security, the aging of the population and 
corresponding drains on Social Security and Medicare, educational 
challenges (especially in the sciences) and many more. Superficially, 
none of these problems would seem to have anything to do with a Global 
Earth Observation System of Systems, or an Integrated Earth Observing 
System. In fact, however, the need for IEOS and GEOSS is woven through 
each and all of these issues. For example, U.S. agriculture is 
increasingly energy-intensive. The effectiveness of energy use in 
agriculture (embodied in the use of irrigation, fertilizers, 
herbicides, and pesticides) is highly sensitive to the accuracy of 
weather and climate forecasts. Similarly, energy deregulation and 
reliance on regional power grids has increased efficiency, but at the 
same time increased the vulnerability of electrical utilities to errors 
in forecasts of peak demand. Formerly such errors could be readily 
accommodated by excess generating capacity in the system. Today such 
errors can lead to spikes in spot prices for energy, or in some cases 
to brownouts and rolling blackouts. Today, all modes of transportation 
clog the existing infrastructure--highways, airports, and harbors--even 
under fair weather conditions. As a result, unforecast weather delays 
contribute to spiraling costs. Finally, estimating National 
requirements for future public health infrastructure will depend 
critically upon the long-term outlook for climate change, for aerosol 
concentrations, for changes in patterns of moisture and heat and their 
associated changes in the impact of vector-borne diseases, and for 
changes in the nature and patterns of extreme events. These are just a 
few of many examples. To address these and other national priorities 
will require the investments in IEOS and GEOSS under discussion today. 
Perhaps the best analogy in the national experience is the Manhattan 
Project. In World War II, development of atomic weapons was so urgent, 
the scientific and technical challenges so great, and the stakes for 
mankind so high, that no expense was spared in that effort. Today, 
similar statements can be made about the importance and urgency of 
earth observations to future human prospects.
    2. The challenge cannot be met by government alone. To provide for 
public health and safety in the face of earth's extremes, to ensure the 
growth of commerce in weather-and climate-sensitive sectors, to protect 
the environment and ecosystems, and to meet the requirements of 
national security for Earth system science and services, government, 
private enterprise, universities, and NGO's such as the AMS must work 
together, in a structured way. End users of Earth system science and 
services must work with science and service providers to reconcile 
supply and demand such information, advance best practices, accelerate 
their widespread adoption, and anticipate future requirements. 
University researchers, government agencies, private enterprise, and 
NGO's such as the AMS all play a vital role. This will not be 
accomplished trivially. In our AMS policy study, we indicate some ways 
this might be achieved, by involving IEOS/GEOSS stakeholders: through 
ongoing, comprehensive stakeholder evaluations of IEOS value (by means 
of periodic stakeholder conferences, and coordinated multi-year 
studies), by establishing a clearinghouse or referral service for IEOS 
user applications and services, and by constituting an IEOS stakeholder 
advisory group.
    3. The problems are truly long-range. Perhaps the greatest threat 
to GEOSS, IEOS, and realizing their full benefits lies in the clamor of 
other problems competing for national attention, and the natural 
tendency to lose track of the vital in the face of the merely urgent. 
To ensure the needed continuity of effort amid such distractions 
requires improving our characterization of the program's benefits, 
maintaining and enhancing funding levels, ongoing research to meet 
growing requirements, and sound programmatic oversight. The latter 
should be achieved by establishing a secretariat within the United 
States to oversee administration and management of IEOS, and a 
counterpart GEOSS secretariat and funding mechanism at the 
international level.
    4. The challenge is not solely domestic. It is not enough for the 
United States to work in isolation to solve its own problems. Suppose 
we want to map the human genome, or develop nanotechnology, or a new 
cure for cancer. Suppose that other nations of the world do not wish to 
join with us. In these cases and many more, if we have to, we can go it 
alone. By contrast, if we want to produce a climate outlook, or assess 
the effect of climate change on the world's ecosystems, we must rely on 
international cooperation. This is even true of a weather forecast for 
more than the next few hours. To illustrate: the air that will be over 
Washington, DC in five days is currently over Asia and Siberia. Unless 
we know whether that air is moist or dry, hot or cold, we will not be 
able to predict its condition, and its consequences (will it produce 
rain or snow?), upon arrival here. Furthermore, to the extent that 
other countries fall prey to natural hazards, such as tsunamis, 
hurricanes, cycles of flood and drought, the effects are destabilizing 
and spill over into this country. Following Hurricane Mitch in 1998, 
which reduced Central American GDP by 50%, there was an uptick of 
illegal immigration into this country by Central Americans looking for 
work. Similarly, the aftermath of December's tsunami will continue to 
constrain the hopes and aspirations of peoples bordering on the Indian 
Ocean for years to come. Countries have shared meteorological data for 
decades, but the increasing value of such information and country-to-
country differences in public and private roles in the provision of 
that information have led to some fraying of the international 
agreements in recent years. It is important for all nations to maintain 
commitments to full and open exchange of meteorological data. Countries 
can then extend that foundation into more problematic areas such as 
ecological data sharing. GEOSS is an important foreign policy 
opportunity for the United States--a major arena where we can be, and 
be seen as, a good neighbor. Again, the recent AMS policy study 
indicates some ways international data sharing might be strengthened 
and broadened, by developing a negotiating process to progressively 
remove data restrictions on a case by case basis.
    5. The problems here are not purely technical. Policies at 
national, state, and local levels can either increase the utility of 
Earth science and services or squelch the potential benefits. For 
example, as mentioned earlier, electricity deregulation has had the 
hidden consequence of increasing vulnerability to forecast errors of 
peak demand. By contrast, the complex web of protocols governing 
management of this country's watersheds (through the operation of dams 
and reservoirs) has greatly constrained any ability to use seasonal 
outlooks to optimize decisions.
    6. Congress can do much to foster progress. Congress can commit to 
such programs through statutory language. Congress can work with the 
Administration to resist the admittedly natural attempts to accomplish 
these goals merely through the rearrangement of existing resources. 
Congress can stress the importance of ongoing research. This is true of 
all federal agencies, especially those represented on previous panels 
and under your direct purview, but also including NASA, where recent 
emphasis on interplanetary exploration threatens to siphon off funding 
needed for Earth system science and applications of that science to 
national priorities. Congress can also work with NGO's and the federal 
agencies to understand better the role of policy formulation in 
defining national benefits in this area. Finally, Congress can use 
regular hearings such as this one to check progress.
    In summary, I thank the Committee again for this opportunity to 
speak, and look forward to the discussion to follow. The AMS will be 
happy to continue a structured dialog with the Congress on these issues 
in the days and weeks following this hearing.

    Mr. Whitfield. Dr. Hooke, thank you and thank all of you 
panel members for your fine opening statements. We appreciate 
your input very much.
    How many of you actually attended the summit in Brussels, 
Belgium? Did all of you go and attend that? Do the four of 
you--in your organizations, do you find yourselves working with 
each other closely on this issue, the organizations represented 
here today?
    Mr. Hood. As a member of the Alliance, Nancy and I work on 
probably a daily basis to try to support this activity.
    Mr. Whitfield. What about you, Dr. Glass?
    Mr. Glass. I am probably the least directly involved. I 
have worked with them and collaborated with them in conferences 
and so forth, but I am sort of out there on the edge.
    Mr. Whitfield. And what about you, Dr. Hooke?
    Mr. Hooke. Well, yes. I have worked with these folks, also 
the folks on the panel that is about to testify. This is a 
big--well, it is a small community in terms of your 
Congressional District. It is a big community in terms of 
trying to ``work closely'' with everybody in it. Most of us 
can't do that.
    Mr. Whitfield. Well, all of you obviously have some 
expertise in this area, and it is something that you are 
involved in because of your commitment to the program. And if 
you were offering advice to the Admiral and to the government 
officials in the U.S. as they work to implement this program, 
what advice would you give them from your perspective on this 
issue?
    Mr. Hood. I would say that we need to start with a firm 
foundation of requirements. We have kind of a wish list of data 
requirements based upon the nine needs that have been 
identified, but those need to be further decomposed in terms of 
the interoperability that Nancy was talking about. And there--
when you are looking at bringing together a large number of 
existing entities into a system of systems looking at 
interoperability and enterprise architecture type 
considerations, it is a reasonable planning activity that 
probably should be conducted.
    Mr. Whitfield. Nancy?
    Ms. Colleton. I would echo that, and I believe that if 
there is a gap in the current planning right now, it is the 
fact that we are talking about systems that have been developed 
by and for scientists. And I believe there is a great deal of 
work that needs to be done in reaching out to these different 
sectors to determine what those actual user requirements are.
    Mr. Whitfield. And are you optimistic that that reaching 
out will occur or do you have a good feeling about that at this 
point?
    Ms. Colleton. In working--in just facilitating private 
sector involvement in the planning over the last year, I must 
say that the--you know, there is a public education task that 
needs to be done that we are working on very hard in getting in 
touch with as many people, letting them know about GEOSS. But I 
must say, very honestly, that people are very receptive to this 
idea. And I think as--the more we can develop the business case 
around GEOSS and show the values of it to people, the greater 
opportunity we are going to have for their engagement.
    Mr. Whitfield. Yes, Dr. Hooke.
    Mr. Hooke. There are advantages and disadvantages to being 
older. And one of the disadvantages in this case has been--I 
have seen, for 20 or 30 years, the folks in my line of work try 
to reach out to users, and it has been fairly difficult.
    Now I want to make two comments about that. One has to do 
with the reasons why it is difficult. And the second has to do 
with why things may be changing. Okay. So let me talk first 
about the difficulty here. In most of these businesses that we 
are talking about, whether it is public health or agriculture 
or energy or transportation, there is sort of a primary set of 
issues that folks are focusing on. In agriculture, for example, 
it is the price of the commodities that you are growing, not 
just locally, but globally. It is the subsidies, you know, kind 
of framework that you are operating in and changes on that and 
so on. So weather might be down there, as you know, No. 3 or 
something in that area. If you were in energy, weather might 
be--it wouldn't be No. 1, but it wouldn't be out of the top 
ten. If you were in construction, the same thing is true. So 
weather tends to be a secondary factor in many of these areas 
of application.
    Second, the past is an inadequate guide to your need for 
this weather and climate and air quality information. I said 
earlier we are moving to kind of a zero-margin society. It used 
to be that in agriculture you had all of this deep layer of 
humus soil, and you could grow anything in it. These days, we 
are talking about highly energy-intensive actions. You are 
putting fertilizer out there. You are digging wells and doing 
energy-intensive irrigation and so on. So you are building up 
more and more sensitivity to weather in the course of that. So 
you are lagging in your understanding of its importance to you. 
Now I said things were about to change, and that is because 
these problems are, No. 1, growing more urgent. They are much 
more visible then they used to be, these environmental 
problems. And No. 2, the capabilities of the environmental--the 
earth sciences community and the remote sensing community, much 
more able to deal with it.
    Mr. Whitfield. Thank you.
    Yes.
    Mr. Hood. I was going to say what Nancy was talking about 
the evaluation process, and we heard earlier a statement that a 
one-degree improvement in the accuracy of a forecast could save 
$1 billion in certain segments. So that--and those types of 
benefits in those areas stand by themselves, but I don't want 
to forget the secondary and tertiary valued-added product that 
will help stimulate the economy as a result of this and use the 
Internet as kind of--as a model saying 15 years ago who would 
have imagined the type of applications that are now available 
on the Internet and the access to, you know, worldwide 
environmental data may have that same type of effect and be 
able to spawn a large number of value-added industries, a lot 
of applications that we haven't even considered at this point, 
and that is an important aspect as well.
    Mr. Whitfield. Ms. Colleton really had some interesting 
references to business benefits from this in her testimony, 
which we appreciate.
    Ms. DeGette, you have 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    I think all of you will agree that we think it is important 
to put together a national integrated--an international 
integrated earth observation system and that the United States 
really plays a key role. So my question to each one of you, and 
we will start with Dr. Hooke--well, wait. Before I do that, I 
forgot to say hello to Mr. Hood, who is my neighbor to the east 
from my Congressional District, and it is really--I know we 
have been talking a lot about buoys here today. That always 
makes me nervous, being from Colorado, but the implications of 
this system for drought conditions in the west and for, as I 
said in my opening, public health, as Dr. Glass was talking 
about, are enormous. So I do look out for our drought 
situations in the west.
    So Dr. Hooke, I would really like to start with you and ask 
each one of the panelists if you can tell me if you think we 
have the political will in the Federal Government right now to 
do this in a sustained fashion and if we have the financial 
commitment to do so. And if not, what do we need to do? Because 
I think everybody, Mr. Whitfield and everybody else on this 
panel, agrees this is really important. But what do we need to 
do to move it forward and sustain it?
    Mr. Hooke. I would dearly loved to have been last in this--
in answering this, but let me take a stab at it, and maybe you 
will cut me some slack, and if I have something that I thought 
I should have said at the end, you will let me come back to it?
    Ms. DeGette. Sure. You can ask the chairman, but I----
    Mr. Hooke. Okay. You asked basically two questions. You are 
saying do you think we have the will and the financial 
wherewithal to do this. Yes, I think we have both. It is easy 
to look in the past and to feel that the participants in the 
past had this sense of manifest destiny that knew how things 
were going to turn out. Well, this is our time on the stage 
here, and I don't think this is a given. It is not an easy 
problem, but we have faced tough problems as a country before. 
We have always managed to hit it. In a case like this, I think 
we will. I said earlier that these problems are growing more 
urgent. That helps build consensus. That helps build commitment 
to the resources. And I think if we are content to feel our way 
through this rather than think we have to put the whole program 
down full blown at the beginning of the 10 years or so, we will 
find that we have navigated ourselves through it over a period 
of several years.
    Ms. DeGette. Thank you.
    Mr. Hood. Do we have the political--well, I think we have a 
lot of good evangelists who are out there spreading the word. I 
am not sure we have the grass roots support that we need to 
push something through here. Do we have the financial 
capability to make this happen? The answer is yes, but it is 
one issue in a matter of several important national priorities. 
To be honest, if we, the proponents, can not put together and 
articulate a viable business case that provides valuation for 
the products and services that will be provided, I believe you 
in Congress should not support it. I think it is our 
responsibility to articulate and to quantify that benefit as 
much as we can, given the fact that many applications are not 
out there. I am convinced that the valuation is high, the 
benefits are high, the potential impact on the economy in 
secondary and tertiary products and services is high, and I 
think it is our responsibility to demonstrate that. And success 
breeds success. As we demonstrate, in an incremental sense, 
that we can do that, then that will help push the culture and 
build that grass roots support that we would need.
    Ms. DeGette. Thank you.
    Mr. Glass. I tried to find the right button.
    I would reiterate what the other panelists have said. I 
don't think it is an issue of will, and from my experience, we 
are already doing, at least in public health, perhaps very 
first steps of what needs to be done to create the kind of 
warning systems that we would like to see in place. I think 
probably the big challenge will be, as Dr. Hooke mentioned, 
building the consensus among the right groups of individuals. 
And certainly in my field, we have realize that the real 
information for health-related issues lies at many different 
levels, not only in the Federal agencies, but also in the State 
and county agencies. And there needs to be the cross talk 
developed and the consensus developed vertically throughout the 
public health community that this system provides a really 
useful value-added product that will really help the community 
that we believe we should be serving.
    Ms. Colleton. Thank you. In regards to the political will, 
I just wanted to point out that I think that there is a very 
strong political will that--behind GEOSS at this point, and I 
just wanted to point out that Secretary Bodman sat in the U.S. 
chair at the very first summit that took place in July 2003. He 
is a very familiar with GEOSS and was involved with helping 
move the summit forward.
    Second, Secretary Leavitt currently at HHS led the U.S. 
delegation to Tokyo for the second Earth Observation Summit. 
Secretary Gutierrez, you all probably have a copy of his 
remarks made at the third Earth Observation Summit, and 
recently I had an opportunity to meet Secretary Johans at the 
Western Governors Association, and he is very familiar with 
GEOSS, specifically because of the national integrated drought 
information system that would be part of this scenario.
    So I can't think of another time in earth observations 
where we have had people at that level of government in four 
different agencies that are--that have bought in, essentially, 
to this system or improving earth observations. I think the key 
point here is that, as Carroll said, I believe we need to show 
value. And in the short term, I think one of the key 
demonstrations that we can have that will show the value of the 
global earth observing system is to put in place a 
demonstration of an all-media, all-hazards warning system. I 
mean, some of the things--and that is why it is so important to 
include the private sector. I mean, think of telecommunications 
and what we can do now. Before this subcommittee hearing 
started, I was talking with Dr. Hooke about one of the 
meteorologists in my office was showing me yesterday that, you 
know, the snow would stop within the next hour because he had 
real time radar data into his cell phone. I mean, these same 
people that allow us to monitor the stock market or whatever, 
you know, on our cell phones should be engaged to come up with 
technical solutions that help get the word via zip codes that 
there is severe weather in the west or whatnot.
    Ms. DeGette. Thank you.
    Did you want to add, Dr. Hooke?
    Mr. Hooke. No, I think I will stand by what I said. Thanks.
    Mr. Whitfield. Dr. Burgess, you are recognized for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and I apologize for 
being out of the room as this second panel convened. I was 
simply trying to save highway funding in my State.
    Dr. Glass, the statement that you have in here about the 
data acquisition strategy allowed for the identification of the 
outbreak of hanta-virus, can you tell us what the data 
acquisition strategy that was used to help outline that 
outbreak of--that viral outbreak?
    Mr. Glass. Yes, I would be very happy to, Doctor.
    What it involved was, in fact, the retrospective study that 
built on work that was done during the initial outbreak by 
Centers for Disease Control and Prevention, Indian Health 
Service, and a number of universities, including the University 
of New Mexico and a number of other institutions in the Four 
Corners area. And by gathering that health information, we were 
then able to link that, knowing the times and places of when 
cases of disease occurred, link that with earth observation 
systems, particularly satellite imagery, identify a classifier, 
build a model that would let us look over years of where did 
conditions seem suitable for outbreaks to occur. That has 
continued on an ongoing basis, supported by NASA, NOAA, I 
believe EPA as well as Centers for Disease Control and 
Prevention, and a whole host of other government agencies at 
various levels to provide annual updates to forecast and 
predict how many cases we expect to see in the U.S. southwest 
each year. And to date, we have been really quite successful. 
As you know, the southwest has gone through a fairly dry period 
the last few years and associated with that has been a 
substantial reduction in the numbers of cases. With the winter 
snows this year, the increased precipitation, our suspicion is 
that, in fact, what we are looking at is the potential for 
further outbreaks over the next year or so. And that 
information then is provided to the appropriate agencies who 
then evaluate the information and provide that to their 
constituents.
    Mr. Burgess. And now--so you are able to do this because 
of, what, the amount of moisture in the air, the aridity or 
dryness of the air?
    Mr. Glass. What it appears to be is it is related to soil 
moisture and the retention of soil moisture near the surface. 
It tends to be, therefore, associated, obviously, with certain 
land class or vegetation types but not exclusively. So it is 
not simply a matter of saying, ``Oh, it will occur in Evergreen 
Forest.'' In fact, we can be very specific down to 30 or 40 
meters in terms of locating where, for instance, we are going 
to find infected mice. And in collaboration with the folks at 
the University of New Mexico, we have actually been using that 
as a way of monitoring the increase in rodent populations that 
are carrying virus out there.
    Mr. Burgess. And then you are able to get that data into 
the hands of health care providers in that area?
    Mr. Glass. Yes, sir.
    Mr. Burgess. But that is not the flu you are seeing this 
week?
    Mr. Glass. As far as I know, that is not the flu. That is 
another project. No, and actually one of the tremendous 
advantages for us in terms of making this work is that it looks 
like we can lead the potential health effects for people by up 
to 10 months, so we can actually forecast about 10 months in 
advance what the conditions are likely to be like, and we 
obviously continue to monitor them monthly so that we can 
modify that projection as time goes by.
    Mr. Burgess. Are there any other pathogens that fall into 
this category that you can provide that type of data for?
    Mr. Glass. We are--have just finished up a study on West 
Nile virus here in the--it is supposed to be--from where I am 
from, we call it the Baltimore-Washington area. Is that okay?
    Mr. Burgess. It is the Washington-Baltimore area, as I 
understand it.
    Mr. Glass. Yes. I have tickets for the Orioles, too.
    And what we can show is that, again, using satellite 
imagery as well as merging this with the work that the Maryland 
Department of Agriculture, who is responsible for vector 
control, their data, with satellite imagery, we can not only--
we can distinguish sites where the mosquitoes that carry West 
Nile virus occur. We can distinguish those from sites where the 
same species occurs but doesn't have the virus. And we can do 
that beginning in the spring, March, April, and May, and as you 
have probably experienced if you were here over the last couple 
of years, most human cases don't start showing up until July, 
August, and September. And so again, we can provide 
identification of system monitors as well as some lead-time to 
local health departments to intervene as they see appropriate.
    Mr. Burgess. Very well. Thank you.
    I yield back, Mr. Chairman.
    Mr. Whitfield. Thank you, Dr. Burgess.
    Dr. Glass, I might want to question here. The Center for 
Disease Control, how do they play into this?
    Mr. Glass. My experience with the Centers for Disease 
Control and Prevention is that the level at which this analysis 
occurs varies. It tends to be, oftentimes, at the branch or 
division level in different portions of CDC. So, for example, 
at Fort Collins, there is a very active collaboration with CSU 
and CDC looking, for instance, at plague and relating the 
potential for plague outbreaks in the U.S. southwest to 
meteorological conditions that are being monitored by satellite 
imagery and insight to monitoring. It has been very successful. 
Another group there has been using similar sorts of procedures 
to look at risks for Lyme disease across the entire U.S. again 
using sort of similar strategies. And so, I mean, my impression 
of their work is that it is outstanding. I mean, it is a very 
good procedure, but--or very good set of procedures.
    Other groups that, in my personal opinion, could probably 
benefit from them, you know, what they perceive to be 
appropriate strategies for monitoring the diseases that they 
are responsible for. And so again, as I was saying, you know, 
part of this challenge, at least from my perspective for public 
health, is convincing the community who does public health or 
who is responsible for public health, that you know, there are 
some real advantages to be gained by looking at this approach.
    Mr. Whitfield. Right.
    And Dr. Hooke, to conclude this panel, you had mentioned 
statutory action on the part of Congress. Would you elaborate 
on that a little bit more?
    Mr. Hooke. You mean unburdened by legislative experience 
and so on when I have recommendations for specifically what you 
do? You all have a great influence on the progress of things, 
and particularly when you agree. And if you can come up with 
some sense of the Congress that says hey--and to look at the 20 
or so problems that are really pressing the country, whether it 
is jobs or the aging of the population or the health of Social 
Security. In the middle of all of those other problems, we 
think this ability to monitor the earth system to forecast what 
it is going to do, reduce our vulnerability to the bad stuff, 
to help us take advantage of the opportunities that weather and 
climate offer. And we recognize that this is pretty much of a 
long-term project, that there will always be things that seem 
more urgent. But we feel that if we are going to navigate 
through this next couple of decades, we need to commit to this 
somehow. So that is the first step.
    The second step involves kind of looking at the resources 
that are available for it, because again, it is going to be 
very tempting in the next few years to just put resources into 
things where the voices are the loudest, and this thing will 
always be vital and hardly ever be urgent.
    And finally, again, there is nothing like looking on the 
activity periodically and summoning folks up here and saying 
how is it going.
    Mr. Whitfield. Well, I want to thank you all so much. We 
appreciate your being here. We appreciate your--excuse me. I 
will pick up where I left off. Thank you. And now, if the third 
panel will come up, we will commence with that. We look forward 
to staying in touch with you all.
    Dr. Allen Dearry, Associate Director, Division of Research 
Coordination, Planning, and Translation at the National 
Institutes of Health. We have Dr. Gary Foley who is the 
Director of the National Exposure Research Laboratory with the 
U.S. Environmental Protection Agency. And we have Dr. Ari 
Patrinos, Associate Director for Biological and Environmental 
Research at the United States Department of Energy. Thank you 
all for your patience. I know it has been a long afternoon. We 
genuinely appreciate your being here. You--these are some 
exhibits that were provided to us by various witnesses, and I 
move that we enter these documents into the record, and without 
objection, so ordered.
    You all are aware that this is an Oversight and 
Investigations hearing, and as you well know now, we ask that 
we swear the testimony in. And I would ask you, do you have any 
objection to testifying under oath. And do any of you feel a 
need to have counsel with you today? If not, if you would join 
me, and I would swear you in at this time.
    [Witnesses sworn.]
    Mr. Whitfield. Thank you very much. You are now under oath, 
and Dr. Dearry, we will start with you. If you will give your 
5-minute statement, please, sir.

  TESTIMONY OF ALLEN DEARRY, ASSOCIATE DIRECTOR, DIVISION OF 
  RESEARCH COORDINATION, PLANNING, AND TRANSLATION, NATIONAL 
INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES, NATIONAL INSTITUTES 
  OF HEALTH; GARY FOLEY, DIRECTOR, NATIONAL EXPOSURE RESEARCH 
LABORATORY, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND ARISTIDES 
 PATRINOS, ASSOCIATE DIRECTOR FOR BIOLOGICAL AND ENVIRONMENTAL 
              RESEARCH, U.S. DEPARTMENT OF ENERGY

    Mr. Dearry. Thank you, Mr. Chairman, members of the 
subcommittee, and staff.
    I am pleased to be here to discuss very briefly with you 
the benefits to human health and well being from establishing a 
GEOSS.
    GEOSS represents a means of bringing useful, health-
related, environmental data to researchers, to public health, 
and medical providers, and to policymakers in a user-friendly 
format. This type of comprehensive data system can provide a 
powerful tool that actively supports prevention, early warning, 
research, health care planning and delivery, and can provide a 
variety of timely public health alerts.
    The availability of a global observation system plays an 
important role in fostering our understanding of the earth and 
its many interconnected systems: oceans, land, atmosphere, and 
importantly the manmade human constructs, such as cities. Only 
by fully exploring and understanding the complex 
interrelationships between both natural and manmade 
environments can we begin to better implement a holistic 
ecosystem-based management approach that provides for 
productive economy, sustainable development, and the protection 
of human health and well being.
    Improvements in the quality of life and longevity will 
require a better understanding of the causes, development, and 
progression of common diseases and disorders and how they 
relate to environmental factors. So as you have heard a little 
bit about already, we need to have a better understanding of 
the specific environmental causes and factors that contribute 
to underlying burgeoning increases in vector-borne diseases, 
such as malaria and West Nile virus. A well designed, 
coordinated, global earth observation system would contribute 
to providing data on many environmental factors that influence 
human health.
    One of the most difficult challenges that is faced by 
researchers and policymakers in this field is really being able 
to monitor and assess the degree of environmental exposures to 
which we are exposed daily. GEOSS really offers an excellent 
opportunity for improved data and data products to assist in 
this process of exposure assessment.
    And then we need to be able to combine those environmental 
exposure data with the health status data, such as the 
information we obtain from CDC and other agencies. And by 
combining these in situ and remote observations with disease 
tracking data, we will have a better understanding of the links 
between environmental exposure and health status. And together, 
this information then can be distributed widely and thereby 
effectively provide tools for the public and for policymakers 
to make individual and community decisions about their daily 
lives.
    Data relevant to human health and well being that can be 
obtained from GEOSS include: air quality; water quantity and 
quality; fate and transport of chemicals in the environment; 
the impact of environmental changes and manmade activities on 
bio-diversity; importantly, the search for natural organisms 
and substances that have the potential to be developed as 
beneficial products of medicinal and commercial value, so this 
is not all just what might harm human health but what might 
actually be health-promoting; the environmental conditions that 
influence disease transmission from vectors to humans; land 
use, urban form, population data, and transportation patterns 
for planning and for health impact assessment.
    All of the components of an integrated earth observation 
system can contribute to improving human health and well being. 
The enhanced availability of a variety of earth observations 
will allow development of improved predictive models that could 
open the door to better forecasting of the occurrence of 
environmentally related disease and possibly to controlling or 
preventing these diseases in human populations. Enhanced earth 
observations can lead to improved data on air quality and 
contribute to improvements in human health by reducing 
morbidity and mortality due to asthma, chronic obstructive 
pulmonary disease, atherosclerosis, myocardial infarction, and 
other respiratory and cardiovascular diseases. And similarly, 
both the quantity and quality of water on local, national, and 
global scales impacts human health. You may, for example, have 
heard about the dead zones that occur at different locations 
along the coast of the U.S., the most prominent being the Gulf 
of Mexico, but they also take place in the Chesapeake Bay. 
These are harmful not only socially, culturally, and 
economically to the fishing industry, for example, but they 
also have a potential impact on human health due to their 
contribution to the growth of algal blooms, some of which are 
harmful or toxic to humans.
    So GEOSS actually represents an excellent opportunity for 
us to be able to better assess environmental exposures and how 
they contribute to human health.
    Thank you for your time. I will be glad to answer any 
questions you may have.
    [The prepared statement of Allen Dearry follows:]
  Prepared Statement of Allen Dearry, Associate Director for Research 
     Coordination, Planning and Translation, National Institute of 
      Environmental Health Sciences, National Institutes of Health
    Good afternoon. I am Dr. Allen Dearry, Associate Director for 
Research Coordination, Planning and Translation at the National 
Institute of Environmental Health Sciences (NIEHS) of the National 
Institutes of Health, DHHS. NIEHS is a member of the Interagency 
Working Group on Earth Observations. I am pleased to be here to present 
testimony on the benefits to human health and well-being from the 
interagency initiative to develop the U.S. component of a global Earth 
observation system of systems (GEOSS). GEOSS will be a means of 
bringing useful health-related environmental data to the health 
communities (researchers, service providers, and policy makers) in a 
user friendly form. Comprehensive data sets are powerful tools that 
support prevention, early warning, research, epidemiology, health care 
planning and delivery, and provide a variety of timely public alerts.
    At its most fundamental level, this activity acknowledges the 
critical role that the availability of comprehensive and sustained 
global observations plays in enabling our understanding of the earth 
and its many interconnected systems--oceans, atmosphere, land, and man-
made constructs such as cities. Only by fully exploring and 
understanding the relationships between natural and man-made 
environments will we be able to implement holistic, ecosystem-based 
management and provide simultaneously for a productive economy, 
sustainable development, and protection of human health and well-being.
    Health status is determined by the interplay of a complex array of 
factors--genetic susceptibility, age, nutrition, stress, and 
environmental exposures. With the sequencing of the human genome, rapid 
progress in understanding the role of human genetic susceptibility in 
disease causation and progression is expected. Continued improvements 
in quality of life and longevity will require a better understanding of 
the causes, development, and progression of common diseases and 
disorders--and how they relate to environmental factors. For example, 
what are the specific environmental factors underlying burgeoning 
increases in vector-borne diseases, such as malaria and West Nile 
virus, and chronic diseases already linked to environmental exposures, 
such as breast cancer, Parkinson's disease, and asthma? How can we 
improve prediction of outbreaks of both acute and chronic diseases? A 
well-designed, coordinated global earth observation system of systems 
(GEOSS) would contribute significantly to providing data and data 
products on many environmental factors that influence human health, 
from extreme weather events, to availability of food, to air and water 
pollution.
    One of the most difficult challenges faced by researchers and 
policymakers is monitoring and assessment of environmental exposures. 
To assess exposure adequately, investigators must know as much as 
possible about the environmental media into which a substance is 
released (air, surface water, groundwater, soil surface or subsurface), 
how quickly the substance can move through those media, how physical 
and chemical properties change under environmental conditions, and how 
these changes affect the potential for harming populations or the 
environment. GEOSS will offer improved data and data products to aid in 
exposure assessment.
    Over the past fifty years, an increasing demand for environmental 
health knowledge to inform personal and societal decision-making has 
been expressed by service providers, policymakers, and the public at 
large. The optimal approach to achieve this knowledge base is to 
combine in situ and remote observations with disease tracking data. 
Together, this information can be distributed widely, using information 
systems, and thereby effectively provide tools for the public and for 
policymakers to make individual and community decisions about daily 
lives and potential regulations that influence human health and well-
being.
    Data and data products relevant to human health and well-being that 
can be obtained from GEOSS include, but are not limited to, the 
following areas:

 Air quality and pollution transport.
 Water quantity and quality, especially for human use.
 Hot spots of pollution in wetland and coastal areas.
 Fate of pathogens in marine and other low oxygen environments, such 
        as aquifers, mountain tops and caves.
 Fate and transport of chemicals in the terrestrial, aquatic, and 
        marine environments.
 Impact of environmental changes and man-made activities on 
        terrestrial and aquatic biodiversity.
 Search for natural organisms and substances having the potential to 
        be developed as beneficial products of medicinal and commercial 
        value.
 Environmental conditions that influence disease transmission from 
        vectors to humans, including those that affect the spread and 
        control of emerging or re-emerging diseases.
 Safe and adequate supply of food.
 Land use, urban form, population data, and transportation patterns 
        for planning and health impact assessment.
 Human activities and location for exposure assessment and resource 
        management.
 Weather and climate.
 Invasive species, particularly those affecting humans.
    All the components of an integrated earth observation system can 
contribute to improving human health and well-being. Researchers, 
service providers, policymakers, and the public can use earth 
observations to make decisions and take actions. These decisions and 
actions help reduce the impact of disasters, protect and manage natural 
resources, adapt to and mitigate climate variation, support sustainable 
agriculture, forecast weather, protect areas valued for recreational, 
religious, or aesthetic purposes, and prevent disease/dysfunction due 
to environmental exposures or conditions that increase the likelihood 
of transmission of water- or vector-borne diseases. For diseases 
influenced by environmental factors, the enhanced availability of a 
variety of earth observations will allow the development of improved 
predictive models that could open the door to forecasting occurrence 
and possibly controlling or preventing these diseases in human 
populations.
    Enhanced earth observations that lead to improved data on air 
quality and an enhanced ability to predict air pollution episodes will 
contribute to improvements in human health by reducing morbidity and 
mortality due to asthma, chronic obstructive pulmonary disease, 
atherosclerosis, myocardial infarction, and other respiratory and 
cardiovascular diseases. In addition, air pollution affects the 
environment in many ways that ultimately impact human health and well-
being: by reducing visibility; damaging crops, forests, and buildings; 
acidifying lakes and streams; stimulating the growth of algae in 
estuaries; and the build-up, or bioaccumulation of toxics (e.g., 
mercury) in fish and animals. Rapid development and urbanization around 
the globe has increased air pollution that threatens people everywhere 
as these contaminants can travel great distances across oceans and 
national boundaries.
    Both the quantity and quality of water on local, national, and 
global levels pose similar concerns. For example, an annual dead zone 
has developed in the Gulf of Mexico, beginning as early as February and 
sometimes lasting until mid-fall. This zone consists of water where the 
oxygen content is so low that its denizens cannot survive. Although the 
precise timing and size of the Gulf's dead zone varies with the 
weather, in many years it encompasses 22,000 square kilometers, a 
parcel of underwater real estate roughly the size of New Jersey. 
There's no mystery as to what triggers this annual hypoxic zone. Into 
the Gulf of Mexico, the Mississippi River deposits water that is 
heavily enriched with plant nutrients, principally nitrate. This 
pollutant fertilizes the abundant growth of algae. As blooms of algae 
go through their natural life cycles and die, they fall to the bottom 
and create a feast for bacteria. Growing in unnatural abundance, 
bacteria use up most of the oxygen from the bottom water. Caused almost 
exclusively by human activities, coastal dead zones are becoming 
increasingly common and recurrent. In the Chesapeake, scientists worry 
that a growing dead zone in the bay each summer is creating a habitat 
that favors jellyfish over commercially valuable finfish, crabs, and 
oysters. Despite the nation's most aggressive state and local efforts 
to curtail nutrient releases into local waters, last year's dead zone 
in the Chesapeake was the largest ever measured. In addition to 
economic and social impacts, these changes in marine biology and 
chemistry affect human health by promoting growth of toxic or harmful 
algal blooms and decreasing our capacity to obtain reliable, valuable 
food sources. Improving our ability to measure and monitor land- and 
water-based environmental change contributing to such outcomes will 
significantly expand our capability to protect both marine resources 
and human health.

    Mr. Whitfield. Thank you, Dr. Dearry.
    And Dr. Foley, you are recognized for a statement.

                     TESTIMONY OF GARY FOLEY

    Mr. Foley. Well, thank you, Mr. Chairman, and thank you to 
the committee and the staff for this opportunity to talk today.
    First, I would like to recognize and thank all of the----
    Mr. Whitfield. Is your microphone on, Dr. Foley?
    Mr. Foley. I am sorry.
    First of all, I would like to thank all of the agency 
partners and industrial partners that have participated in this 
effort. It has been quite an experience working with so many 
people with such diverse interests. And I especially want to 
put my recognition in for Vice Adm. Lautenbacher for his 
dedicated leadership in making the vision for GEOSS real. I 
have gone with him to most of the GEO meetings and have seen 
his leadership in action.
    GEOSS has the potential to be a very important source of 
information to inform policies, especially in the environmental 
arena. And our former Administrator, Mike Leavitt, recognized 
this in using the phrase that ``GEOSS would take the pulse of 
the planet.'' EPA's mission is to protect human health and 
safeguard the natural environment, and so, therefore, we 
believe we have an important continuing leadership role to play 
in GEOSS.
    By comparing the goals and objectives in EPA's strategic 
plan with the societal benefit areas identified in the 
Strategic Plan for the U.S. Integrated Earth Observation 
System, it is very clear that GEOSS has the potential to make a 
significant contribution to environmental protection. It is for 
this reason that EPA has joined with the other agencies to be 
an active contributor and a leader in both the interagency and 
international GEOSS efforts.
    EPA is very dependent on observational data for our 
environmental decisionmaking as well as for the increased 
understanding of our environmental problems and in order to 
look at our performance in addressing these environmental 
problems. To fulfill our mission, EPA has a long tradition of 
partnering with other Federal agencies to access and share data 
and information.
    EPA was a co-chair of the international ``User Requirements 
and Outreach'' subgroup that was formed under the ad hoc Group 
on Earth Observations. And one of the tasks of this group was 
to draft the first set of societal benefits that ultimately got 
negotiated and became part of the framework for this plan.
    We at EPA are an important partner in GEOSS, because we are 
both a data provider and a data user, contributing to all of 
the nine societal benefit areas. Like the international model 
for the GEOSS architecture, EPA in its partnership with Federal 
agencies, States, tribal governments, and local environmental 
agencies, collects many types of environmental monitoring data 
and develops and validates environmental models that support 
decisions about the environment.
    In addition, EPA is helping these same State, tribal, and 
local environmental agencies and their decisionmakers to 
address the challenge of defining and tracking environmental 
stewardship with outcome-based performance metrics. As 
information from GEOSS becomes available, we will be able to 
refine these metrics even more.
    EPA stands ready and willing to further its already strong 
support on the implementation of GEOSS, working with all of our 
international and domestic partners.
    And again, thank you for inviting EPA to appear before this 
subcommittee, and I look forward to your questions.
    [The prepared statement of Gary Foley follows:]
  Prepared Statement of Gary Foley, Director of the National Exposure 
Research Laboratory, Office of Research and Development, United States 
                    Environmental Protection Agency
                              introduction
    Good afternoon Chairman Whitfield, Ms. DeGette, and Members of the 
Subcommittee. Thank you for the opportunity to appear before this 
Subcommittee to discuss the role of the Environmental Protection Agency 
(EPA) in the Global Earth Observation System of Systems (GEOSS). EPA's 
mission is to protect human health and to safeguard the natural 
environment, and therefore we have an important, continuing role to 
play in GEOSS. It is my pleasure to discuss this role with you this 
afternoon.
         epa's unique geoss role in earth observation linkages
    As previous speakers have said, GEOSS is an excellent example of 
science serving society. Over time, GEOSS will provide important 
scientific information for sound policy and decision making in every 
sector of society. EPA recognized immediately that GEOSS aligned with 
our mission and that we could potentially make a significant 
contribution.
    The (2003-2008 EPA Strategic Plan: (Direction for the Future( 
emphasized that EPA's mission is clear: to protect human health and to 
safeguard the natural environment. The vision for GEOSS is to realize a 
future wherein decisions and actions are informed by coordinated, 
comprehensive, and sustained Earth observations and information. By 
comparing the Goals and Objectives in EPA's Strategic Plan with the 
Societal Benefit areas identified in the Strategic Plan for the U.S. 
Integrated Earth Observation System (IEOS), it is clear that GEOSS has 
the potential to make a significant contribution to environmental 
protection. EPA recognized this in 2003 as the first Earth Observation 
Summit (EOSI) was being planned, and has joined with other Agencies to 
be an active contributor and leader in both the interagency and 
international effort.
    Under the authority of numerous environmental statutes, EPA strives 
to implement environmental protection as science and technology 
continuously advance. As an agency, EPA depends on observational data 
to assist in environmental decision making, as well as to increase our 
understanding of environmental problems and how best to address them. 
EPA has traditionally partnered with other Federal Agencies to access 
and share data and information for other programs. For example, in air 
quality, EPA and National Oceanic and Atmospheric Administration (NOAA) 
continue to benefit from a partnership that started 50 years ago by the 
Public Health Service and the Weather Service. In water quality, EPA, 
NOAA, the U.S. Fish and Wildlife Service, and the U.S. Geological 
Survey have worked together for the last decade assessing U.S. coastal 
conditions. This effort recently produced a second National Coastal 
Condition Report. In recent years, there has been an effort across all 
agencies to strengthen these partnerships, which have become the 
backbone of both IEOS and GEOSS. It is important to emphasize that the 
IEOS is the U.S. contribution to GEOSS.
    EPA brings to GEOSS experience in scientifically sound 
environmental policy and decision making. Over time, opportunities to 
link information from GEOSS observations to environmental decision 
making may be numerous, and some of these links are underway now. EPA 
faces the challenge of addressing environmental problems at different 
geographic scales and of improving environmental performance in a 
holistic manner. Compounding this challenge is the need to be flexible 
enough to embrace innovative approaches to demonstrate improved 
environmental performance at less cost. Addressing these challenges can 
require harmonizing our own and others( vast environmental data 
resources. For data to be useful to the broad community of stakeholders 
to inform their environmental decisions and to measure their success, 
the systems of different observations, models, and decision support 
tools all need to be interoperable. EPA has been actively encouraging 
and facilitating the development of interoperable systems, both working 
with the Federal community, as well as with the state, tribal, and 
other environmental agencies.
                         epa as a geoss leader
    In November of 2003, former Administrator Michael Leavitt arrived 
at EPA with his ``Enlibra Principles,'' an awareness of GEOSS, and the 
desire to play a leadership role along with the heads of other 
Agencies. Administrator Leavitt led the U.S. delegation to Tokyo, Japan 
for the second Earth Observation Summit in April 2004, where he 
combined his recognition of Earth Day with the adoption of the GEOSS 
Framework Document, remarking that GEOSS ``will give us the pulse of 
the planet.''
    From the very beginning, at both the international and U.S. levels, 
EPA has been one of the leaders of GEOSS. Acting EPA Administrator 
Marianne Lamont Horinko as she closed the first Earth Observation 
Summit on July 31, 2003, remarked about the historic, unprecedented, 
and huge challenges before all of us. Horinko emphasized, ``You are 
building a global partnership to protect the global community. You're 
strengthening the human ties that link all people everywhere. Through 
information, you will inspire a deeper understanding of who we are and 
where we live.''
    Also, EPA became a co-chair of the international ``User 
Requirements and Outreach'' subgroup formed under the ad hoc Group on 
Earth Observations (GEO). One of the principal tasks of this group was 
to draft the Societal Benefit areas, to come up with compelling 
rationale for the importance of the benefits, and to then draft a broad 
``first cut'' of the observational requirements to meet these Societal 
Benefits.
    This concept was emphasized by EPA Administrator Michael Leavitt in 
Tokyo 2004. ``The tools provided by GEOSS will aid us in managing our 
watersheds, improving our drinking water, protecting our food supply 
and ensuring a safe transportation system. It will help us avoid 
disease outbreaks and secure a reliable energy supply. GEOSS will help 
us sustain people, promote prosperity and protect our planet. The 
potential benefits are limited only by our imaginations.'' Under the 
U.S. Interagency Working Group on Earth Observations (under the 
Committee on Environment and Natural Resources of the National Science 
and Technology Council), EPA continues to play a role as the agencies 
develop and begin to implement the opportunities under the Societal 
Benefit areas. EPA's leadership role is being reaffirmed by the 
Administrator nominee, Stephen L. Johnson, who recently said, ``I am 
thrilled with the promise of GEOSS. It can provide us with better 
information to use in decision-making, producing better decisions that 
are better informed with more data points. If confirmed as EPA's 
administrator, I hope to help make the promise of GEOSS a reality.''
    The identification of user requirements is an ongoing and dynamic 
effort that many Agencies and countries are undertaking. In concert 
with our stakeholders, we at EPA continue to identify additional 
scientific gaps that GEOSS could address and how best to fill these 
gaps. At this point, our users include the breadth of stakeholders 
concerned about using the information available to make the best 
possible environmental decisions.
    Also, because of EPA(s effort to develop a Report on the 
Environment, EPA is in a good position to provide information and 
guidance on human health and environmental indicators that meet user 
needs. In addition, EPA's Air Now Program is a ``trail blazer'' in 
providing meaningful air quality indicators to the public in realtime. 
Partnerships have been established with NOAA and the National 
Aeronautics and Space Administration (NASA) to further develop models 
and observations to improve the indicators and forecasts that states, 
tribes and local agencies can use.
    Implementing environmental protection across our country has become 
a network of state and tribal partnerships. With the evolution of 
GEOSS, this partnership network will expand across countries.
             achieving and measuring environmental progress
    Like GEOSS, EPA in partnership with Federal, state, tribal and 
local environmental agencies, collects many kinds of environmental 
monitoring data, and develops and validates environmental models that 
support decisions about the environment.
    At the same time, EPA is helping state, tribal, and local 
environmental agencies and their decision makers address the challenge 
of defining and tracking ``environmental stewardship'' with 
outcomebased performance metrics. EPA is a leader in using data to 
measure and evaluate environmental progress.
    To improve accountability, EPA made a commitment in our Strategic 
Plan to measure our performance. As part of this commitment, EPA 
published our first `` Draft Report on the Environment'' in 2003, 
providing the first EPA national look at the condition of human health 
and the environment. The Draft Report on the Environment also served as 
a capstone report on the state of the science of environmental health 
indicators, identifying gaps and limitations and starting EPA down a 
path towards comprehensive real-time environmental health indicators 
that will be widely accepted and used.
    In addition to our strong network with state, tribal and local 
environmental agencies, EPA also has a strong international network. 
Consistent with the notion that the Earth is one integrated 
interoperable system and that the environment knows no political 
boundaries, GEOSS will require concerted and long-term international 
cooperation to achieve many of the internationally shared health and 
environmental goals. EPA has a history of international environmental 
partnerships, where the transfer of technology and knowledge benefits 
all parties.
    At EOSII in Japan 2004, EPA Administrator Michael Leavitt put the 
GEOSS efforts in a familiar context. ``The world is beginning to 
intuitively organize itself into networks. Similar to the way we 
communicate with computer networks, we will solve environmental 
problems best by connecting multiple disciplines and finding a common 
language. Doing this well is the new frontier in productivity.'' In my 
view, GEOSS will help facilitate a common language and understanding by 
building the technical and social networks, improving our ability to 
monitor and predict changes, and enabling citizens and policy makers to 
make more informed decisions affecting their environment.
    EPA stands ready and willing to further its already strong support 
on the implementation of GEOSS with all our partners. For example, EPA 
has an advanced monitoring initiative in the FY 2006 President's 
Budget, which is part of GEOSS. This initiative will enable pilot 
efforts to demonstrate how new data and information can be quickly 
brought into environmental applications and make a difference. Thank 
you for the opportunity to speak with you today. I look forward to your 
questions.

    Mr. Whitfield. Thank you, Dr. Foley.
    And Dr. Patrinos, you are recognized for 5 minutes.

                 TESTIMONY OF ARISTIDES PATRINOS

    Mr. Patrinos. Thank you, Mr. Chairman and members of the 
subcommittee. It--I am indeed honored to testify on behalf of 
the Department of Energy.
    Like the other sister agencies you have heard from, the 
Department of Energy is an enthusiastic participant in the 
activities of GEOSS. The business of energy, Mr. Chairman, can 
be a major beneficiary of improved observations and of better 
forecasts that would be derived from these improved 
observations. For example, better weather forecasts can help us 
better stage power plant operations. Also, better predictions 
of rainfall and snow pack can greatly aid the operation of 
hydroelectric stations. We stand to significantly benefit in 
terms of improved efficiency, energy security, and decreased 
reliance on foreign sources of energy.
    Another area of great interest to the Department of Energy 
is that of climate variability and climate change, whether it 
is from natural causes or because of increases in greenhouse 
gases from fossil fuel burning.
    Climate change prediction is, frankly, more complicated 
than weather forecasting, because we are generally searching 
for a small signal against large natural variations. Even 
though many observations benefit both the weather forecasting 
and the prediction of climate change, there are some special 
measurements that need to be made for predicting climate change 
more reliable. These additional measurements are mostly fluxes, 
whether they are of greenhouse gases or fluxes of atmospheric 
radiation and atmospheric water in its various phases.
    Observations from satellites are essential for studying 
both weather and climate because of their wide area coverage. 
The recent decades have brought us dramatic increases in the 
number of satellites and the instruments on these satellites, 
and this increase has clearly been reflected in the 
improvements of both weather forecasting and climate change 
prediction.
    However, satellite-observing systems must continue to be 
augmented with ground-based observing systems. Ground-based 
systems that provide sustained and continuous measurements 
provide a complementary look to the atmosphere as well as serve 
to calibrate and validate the satellite observations.
    The Department of Energy supports some of those ground-
based measurements that are particularly important for the 
study of climate change. The Department of Energy's Atmospheric 
Radiation Measurement program, the ARM program, as we call it, 
provides such high-quality measurements at three permanent 
stations at the Oklahoma-Kansas border, on the north slope of 
Alaska, and the tropical western Pacific, and with its mobile 
site, which is currently located in California and expected to 
be moved to Niger, Africa next January.
    The ARM program measures the continuous fluxes of 
atmospheric radiation of water and of aerosols as well as cloud 
properties with great precision. These sites will be part of 
GEOSS, including the U.S. integrated earth observation system, 
as spelled out in the integrated earth observation system draft 
strategic plan that you have seen.
    DOE also supports over 15 Ameriflux sites around the U.S. 
and Canada. These facilities measure the continuous flux of 
carbon for various ecosystems and help us better understand the 
global carbon cycle, including its principal sources and sinks.
    Finally, I would like to mention an exciting new dimension 
of earth observations, and that is that of environmental 
genomics. This has come about because of the successful human 
and microbial genome sequencing that DOE has played such an 
important role in. This particular measurement involves 
sequencing all of the DNA that is captured in a gram of soil, a 
cc of seawater, or a liter of air. You may have seen the 
article in the paper this week about Craig Ventor's sampling of 
the atmosphere above New York City. He is one of our PIs in 
this very exciting project. From the DNA sequence, we can infer 
the diversity of living systems in various locations. 
Eventually, we may be able to monitor that diversity across 
space and time and acquire a new and more sensitive way to 
check on the health of the planet.
    Genomics sampling is, of course, still at the very early 
stage, but eventually I am convinced and very bullish about the 
possibility that it could become a part of the GEOSS system.
    I would be delighted to answer any questions.
    [The prepared statement of Aristides Patrinos follows:]
Prepared Statement of Aristides Patrinos, Associate Director of Science 
               for Biological and Environmental Research
    Mr. Chairman and Members of the Subcommittee: Several energy 
related interests are addressed and benefits derived from global earth 
observations. These interests and benefits include improving weather 
and climate forecasts which allow us to better project energy demand in 
the future and to better understand and assess the potential for 
consequences of future climatic changes. Such forecasts are also 
essential for predicting the future capacity of hydroelectric systems 
which depend, of course, on precipitation and runoff.
    Most of the current earth observing systems have been designed 
primarily for the needs of weather forecasting. Weather forecasting is 
an ``initial condition'' problem. By that, we mean that the success of 
the forecast is heavily dependent on the quality of the specified 
initial state of the atmosphere. Thus, weather forecasting observing 
systems tend to focus on determining the three-dimensional values of 
the state variables of the system (the atmosphere)--namely, air 
temperature, humidity, and the three components of the wind vector. 
While weather forecasting requires accurate observations, spatial 
patterns and relative accuracy across those patterns are the primary 
concerns.
    Climate, on the other hand, is a ``boundary condition'' problem; 
that is, climate simulation depends on knowing the energy fluxes into 
and out of the system and the quantities of components such as carbon 
dioxide and water vapor which affect the flow of those energy fluxes in 
the system. Consequently, climate observing systems need to extend 
beyond measurements of state variables to measurements of fluxes of 
radiation, energy and water. The focus on energy and water cycles is 
because they are involved in the dominant forms of energy transfer in 
the climate system (solar energy, thermal infrared energy, evaporation 
and condensation). Further, because forecasting climate is a search for 
small system trends and imbalances in the midst of large weather 
variability, climate observations require a much higher degree of 
precision than do weather observations.
    Satellite instruments are essential for both weather and climate 
observing systems. Satellites provide wide area coverage by their 
orbital characteristics and the use of cross-track scanning 
instruments. The past several decades have brought a dramatic increase 
in the number of satellites and instruments, their measurement 
resolution and variety, and their calibration. This trend has benefited 
both weather forecasting and climate. It is now possible to routinely 
measure temperature profiles, water vapor path amount and some 
profiles, cloud occurrence and other properties, wind direction and 
speed by tracking cloud movements, aerosol column amount, and a wide 
variety of other parameters.
    Satellite observing systems must continue to be augmented with 
ground-based observing systems for climate in particular, but also for 
other applications such as weather forecasting, environmental 
prediction systems, and research. Ground based systems provide high 
temporal resolution measurements, usually on the order of seconds. 
These measurements, when acquired continuously, provide a complementary 
look at the atmosphere compared to the broad spatial resolution of 
satellite instruments. It is technically possible to acquire 
simultaneous measurements of many different quantities in the 
atmosphere and at the surface, including both state variables and 
energy fluxes. The combination of active and passive sensor 
measurements to retrieve atmospheric properties is now a well 
established technique that will allow scientists to investigate climate 
and weather processes in unprecedented detail. In addition, these 
ground-based measurements provide the best way to evaluate the accuracy 
and representative nature of satellite measurements and vice versa. The 
climate observing system of the future must be a combination of 
satellite and ground-based systems.
    DOE supports some of the ground-based measurements at its three 
stationary Atmospheric Radiation Measurement (ARM) facilities, and at a 
new mobile facility that is just being deployed. These ARM facilities 
will be part of the GEOSS, including the U.S. Integrated Earth 
Observation System that is spelled out in the IEOS draft strategic 
plan.
    As we look to the future of climate change, climate research, and 
climate modeling, there is no doubt that progress in this arena will be 
intimately connected to data availability. Climate observing systems 
must include a balanced approach that is based on a combination of 
satellite and ground-based systems; neither is adequate by itself. In 
situ observations must also be included as a critical component for 
evaluation and assessment of accuracy. Without an integrated observing 
system, it is extremely unlikely that we will be able to develop or 
validate the climate models that we require to understand and forecast 
future climate variability and change.
    I would be pleased to answer your questions.

    Mr. Whitfield. Thank you, Dr. Patrinos.
    Dr. Dearry, in your testimony, you referred to the dead 
zones in the Gulf of Mexico and also in the Chesapeake Bay. And 
I think that you said that the dead zone in the Chesapeake Bay 
was larger than it has ever been in its history, is that 
correct?
    Mr. Dearry. That is correct, yes.
    Mr. Whitfield. Now how concerned are you about that and 
what--how will GEOSS help in that situation?
    Mr. Dearry. Well, this is a growing concern, not only in 
this country, but around the world. The incidents of these 
types of dead zones is really increasing on a global level. The 
dead zone that is in the Gulf of Mexico, for example, is an 
area the size of the State of New Jersey. It is 22,000 square 
kilometers. And these are mostly manmade in terms of their 
causation. They are due to non-point source pollution and 
runoff of plant nutrients, principally nitrates. And what 
happens is that those nitrates then lead to these types of 
blooms of algae. The algae eventually die and fall to the 
bottom of the water column, and they are consumed by bacteria. 
And it is that bacterial process that actually depletes water 
of its oxygen content. And what happens as a result of that is 
that the normal denizens of that area of water leave because 
oxygen is no longer there in the water to support them. So the 
potentially useful foods in terms of human consumption, 
shellfish, fin fish, leave those areas and are no longer 
available to us as a reliable, viable source of food, and those 
algae that grow as a result are also, in many cases, harmful 
because they release toxic compounds that can be taken up by 
humans through either inhalation or direct exposure dermally.
    So this is a growing concern, I think, for those of us in 
the U.S. as well as elsewhere around the world. There is a lot 
of focus on a regional level within this country, for example, 
in the whole Mississippi delta system, on a State basis, to try 
to address what leads to these types of dead zones and what we 
can do through both policy and other regulatory considerations 
to try to decrease their occurrence.
    Mr. Whitfield. Well, allowing these runoffs, I am assuming 
that is a violation of existing environmental laws or is it 
not?
    Mr. Dearry. Not really. You know, in many cases, this is 
regulated at a State level.
    Mr. Whitfield. Okay.
    Mr. Dearry. And Maryland, for example, has had, really, the 
most aggressive policy, I would say, of trying to regulate that 
type of runoff on a State level, but it is not as if Maryland 
has total control of the Chesapeake Bay. You know, those waters 
originate in Upstate New York.
    Mr. Whitfield. Right.
    Mr. Dearry. And so it really takes at least a regional, if 
not a national, strategy to try to address those problems.
    Mr. Whitfield. Dr. Foley, in your testimony, you mentioned, 
I believe, that the GEOSS system would be helpful in 
identifying additional scientific gaps.
    Mr. Foley. That is correct. Yes.
    Mr. Whitfield. Would you elaborate on that a little bit?
    Mr. Foley. Well, we start with the fact that societal 
benefits that EPA tries to produce come from--as a result of 
environmental decisions that we make. As we look and talk to 
the environmental decisionmakers, we recognize that they are 
very dependent on observational data, usually acquired from the 
fixed-site monitoring networks, local ones. Those networks, as 
best as you can have them today, are far from perfect. And so 
we see where in these environmental decisions better data could 
lead to better decisions. Then the question is how can you 
augment these fixed site monitoring networks that you have, 
either for the air or for water quality, with satellite data 
and with more robust modeling. And by combining the data sets 
of--from the three things, the modeling, the satellite data, 
and the fixed site monitors, you can provide a more robust data 
set that can improve the understanding that goes into the 
decisionmaking. And as we are able to make satellite 
measurements on a finer and finer scale as we move into the 
future, we should be able to do this even better. And again, as 
computers get faster, the models get better. And so we see ways 
of bringing this altogether to improve decisionmaking. And we 
are trying this out in areas of air pollution and areas of 
water pollution working with States or local communities to 
actually do proof of concepts that this really works and you 
could get these benefits. And as we do it, the word spreads and 
more people want to try this with us.
    And so it seems to be an approach that works.
    Mr. Whitfield. Okay. Thank you.
    Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    I think all of us agree that, as well as an intellectual 
commitment from the various agencies to support this type of 
system, we also need to have a financial commitment. And I am--
I just have one question. I would like to ask each one of you 
if you can tell me what your agencies have proposed in the 2006 
budget to advance the initiative, starting with Dr. Dearry.
    Mr. Dearry. On the part of the National Institutes of 
Health, we are actually very engaged in trying to foster the 
collection of environmental data and communicating that to end-
users, to public health and to medical providers. So--and for 
example, we have worked with our partners at the National 
Science Foundation to develop a set of Centers for Oceans and 
Human Health, which are actively carrying out more research 
efforts to enable us to develop better sensors in the oceans, 
not only for ocean chemistry, for changes in temperature or 
salinity, oxygen, but also biological sensors so that, for 
example, we might be able to better analyze some of these 
harmful algal blooms.
    Ms. DeGette. Doctor, I hate to interrupt you. I only have--
--
    Mr. Dearry. Okay.
    Ms. DeGette. --5 minutes.
    Mr. Dearry. Okay.
    Ms. DeGette. And I know you have wonderful efforts going 
on. My question is do you have any specific financial line item 
in your budget for the GEOSS system and your agency's role?
    Mr. Dearry. Do we have a line item in the budget for GEOSS?
    Ms. DeGette. Yes. Or do you have an idea how much it is 
going to require to integrate your agency with GEOSS?
    Mr. Dearry. We do not have a line item in the budget for 
GEOSS. What we are doing is supporting a variety of research 
efforts with our own budget to try to accomplish the goals of 
GEOSS.
    Ms. DeGette. Okay. Great.
    Dr. Foley.
    Mr. Foley. We have a line item in the budget for GEOSS 
advanced monitoring of $5.3 million. This augments a base 
resource of related research that is probably about 4 to 5 
times that. And our expectation is with this program we will be 
trying to leverage funding from other agencies to work with us 
to the tune of about $10 million. But our line item is $5.3 
million.
    Ms. DeGette. And do you think that is sufficient for the 
2006 cycle?
    Mr. Foley. Considering that we are doing a lot now without 
it, we think we can do quite a lot more with it. And then we 
would look to increase that, possibly, in the future.
    Ms. DeGette. Great.
    Dr. Patrinos.
    Mr. Patrinos. We don't have a specific line item.
    Ms. DeGette. I think you need to turn on your microphone.
    Mr. Patrinos. We do not have a specific line item for 
GEOSS. However, many of our climate programs, and also some of 
our biological programs, some of which I have described in my 
oral remarks, have been sensitized to the possibilities of 
integration across other agency programs and also 
internationally.
    Ms. DeGette. Thank you.
    Let me just say, Mr. Chairman, I know this is our last 
panel, and these are my last questions. I mean, I think we all 
agree Admiral Lautenbacher has a fabulous commitment to this. 
We all think it is a great idea, but as we see with this panel 
and also the previous panel--well, actually all three panels 
today, it is all a little bit sketchy. Everybody thinks it is a 
great idea, and they are doing their best. I think we really 
need to have some clear goals from all of the agencies and also 
some clear budget directives from Congress, because if we are 
just sort of hoping this happens, then we all know it may not. 
It may not happen in the time or the way we want.
    So thank you for having this hearing.
    Mr. Whitfield. Well, very good point. We all were quite 
disappointed with the omnibus bill and the omnibus process. And 
all of us are trying to be determined not to have another 
omnibus bill.
    But with that, Dr. Burgess, you have 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    And yes, let me go on record as saying I don't want to end 
up in the omnibus process again this year, either.
    Ms. DeGette. It is unanimous.
    Mr. Burgess. Dr. Dearry, on--what can you tell us about 
currently using some of our earth observation system of systems 
to, say, help someone with a specific disease, like asthma?
    Mr. Dearry. See, I think there is a lot of potential to be 
able to collect better air pollution data than we are now able 
to do. Most of this on an ongoing basis now is done at very 
localized sites. There is no large-scale global effort to try 
to collect these data and to integrate them on either a State 
or a national scale. So that offers a lot of potential for us 
to be able to better utilize information related to particulate 
matter, to different air pollutants, such as sulfates and 
nitrates, which have been shown to be triggers of asthma, to 
exacerbate asthma attacks. So having better sources and better 
integration of those types of data on a larger scale will 
enable us to better predict where those types of risks arise 
for people who have asthma.
    Mr. Burgess. Is anyone correlating that sort of data with 
syndrome surveillance, watching purchases at drug stores, over-
the-counter purchases of medications or prescription 
medications, emergency room visits, and that type of thing?
    Mr. Dearry. There is a fair amount of that work ongoing, 
especially with regard to emergency room visits. A lot of this 
we carry out in concert with our other colleagues within the 
Department of Health and Human Services, such as CDC and FDA, 
to be able to start to assess some of those links between 
environment exposures and health impacts. There is really no 
national tracking or surveillance system for asthma, for 
example. Some municipalities, some States have the beginnings 
of that type of tracking system on their own, but there is 
nothing on a national level. Nevertheless, we are working with 
CDC to start to develop an environmental public health tracking 
system that would have exactly that goal. How is it that we can 
better examine both indoor and outdoor air environments and 
track those, relate those to the incidence of asthma?
    Mr. Burgess. It seems to me that there possibly even could 
be a homeland security implication in this as well, if, for 
example, there was a disconnect between what was happening at 
the drug store and emergency room level and what you were 
seeing on your observational system. So I would just encourage 
you to continue that, and it sounds like a very attractive area 
of research.
    And then--which leads me to the next point about the 
environmental genomics. And could you just expound upon that a 
little bit? What all is involved in that? Or how are you taking 
these samples? How large a sample? And do you relate it back to 
things like algal blooms? Or do you check the DNA of the 
bacteria that are growing as a result of that?
    Mr. Patrinos. Sure. The sampling is, in fact, fairly 
straightforward. In the oceans, we take certain--a certain 
amount of liters, and then we filter it with varying size 
filters. And we collect, essentially, all of the DNA that is 
caught in the filter. And then we shotgun sequence it through 
this innovative sequencing approach that, in fact, Craig Ventor 
pioneered a few years back. And now we already have in our data 
bases the sequences of many life forms, including a lot of 
microbes. And we look for matches on the data bases. So we 
infer from the bits of DNA that we have sequenced what life 
forms there are, what microbes exist in that particular sample. 
We can do that also in land, as we have done it in acid mines 
in California, for example. And very recently this week, there 
was this article that Craig Ventor did in terms of sampling the 
air above New York City, filtering the air that was captured, 
and again sequencing the DNA that was captured on the filters. 
Every new sequence that we discover, every new bacteria that we 
discover, is stored in the data bases. So in a sense, the data 
base grows by the day. And ultimately, we get matches, so we 
know basically what exists in that particular sample, whether 
it is in the ocean, whether it is in the air, or it is on land. 
And in some way, it becomes a question of not just necessarily 
finding the life forms that are there, but the collection or 
the diversity of genes that are there. So one can look at the 
diversity of life in a particular ecosystem as the diversity of 
genes that are acting in that particular ecosystem. And 
ultimately our goal when sequencing can become much cheaper and 
much faster, is to be able to monitor a lot of that in real 
time and also check its variability across space and time and 
therefore give us an entirely new way, as I mentioned, to check 
on the health of an ecosystem, ultimately the health of the 
planet.
    Mr. Burgess. But--and, too, there also does seem to be a 
homeland security implication in that as well.
    Mr. Patrinos. Indeed.
    Mr. Burgess. Okay. Thank you.
    Mr. Whitfield. That concludes today's hearing. I want to 
thank you for being with us. We appreciate your commitment and 
your--and we will keep the record open for 30 days for any 
additional testimony or material that may come in, but we look 
forward to working with you as we continue to implement the 
GEOSS system. And thank you very much for being with us today.
    Mr. Dearry. Thank you.
    Mr. Foley. Thank you.
    Mr. Patrinos. Thank you.
    [Whereupon, at 6:17 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]


    <GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
